<html>
<title> - WHAT DOES A SECURE BORDER LOOK LIKE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  WHAT DOES A SECURE BORDER LOOK LIKE?

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2013

                               __________

                            Serial No. 113-3

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
81-459                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  


                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................    60
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                               Witnesses

Mr. Michael J. Fisher, Chief, Border Patrol, Department of 
  Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................    15
Mr. Kevin McAleenan, Acting Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, 
  Department of Homeland Security:
  Oral Statement.................................................    20
  Joint Prepared Statement.......................................    15
Rear Admiral William D. Lee, Deputy for Operations Policy and 
  Capabilities, U.S. Coast Guard, Department of Homeland 
  Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Ms. Rebecca Gambler, Acting Director, Homeland Security and 
  Justice, Government Accountability Office:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Marc R. Rosenblum, PhD, Specialist in Immigration Policy, 
  Congressional Research Service, Library of Congress:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement of Thad W. Allen, 13 February 2013..........     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Statement of the American Civil Liberties Union................    61
  Report by the American Immigration Lawyers Association.........    65
The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas:
  Statement of Colleen M. Kelley, National President, National 
    Treasury Employees Union.....................................    79
  Statement of Jesse J. Hereford, Chairman, and Nelson H. Balido, 
    President, the Border Trade Alliance.........................    82

                                Appendix

Questions From Honorable Steven M. Palazzo for William D. Lee....    95
Questions From Honorable Steven M. Palazzo for Michael J. Fisher.    95
Questions From Honorable Beto O'Rourke for Kevin McAleenan.......    96


                  WHAT DOES A SECURE BORDER LOOK LIKE?

                              ----------                              


                       Tuesday, February 26, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Palazzo, Barletta, 
Stewart, Jackson Lee, Thompson, O'Rourke, and Gabbard.
    Also present: Representative Cuellar.
    Mrs. Miller. Good morning, everyone. The Committee on 
Homeland Security, our Subcommittee on Border and Maritime 
Security will come to order.
    The subcommittee is meeting today to examine our Nation's 
border security. We have an all-star panel of witnesses here 
this morning: Michael Fisher, who is the chief of the United 
States Border Patrol; Kevin McAleenan, who is the acting 
assistant commissioner in the Office of Field Operations at 
Customs and Border Protection; Admiral William Lee, who is the 
deputy for operations policy and capabilities at the United 
States Coast Guard; Rebecca Gambler, the director of the 
homeland security and justice section for the Government 
Accountability Office; and Marc Rosenblum, who is a specialist 
in immigration policy at the Congressional Research Service. I 
will be introducing them in a moment.
    But first, let me just recognize myself for an opening 
statement, and I would first like to congratulate the 
gentlelady from Texas, Ms. Jackson Lee, for her appointment as 
the Ranking Member of this subcommittee. We have had the 
opportunity to already work together previously and we have had 
some meetings before we started scheduling some of the 
hearings, so we are certainly looking forward to working 
together to strengthen our Nation's border.
    I would also like to just recognize the Republican Members 
of the committee who are with us. First of all, Jeff Duncan, 
from South Carolina. It is his second term--he is a veteran of 
this subcommittee, and a second term in Congress as well, and 
we are looking forward to his service on the subcommittee and 
in the Congress, and I certainly want to congratulate him, as 
well, as being selected as the Chairman on Oversight and 
Management Efficiency Subcommittee here in Homeland Security. 
So excited to welcome him back.
    Steve Palazzo, from Mississippi, is with us. He is a CPA. 
He is a United States Marine, a veteran of the Persian Gulf 
War, and still is in the Army National Guard in Mississippi. So 
we appreciate his service to the country and in the Congress 
and looking forward--and I know he has a lot of interest in 
maritime issues, in particular.
    Congressman Barletta--Lou Barletta--who is here from 
Pennsylvania. He is a former business owner, entrepreneur, a 
former mayor of Hazleton, and really is--has been an extremely 
strong voice on immigration issues and brings a, sort of a 
unique perspective to the entire thing. So we welcome him.
    Then certainly Congressman Stewart, Chris Stewart, from 
Utah, as well, who is a world-record-setting Air Force pilot, 
New York Times best-seller author, and he really has a very 
impressive resume and I think will bring, again, a unique 
perspective to this committee and to the committee in general.
    Appreciate your service, as well, to the service--to our 
Nation.
    Securing the Nation and our border--all of our borders and 
our Nation is certainly one of the principal responsibilities 
of the United States Congress and one that we have under the 
Constitution, actually. Since September 11 we have spent 
literally billions of dollars in our Nation to shore up the 
gaps in the Nation's border security.
    Unfortunately, some of the spending that was done we think 
may have been done in an ad hoc way. We spent an incredible 
amount of resources throwing them at problems without really, I 
think in some instances, trying to connect it to what we hoped 
to achieve with all of this spending.
    So it is no surprise that Congress thinks of solutions to 
border security chiefly in terms of resources--how many Customs 
and Border Protection officers; how many Border Patrol agents 
that we have; the hundreds of miles of fence that we have 
constructed, which is about 700 currently; the number of Coast 
Guard cutters or unmanned aerial vehicles, the UAVs; other 
kinds of technologies that we have sent to the border in recent 
years. All of those are incredibly, incredibly important, of 
course.
    But we also need to continue our conversation about--the 
conversation that we need to be having about border security 
and really what does a secure border look like, how do we use 
the resources that we have at our disposal to get there, and 
then finally, what is the best way for us to actually measure 
the progress that we have had in securing our border?
    Because it is a dynamic place; it is not static. Once we 
have secured one section, you know, it is not secured forever, 
so how we address that border should reflect that reality.
    Today I sort of want to pivot to a discussion away from the 
resources and into one that touches on outcomes. So again, 
instead of discussing entirely how we have just grown the 
Border Patrol, the CBP, the Coast Guard, or the different types 
of technologies that we have put on the border, I want to 
examine really what the American people have gotten for the 
investment that we have made in that and how effective are we 
at stopping the flow of illegal aliens who are crossing the 
border, stopping the drugs that chiefly are coming into our 
country through the official ports of entries? In the maritime 
domain, can we interdict the growing threat of 
semisubmersibles, these panga boats, that have all of these 
drugs that are now coming up the coastline of California?
    Using apprehensions as the only metrics for success, as the 
GAO and others have already noted, is an incomplete way to look 
at border security. Operational control--sort of the buzz term 
here on the Hill--maybe that is not best the way--the best way 
to measure border security and isolation. But the Congress and 
the American people have sort of been in the dark since 
Secretary Napolitano has abandoned that term.
    When the Department of Homeland Security stopped using the 
term ``operational control,'' at that time only 873 miles of 
the Southwest Border was considered controlled and only a few, 
really, on the Northern Border. They have said that we had 
about--I think it was 44 percent of the Southern Border under 
operational control; certainly in the low single digits on the 
Northern Border.
    Where we are today I think is an open question. You have 
Department of Homeland Security officials who have been telling 
us that a new, holistic measure called the border condition 
index is on its way. That was something that was told to our 
subcommittee and to the full committee about 3 years ago and we 
are still waiting to understand what that term means and how it 
would work.
    So I think when we hear individuals saying that the border 
is more secure than ever, that is not a substitute for very 
hard, verifiable facts, which is, again, why I want to examine 
today at this hearing the effectiveness and to push for a risk-
based, outcome-oriented approach to border security.
    GAO's most recent border security report is really the 
first time that we have seen an examination of the Border 
Patrol's efforts couched in terms of effectiveness, which in my 
view is a very positive development, certainly a good place 
to--for us to be talking about today. I believe that the CBP 
and the United States Coast Guard as well should also have 
outcome-based metrics that explain the state of security at the 
ports of entry and along our maritime borders.
    I have been advocating the need for a comprehensive 
strategy to secure the borders for the last several years 
because I am absolutely convinced that the Department of 
Homeland Security needs to just stop the ad hoc application of 
resources without really thinking about the big picture. I know 
that they are in many cases, but again, this hearing will 
really try to get to the nuts and bolts of how we can use a 
metrics to measure our success.
    We have to be held accountable for outcomes. We can't just 
say that the border is more secure than ever because we now 
have lots of agents, we have lots of technology, we have 
infrastructure on the border without, again, being able to 
verify from an accountability standpoint how effective they 
have actually been--we have been.
    Because the bottom line for the American people will be 
these simple questions: What does a secure border look like? 
How do we get there? Then, how do we measure it?
    So I look very much forward to hearing from the 
distinguished panel of witnesses today. I think this is going 
to be a very interesting hearing and one that can be a critical 
component for the entire Congress as we are totally engaged, as 
the Nation is, in this debate now about immigration reform and 
what a--again, what a critical component border security is to 
that debate.
    At this time the Chairwoman now recognizes the Ranking 
Minority Member from the subcommittee, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairwoman very much, and I am 
also looking forward to working with you and appreciate very 
much some of the earlier meetings that we had but also the 
opportunity that we have had to work together. I certainly 
adhere to the issue of outcomes.
    I, too, am very pleased to acknowledge new Members of our 
committee and welcome them, as well. But let me acknowledge all 
of our Members of our committee: Representative Loretta Sanchez 
hails from a State with both border and maritime interests and 
she has even served as subcommittee Chairwoman; I want to 
welcome Representative Beto O'Rourke, who represents a district 
along the U.S.-Mexico border and knows first-hand the 
importance of border security but also knows first-hand the 
enhanced safety and security that they are facing and 
experiencing through hard work in El Paso.
    I welcome you.
    Like to also welcome Representative Tulsi Gabbard--thank 
you so very much--who comes from a district with unique 
homeland security interests--I would say very unique. You add a 
very special commitment to this committee because we need to 
understand the--both the successes and challenges of Hawaii 
that is facing a different order of intrusion, being in its 
location.
    I am also delighted to welcome our Ranking Member, Mr. 
Thompson, who has had an on-going commitment to securing the 
border, and we have worked over the years together, and has 
generated under his leadership a number of successes.
    I would, before I go into my full remarks, also welcome Mr. 
Cuellar, who was a Ranking Member on this committee and worked 
on the GAO request that many of us are reviewing and that I 
have joined.
    So, Madam Chairwoman, I ask unanimous consent that the 
gentleman from Texas, Mr. Cuellar, be allowed to sit and 
question the witnesses at today's hearing.
    Mrs. Miller. Without objection, and we certainly welcome 
him being back with us.
    Ms. Jackson Lee. Thank you so very much.
    I want to, as well, comment on outcomes and comment on the 
idea of data sharing and being more cooperative with our local 
officials. I think, Madam Chairwoman, we can find common 
ground. I have understood in briefings--and I indicated I would 
use this terminology--that securing the border is not 
simplistic. I think it is a moving process.
    We, in fact, see different topography; we see moments when 
one area is secure and others are not as secure. We note that 
there are cities, such as San Diego and El Paso along the 
border, that count themselves having great improvement and one 
might use the terminology ``operational control,'' primarily 
because there are border stations there.
    We know that there are 1,993 miles of border, 651 miles of 
fencing. One might make the argument that the un-fenced area is 
less secure. I would argue against that.
    One of the things that we need to ensure that we allow the 
Border Patrol to do is to advise us of how they believe using 
the right resources they can effectuate a secure border. But it 
is always moving.
    One of the issues that I think should be prominent in this 
is what we have done, such as in 2004, as a Member of this 
committee working with Senator Kerry, we provided the answer to 
the original request by Border Patrol, and that is equipment. 
That was the year that we presented all the helicopters, all of 
the Jeeps, all of the laptops, all of the night goggles, all 
the enhanced equipment. But we know that those kinds of 
resources are not the only answer to border security.
    What I would like to see is to match your outcomes with the 
use of new technology, but at the same time, as we move forward 
on technology and having the Border Patrol respond in a very 
short order of strategies that would give them what they feel 
is on-going operational control should be the moving forward on 
comprehensive immigration reform. I say that because when you 
speak to professionals about border security they speak less of 
the intrusion of masses of people as much as they talk about 
gun trafficking, drug trafficking. Those are the criminal 
elements--the cartels--that make the border unstable.
    So I would almost suggest that if you have regular order 
with immigration reform--comprehensive immigration reform--you 
then give a process of people being able to enter the country 
so that it gives more of a latitude for the resources that the 
border security--Border Patrol individuals would have to be 
able to work on something we could rename--may not call it 
``operational control,'' but enhanced border security and on-
going border security.
    I would also suggest, as I was able to glean from some very 
good conversations, that I would like to see enhanced 
intelligence. I would like to give the Border Patrol the 
resources to identify the threats and then I think that they 
would be able to come forward and provide us with the necessary 
strategy going forward.
    Again, I would offer this morning that as we proceed with 
this hearing I would like to also bring into play coordination 
between local and State authorities. My State legislature just 
voted yesterday, Madam Chairwoman, to ask the Federal 
Government for reimbursement. Some of those who voted for it 
recognize the challenges but they have been investing a lot in 
border security.
    So my point would be, as I conclude, is, one, I would like 
to see a coordination between DEA--and I say that enhanced 
coordination, want to thank them for the work already done--
ATF, FBI, Border Patrol, certainly local and State, and around 
that, the Border Patrol takes the lead on, one, defining what 
an on-going operational control--if we don't want to use that 
terminology, a high level of border security throughout our 
expanded area, including the north--Northern Border, including 
the Southern Border, and again, to recognize that comprehensive 
immigration reform--and let me also note the very fine work of 
the Coast Guard in a very unique border effort that goes deep 
out beyond our borders in the waterways really being the first 
line of defense for security.
    But finally, allowing the comprehensive immigration reform 
to parallel this effort of this committee, and the reason being 
is that will give a metric, a marker on how you are to be able 
to allow people in and to document those who are already within 
our borders.
    So I look forward to the testimony of all of our witnesses 
and again, I thank them for their service.
    Madam Chairwoman, I thank you for your courtesies. I yield 
back.
    Mrs. Miller. Thank the gentlelady.
    The Chairwoman now recognizes the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman, and I, 
like my colleague, Ms. Jackson Lee, look forward to this 
hearing.
    Welcome, to our witnesses. Some I have seen for a quite a 
while now. Good seeing you.
    Today's subcommittee is examining the Department of 
Homeland Security's efforts to achieve border security. With 
the support of Congress, DHS has made unprecedented efforts to 
better secure our borders in recent years, as already outlined 
by Ranking Member Jackson Lee's opening statement.
    Reasonable people may disagree about the best way to 
proceed from here about what having a secure border means. Some 
may believe we need expensive new technology along the borders; 
others, including me, see the need for additional effective, 
targeted resources accompanied by a comprehensive border 
security strategy that ensures we are using taxpayers' border 
security dollars wisely and avoiding past acquisition failures. 
Some may believe we need to return to using operational control 
as our metric for measuring border security; others, including 
me, believe we need a workable metric and a set of metrics that 
offer an accurate assessment of security of all our Nation's 
borders, both at and between the ports of entry.
    Earlier this month, former Coast Guard Commandant Thad 
Allen testified at the request of Chairman McCaul and urged the 
committee to decide what is an acceptable level of risk at our 
borders while accepting that risk will never be zero. I agree 
with former Commandant Allen and would like to insert his 
statement from the full committee hearing on February 13.
    Mrs. Miller. Without objection.
    [The information follows:]

                  Prepared Statement of Thad W. Allen
                            13 February 2013

    Mr. Chairman, Ranking Member Thompson, and Members of the 
committee, I am pleased to have been invited to testify on this 
important topic and I thank you for the opportunity.

A Retrospective
    Mr. Chairman, the 1st of March will mark the Tenth Anniversary of 
stand-up of the Department of Homeland Security. The Department was 
officially created on the 24th of January 2003, but the operating 
components from other departments were not moved to DHS until 1 March 
2003 when the Department became operational. From the signing of the 
Homeland Security Act on 25 November 2012 to the actual operation of 
the Department on 1 March barely 3 months passed. I am not here to 
dwell on the past but it is important to understand the circumstances 
under which the Department was created.
    While this could be considered Government at light speed, little 
time was available for deliberate planning and thoughtful consideration 
of available alternatives. The situation was complicated by the fact 
that the law was passed between legislative sessions and in the middle 
of a fiscal year. Other than Secretary Ridge, early leadership 
positions were filled by senior officials serving in Government. 
Confirmation was not required to be ``acting.'' Funding was provided 
through the reprogramming of current funds from across Government for 
Departmental elements that did not have existing appropriations from 
their legacy departments.
    Operating funds for components that were transferred were 
identified quickly and shifted to new accounts in the Department to 
meet the deadline. Because of the wide range of transparency and 
accuracy of the appropriation structure and funds management systems of 
the legacy departments some of the new operational components faced a 
number of immediate challenges. Estimating the cost of salaries for 
Customs and Border Protection (CBP) or Immigration and Customs 
Enforcement (ICE) required the combination of different work forces, 
with different grade structures, different career ladders, and 
different work rules.
    Basic mission support functions of the Department such as financial 
accounting, human resource management, real property management, 
information resource management, procurement, and logistics were 
retained largely at the component level in legacy systems that varied 
widely. Funding for those functions was retained at the component level 
as well. In those cases where new entities were created (i.e. 
Departmental-level management and operations, the Under Secretary for 
Science and Technology, the Under Secretary for Intelligence and 
Analysis, the Domestic Nuclear Detection Office) support systems had to 
be created rapidly to meet immediate demands of mission execution. 
Finally, components and Departmental offices that did not preexist the 
legislation were located in available space around the Washington, DC 
area and the Secretary and number of new functions were located at the 
Nebraska Avenue Complex in Northwest Washington.
    At the time of this transition I was serving as the Coast Guard 
Chief of Staff and was assigned as the Coast Guard executive to 
overseas the Service's relocation from the Department of Transportation 
to the new Department. We began planning for eventual relocation as 
soon as the administration submitted legislation to the Congress. I 
also assigned personnel to the Transition Planning Office (TPO) that 
was created in the Office of Management and Budget by Executive Order 
to prepare for the transition. A considerable challenge during this 
period was the fact that the TPO was part of the Executive Office of 
the President and there were legal limitations on how much of their 
work could be shared externally. As a result much of that effort was 
redone or duplicated when the Department was created.
    As I noted earlier, my intent is not to dwell on the past but to 
frame the degree of difficulty facing the leaders attempting to stand 
up the Department from the outset. Many of these issues persist today, 
10 years later. Despite several attempts to centralize and consolidate 
functions such as financial accounting and human resource management, 
most support functions remain located in Departmental components and 
the funding to support those functions remains in their appropriations. 
Because of dissimilarities between appropriations structures of 
components transferred from legacy departments there is a lack of 
uniformity, comparability, and transparency in budget presentations 
across the Department. As a result it is difficult to clearly 
differentiate, for example, between personnel costs, operations and 
maintenance costs, information technology costs, and capital 
investment. Finally, the 5-year Future Years Homeland Security Plan 
(FYHSP) required by the Homeland Security Act has never been 
effectively implemented as a long-rang planning, programming, and 
budgeting framework inhibiting effective planning and execution of 
multi-year acquisitions and investments.
    In the Washington Area the Department remains a disjointed 
collection of facilities and the future of the relocation to the St. 
Elizabeth's campus remains in serious doubt. As the Chief of Staff of 
the Coast Guard and Commandant I committed the Coast Guard to the move 
to St. Elizabeth and only asked that we be collocated with our 
Secretary and not be there alone. The Coast Guard will move to St. 
Elizabeth's this year . . . alone. One of the great opportunity costs 
that will occur if colocation does not happen will be the failure to 
create a fully functioning National Operations Center for the 
Department that could serve at the integrating node for Departmental-
wide operations and establish the competency and credibility of the 
Department to coordinate homeland security-related events and responses 
across Government as envisioned by the Homeland Security Act. As with 
the mission support functions discussed earlier, the Department has 
struggled to evolve an operational planning and mission execution 
coordination capability. As a result, the most robust command-and-
control functions and capabilities in the Department reside at the 
component level with the current NOC serving as a collator of 
information and reporting conduit for the Secretary.
    The combination of these factors, in my view, has severely 
constrained the ability of the Department to mature as an enterprise. 
And while there is significant potential for increased efficiencies and 
effectiveness, the real cause for action remains the creation of unity 
of effort that enables better mission performance. In this regard there 
is no higher priority than removing barriers to information sharing 
within the Department and improved operational planning and execution. 
Effective internal management and effective mission execution require 
the same commitment to shared services, information systems 
consolidation, the reduction in proprietary technologies and software, 
and the employment of emerging cloud technologies.
    Mr. Chairman, this summary represents my personal views of the more 
important factors that influenced the creation and the first 10 years 
of the Department's operations. It is not all-inclusive but is intended 
to be thematic and provide a basis for discussion regarding the future. 
Looking to the future the discussion should begin with the Department's 
mission and the need to create unity of effort internally and across 
the homeland security enterprise. I made similar comments before the 
Senate Committee on Homeland Security and Government Affairs last year.

The Future
    The Quadrennial Homeland Security Review was envisioned as a 
vehicle to consider the Department's future. The first review completed 
in 2010 described the following DHS missions:
  <bullet> Preventing Terrorism and Enhancing Security;
  <bullet> Securing and Managing Our Borders;
  <bullet> Enforcing and Administering our Immigration Laws;
  <bullet> Safeguarding and Securing Cyberspace;
  <bullet> Insuring Resiliency to Disasters.
    An additional area of specific focus was the maturation of the 
homeland security ``enterprise'' which extends beyond the Department 
itself to all elements of society that participate in and contribute to 
the security of the homeland.
    The QHSR outcomes were consistent with the fiscal year 2010 budget 
that was submitted in early 2009 following the change of 
administrations. That request laid out the following mission priorities 
for the Department:
  <bullet> Guarding Against Terrorism;
  <bullet> Securing Our Borders;
  <bullet> Smart and Tough Enforcement of Immigration Laws and 
        Improving Immigration Services;
  <bullet> Preparing For, Responding To, and Recovering From Natural 
        Disasters;
  <bullet> Unifying and Maturing DHS.
    The fiscal year 2010 budget priorities and the follow-on QHSR 
mission priorities have served as the basis for annual appropriations 
requests for 4 consecutive fiscal years.
    I participated in the first review prior to my retirement and we 
are approaching the second review mandated by the Homeland Security 
Act. This review presents an opportunity to assess the past 10 years 
and rethink assumptions related to how the broad spectrum of DHS 
authorities, jurisdictions, capabilities, and competencies should be 
applied most effectively and efficiently against the risks we are 
likely to encounter . . . and how to adapt to those that cannot be 
predicted. This will require a rethinking of what have become 
traditional concepts associated with homeland security over the last 10 
years.

Confronting Complexity and Leading Unity of Effort
    Last year in an issue of Public Administration Review (PAR), the 
journal of the American Society for Public Administration (ASPA), I 
wrote an editorial piece entitled ``Confronting Complexity and Leading 
Unity of Effort.'' I proposed that the major emerging challenge of 
public administration and governing is the increased level of 
complexity we confront in mission operations, execution of Government 
programs, and managing non-routine and crisis events. Driving this 
complexity are rapid changes in technology, the emergence of a global 
community, and the ever-expanding human-built environment that 
intersects with the natural environment in new, more extreme ways.
    The results are more vexing issues or wicked problems we must 
contend with and a greater frequency of high-consequence events. On the 
other hand advances in computation make it possible to know more and 
understand more. At the same time structural changes in our economy 
associated with the transition from a rural agrarian society to a post-
industrial service/information economy has changed how public programs 
and services are delivered. No single Department, agency, or bureau has 
the authorizing legislation, appropriation, capability, competency, or 
capacity to address this complexity alone. The result is that most 
Government programs or services are ``co-produced'' by multiple 
agencies. Many involve the private/non-governmental sector, and, in 
some cases, international partners. Collaboration, cooperation, the 
ability to build networks, and partner are emerging as critical 
organizational and leadership skills. Homeland security is a complex 
``system of systems'' that interrelates and interacts with virtually 
every department of Government at all levels and the private sector as 
well. It is integral to the larger National security system. We need 
the capabilities, capacities, and competency to create unity of effort 
within the Department and across the homeland security enterprise.

                 MISSION EXECUTION AND MISSION SUPPORT

    As we look forward to the next decade I would propose we consider 
two basic simple concepts: Mission execution and mission support. 
Mission execution is deciding what to do and how to do it. Mission 
support enables mission execution.

Mission Execution . . . Doing the Right Things Right
    As a precursor to the next QHSR there should be a baseline 
assessment of the current legal authorities, regulatory 
responsibilities, treaty obligations, and current policy direction 
(i.e. HSPD/NSPD). I do not believe there has been sufficient visibility 
provided on the broad spectrum of authorities and responsibilities that 
moved to the Department with the components in 2003, many of which are 
non-discretionary. Given the rush to enact the legislation in 2002 it 
makes sense to conduct a comprehensive review to validate the current 
mission sets as established in law.
    The next step, in my view, would be to examine the aggregated 
mission set in the context of the threat environment without regard to 
current stove-piped component activities . . . to see the Department's 
mission space as a system of systems. In the case of border security/
management, for example, a system-of-systems approach would allow a 
more expansive description of the activities required to meet our 
sovereign responsibilities.
    Instead of narrowly focusing on specific activities such as 
``operational control of the border'' we need to shift our thinking to 
the broader concept of the management of border functions in a global 
commons. The border has a physical and geographical dimension related 
to the air, land, and sea domains. It also has a virtual, information-
based dimension related to the processing of advance notice of 
arrivals, analysis data related to cargoes, passengers, and 
conveyances, and the facilitation of trade. These latter functions do 
not occur at a physical border but are a requirement of managing the 
border in the current global economic system.
    The air and maritime domains are different as well. We prescreen 
passengers at foreign airports and the maritime domain is a collection 
of jurisdictional bands that extend from the territorial sea to the 
limits of the exclusive economic zone and beyond.
    The key concept here is to envision the border as an aggregation of 
functions across physical and virtual domains instead of the isolated 
and separate authorities, jurisdictions, capabilities, and competencies 
of individual components. Further, there are other Governmental 
stakeholders whose interests are represented at the border by DHS 
components (i.e. Department of Agriculture, DOT/Federal Motor Carriers 
regarding trucking regulations, NOAA/National Marine Fisheries Service 
regarding the regulation of commercial fishing).
    A natural outcome of this process is a cause for action to remove 
organizational barriers to unity of effort, the consolidation of 
information systems to improve situational awareness and queuing of 
resources, and integrated/unified operational planning and coordination 
among components. The additional benefits accrued in increased 
efficiency and effectiveness become essential in the constrained budget 
environment. The overarching goal should always be to act with 
strategic intent through unity of effort.
    A similar approach could be taken in considering the other missions 
described in the QHSR. Instead of focusing on ``insuring resiliency to 
disasters'' we should focus on the creation and sustainment of National 
resiliency that is informed by the collective threat/risks presented by 
both the natural and human-built environments. The latter is a more 
expansive concept than ``infrastructure'' and the overall concept 
subsumes the term ``disaster'' into larger problem set that we will 
face. This strategic approach would allow integration of activities and 
synergies between activities that are currently stovepiped within FEMA, 
NPPD, and other components. It also allows cybersecurity to be seen as 
an activity that touches virtually every player in the homeland 
security enterprise.
    In regard to terrorism and law enforcement operations we should 
understand that terrorism is, in effect, political criminality and as a 
continuing criminal enterprise it requires financial resources 
generated largely through illicit means. All terrorists have to 
communicate, travel, and spend money, as do all individuals and groups 
engaged in criminal activities. To be effective in a rapidly-changing 
threat environment where our adversaries can quickly adapt, we must 
look at cross-cutting capabilities that allow enterprise-wide success 
against transnational organized criminal organizations, illicit 
trafficking, and the movement of funds gained through these activities. 
As with the ``border'' we must challenge our existing paradigm 
regarding ``case-based'' investigative activities. In my view, the 
concept of a law enforcement case has been overtaken by the need to 
understand criminal and terrorist networks as the target. It takes a 
network to defeat a network. That in turn demands even greater 
information sharing and exploitation of advances in computation and 
cloud-based analytics. The traditional concerns of the law enforcement 
community regarding confidentiality of sources, attribution, and 
prosecution can and must be addressed, but these are not technology 
issues . . . they are cultural, leadership, and policy issues.
    Mr. Chairman, this is not an exhaustive list of proposed missions 
or changes to missions for the Department. It is an illustrative way to 
rethink the missions of the Department given the experience gained in 
the last 10 years. It presumes the first principals of: (1) A clear, 
collective strategic intent communicated through the QHSR, budget, 
policy decisions, and daily activities, and (2) an unyielding 
commitment to unity of effort that is supported by an integrated 
planning and execution process based on transparency and exploitation 
of information to execute the mission.

Mission Support . . . Enabling Mission Execution
    Mr. Chairman, in my first 2 years as Commandant I conducted an 
exhaustive series of visits to my field commands to explain my cause 
for action to transform our Service. In those field visits I explained 
that when you go to work in the Coast Guard every day you do one of two 
things: You either execute the mission or you support the mission. I 
then said if you cannot explain which one of these jobs you are doing, 
then we have done one of two things wrong . . . we haven't explained 
your job properly or we don't need your job. This obviously got a lot 
of attention.
    In the rush to establish the Department and in the inelegant way 
the legacy funding and support structures were thrown together in 2003, 
it was difficult to link mission execution and mission support across 
the Department. To this day, most resources and program management of 
support functions rest in the components. As a result normal mission 
support functions such as shared services, working capital funds, core 
financial accounting, human resources, property management, and 
integrated life cycle-based capital investment have been vexing 
challenges.
    There has been hesitancy by components to relinquish control and 
resources to a Department that appears to be still a work in progress. 
The structure of Department and component appropriations does not 
provide any easy mechanism for Departmental integration of support 
functions. As a result information sharing is not optimized and 
potential efficiencies and effectiveness in service delivery are not 
being realized. As I noted earlier, a huge barrier to breaking this 
deadlock is the lack of uniformity in appropriations structures and 
budget presentation. This problem has been compounded by the failure to 
implement a 5-year Future Years Homeland Security Plan and associated 
Capital Investment Plan to allow predictability and consistency across 
fiscal years.
    Mr. Chairman, having laid out this problem, I see three possible 
ways forward. The desirable course of action would be to build the 
trust and transparency necessary for the Department and components to 
collective agree to rationalize the mission support structure and come 
to agreements on shared services. The existing barriers are 
considerable but the first principals of mission execution apply here 
as well . . . unambiguous, clearly communicated strategic intent and 
unity of effort supported by transparency and knowledge-based 
decisions. A less palatable course of action is top-down directed 
action that is enforced through the budget process. The least desirable 
course of action is externally-mandated change. Unfortunately, the 
current fiscal impasse and the need to potentially meet sequester 
targets while facing the very real prospect of operating under a 
continuing resolution for the entire fiscal year 2013 represents the 
confluence of all of these factors and a fiscal perfect storm. There is 
a case to act now. We should understand that a required first step that 
lies within the capability of the Department would be to require 
standardized budget presentations that can serve as the basis for 
proposed appropriations restructuring to clearly identify the sources 
and uses of funds and to separate at a minimum personnel costs, 
operating and maintenance costs, information technology costs, capital 
investment, and facility costs.

Creating and Acting with Strategic Intent
    Mr. Chairman, I have attempted to keep this testimony at a 
strategic level and focus on thinking about the challenges in terms 
that transcend individual components, programs, or even the Department 
itself. I have spoken in the last year to the Department of Homeland 
Security Fellows and the first DHS Capstone course for new executives. 
I have shared many of the thoughts provided today over the last 10 
years to many similar groups. Recently, I have changed my message. 
After going over the conditions under which the Department was formed 
and the many challenges that still remain after 10 years, I was very 
frank with both groups. Regardless of the conditions under which the 
Department was created and notwithstanding the barriers that have 
existed for 10 years, at some point the public has a right to expect 
that the Department will act on its own to address these issues. 
Something has to give. In my view, it is the responsibility of the 
career employees and leaders in the Department to collectively 
recognize and act to meet the promise of the Homeland Security Act. 
That is done through a shared vision translated into strategic intent 
that is implemented in daily activities from the NAC to the border 
through the trust and shared values that undergird unity of effort. It 
is that simple; it is that complex.
    I understand the committee is considering whether the Department 
should develop a comprehensive border strategy that would encompass all 
components and entities with border equities, including State and local 
law enforcement. I also understand there is concern about performance 
metrics associated with carrying out such a strategy. There are also 
potential opportunities related to the equipment being returned from 
military operations in Iraq and Afghanistan. Finally, we are witnessing 
a transition of leadership in Mexico as we continue to jointly address 
the threat of drug and other illicit trafficking as a major hemispheric 
threat.
    In considering the strategic course of action going forward 
regarding the management of the border in a global commons or any of 
the diverse missions of the Department of Homeland Security, we should 
remember then General Eisenhower's admonition that ``Plans are nothing; 
planning is everything.'' I have been involved in strategic planning 
for decades I can attest to their value. Done correctly that value is 
derived from a planning process that forces critical thinking, 
challenges existing assumptions, creates shared knowledge and 
understanding, and promotes a shared vision. Accordingly, I would be 
more concerned about the process of developing a strategy than the 
strategy itself. It is far more important to agree on the basic terms 
of reference that describe the current and likely future operating 
environment and to understand the collective capabilities, 
competencies, authorities, and jurisdictions that reside in the 
Department as they relate to that environment and the threats 
presented.
    I believe the Homeland Security Act envisioned that process to be 
the Quadrennial Homeland Security Review. Accordingly, the committee 
may want to consider how that process that is already mandated in law 
might become the vehicle to create strategic intent. Intent that 
unifies Departmental action, drives resource allocation, integrates 
mission support activities, removes barriers to information sharing and 
creates knowledge.

Strategic Intent and the Border
    I am often asked, in the wake of the Deepwater Horizon oil spill, 
``Is it safe to drill offshore?'' My answer to that question is 
relevant to any consideration of how we carry out the sovereign 
responsibilities of a Nation in managing our border. My answer is that 
there is no risk-free way to extract hydrocarbons from the earth. The 
real question is: ``What is the acceptable level of risk associated 
with those activities in light of the fact that it will take a 
generation to develop alternate fuels?'' Likewise, there is no risk-
free way to manage a border short of shutting it down. Discussions 
about operational control of the border and border security too often 
focus on specific geographical and physical challenges related to 
managing the land border. While those challenges exist, they cannot 
become the sole focus of a strategy that does not account of all 
domains (air, land, sea, space, and cyber) and the risks and 
opportunities that the border represents. As I mentioned earlier we 
need to think of the border as a set of functions. We need to think 
about what is the acceptable level of risk associated with those 
functions. We cannot neglect trade and become fixated on driving risk 
to zero; it cannot be done.
    Whether it is TSA considering options for passenger and cargo 
screening, the Coast Guard considering the trade-offs between fisheries 
and drug enforcement, ICE considering resource allocation to protect 
intellectual property or remove dangerous aliens, NPPD considering how 
to deal with cyber threats to infrastructure, or USCIS deciding how 
immigration reform would drive demand for their services, the real 
issue is the identification and management of risk. Those decision are 
made daily now from the Port of Entry at Nogales to the Bering Sea, 
from TSA and CBP pre-clearance operations in Dublin to Secret Service 
protection of the President, and from a disaster declaration following 
a tornado in Mississippi to the detection of malware in our networks. 
The question is: How are they linked? Are those actions based on a 
shared vision that make it clear to every individual in the Department 
what their role is in executing or supporting the mission?
    A strategy for the border or any DHS mission ideally would merely 
be the codification of strategic intent for record purposes to support 
enterprise decisions. The creation of self-directed employees that 
understand their role in Departmental outcomes on a daily basis in a 
way that drives their behavior should be the goal. If a border strategy 
is desired, I believe it must be preceded by a far deeper introspective 
process that addresses how the Department understands itself and its 
missions as a unified, single enterprise.

    Mr. Thompson. Regardless of these differences, Madam 
Chairwoman, I would hope that we can all agree that pulling the 
equivalent of 5,000 Border Patrol agents and 2,750 CBP Officers 
from our borders, as called for by the sequester, is no way to 
achieve anyone's definition of a secure border. Forcing the 
Coast Guard to curtail air and surface operation by more than 
25 percent, reducing essential missions including migrant and 
drug interdiction and port security operations is no way to 
achieve border security. Additionally, reducing the number of 
available immigration detention beds from 34,000 that we have 
today is no way to secure our borders.
    I hope we can have a frank discussion today about the 
challenges DHS will face in securing our borders if and when 
sequestration takes effect.
    I am also pleased that we are joined today by a witness 
from the Government Accountability Office. GAO has done some 
very important work on border security matters on behalf of 
this committee.
    This work includes a report being released today that 
examines crime rates on the U.S. side of the Southwest Border. 
The report shows that in general crime rates have fallen in 
border communities in recent years and, in fact, are mostly 
lower than crime rates in non-border communities within the 
same States. This data would appear to suggest that while 
border-related crime is a concern, border communities are 
largely safe places to live, work, and do business.
    I hope to hear from Ms. Gambler in more detail about the 
report and what GAO's body of work indicates about the state of 
security along the borders.
    Finally, as groundwork is being done to develop 
comprehensive immigration reform legislation, I want to remind 
all our Members that border security is linked to immigration 
matters and will be an integral part of any reform proposal. As 
a leading committee on border security in the House, the 
Committee on Homeland Security has a long and successful 
history of conducting oversight of the Department of Homeland 
Security's efforts to secure our Nation's borders. It is 
imperative that this committee's expertise on border security 
inform any legislative proposal produced by Congress to reform 
our immigration system.
    With that, Madam Chairwoman, I look forward to today's 
hearing and I look forward to the witnesses' testimony. I yield 
back the balance of my time.
    Mrs. Miller. Thank the gentleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    Again, we are just so pleased to have the distinguished 
panel that we have before us this morning, and I think what I 
will do is just go through and introduce you, or read your bio 
and intro you all en masse and then we will start with Chief 
Fisher.
    Michael Fisher was named chief of the U.S. Border Patrol in 
May 2010. The chief started his duty along the Southwest Border 
in 1987 in Douglas, Arizona. He also served as a deputy chief 
patrol agent in the Detroit sector and as an assistant chief 
patrol agent in Tucson, Arizona.
    Mr. Kevin McAleenan is the acting assistant commissioner at 
the U.S. Customs and Border Protection where he is responsible 
for overseeing CBP's antiterrorism, immigration, anti-
smuggling, trade compliance, and agriculture protection 
operations at the Nation's 331 ports of entry.
    Rear Admiral William D. Lee is the deputy for operations 
policy and capabilities for the United States Coast Guard, and 
in this role Rear Admiral Lee oversees integration of all 
operations, capabilities, strategy, and resource policy. He 
spent 13 years in six different command assignments and spent a 
career, as well, specializing in boat operations and search and 
rescue.
    Rebecca Gambler is an acting director of the U.S. 
Government Accountability Office of homeland security and 
justice team where she leads GAO's work on border security and 
immigration issues.
    Marc Rosenblum is a specialist in immigration policy at the 
Congressional Research Service and is an associate professor of 
political science at the University of New Orleans.
    The witnesses' full written statements will appear in the 
record, and the Chairwoman now recognizes Chief Fisher for his 
testimony.

     STATEMENT OF MICHAEL J. FISHER, CHIEF, BORDER PATROL, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Fisher. Thank you.
    Chairwoman Miller, Ranking Member Jackson Lee, Ranking 
Member Thompson, and other distinguished Members of the 
subcommittee, it is indeed a privilege and an honor to appear 
before you today to discuss the work U.S. Border Patrol agents 
and mission support employees do every day to secure America's 
borders.
    Today my intent is to offer my thoughts regarding the 
question and purpose of this hearing: What does a secure border 
look like? In short, a secure border is characterized by low 
risk, one in which we reduce the likelihood of attack to the 
Nation and one that provides safety and security to the 
citizens against dangerous people seeking entry into the United 
States to do us harm.
    As we enter our first year of implementation I would like 
to highlight how the operational implementation plan is 
developing. First and foremost, we have a definitive 
requirement for information and intelligence to provide greater 
situational awareness in each of our operational corridors. 
Advanced information will provide us the ability to deploy and 
redeploy resources to areas of greatest threat. We have 
prioritized and submitted our intelligence requirements and we 
expect collection against these requirements soon.
    Second, we have assessed areas of high risk in certain 
corridors and determined appropriate staffing levels to reduce 
risk. We are currently increasing staffing levels in some 
corridors from others to ensure we are placing increased 
capability against the greatest threat.
    Third, we continue to refine the South Texas campaign, 
which was the first implementation of that strategy. The 
lessons learned from the past year confirm the importance of 
joint planning and execution with strategic objectives against 
common threats.
    Central to this campaign is the importance of including all 
communities of interest in the process and the establishment of 
joint targeting teams. We have found that focused, targeted 
enforcement, operational discipline, and unified commands do, 
in fact, have value.
    Fourth, we have commenced our first area reduction flights. 
The purpose of these flights is to identify remote areas along 
the border--areas where we have limited presence and 
technology--and determine whether or not vulnerability exists.
    This will allow us to periodically check sections along the 
border using technology and analytics, providing broader 
situational awareness to inform field commanders of any change 
in the terrain and the probability of entries, and to adjust 
resources in advance of increased activity. Moreover, this 
methodology will also allow us to verify the absence of threats 
in particular areas, in essence shrinking the border.
    In the end, the metrics and performance measures will 
provide us and this committee the answer to the questions: Are 
we winning, and how do we know? No longer will apprehensions 
alone be the anchor metric. Instead, we will concentrate on the 
likelihood of apprehension once an entry is detected in areas 
of significant illegal activity, and where this makes sense, 90 
percent effectiveness is our goal.
    We continue to learn the value of analyzing recidivism 
rates and what this means relative to reducing risk.
    Since my last testimony in front of this committee I have 
strengthened my conviction that assessing security along the 
border 1 linear mile at a time is the wrong approach. First, 
the environment in which we operate, characterized by dynamic 
threats operating within a corridor, does not lend itself 
neatly to steady, incremental metrics.
    Second, to ask the question, ``Is the border secure?'' in a 
vacuum presupposes a definitive end-state that is static, which 
it is not. The tremendous complexity of the border demonstrates 
why no single metric can be used to assess border security.
    Instead, a valid determination of border security can only 
be made by analyzing all available data and placing it in the 
context of current intelligence and operational assessments. 
Accomplishing this requires a structured process and 
methodology to shift the discussion from the possibility of 
threats to one involving a probability of threats and 
subsequent risk mitigation strategies.
    Although border security resources such as agent staffing, 
and detection, tracking, and monitoring technology are critical 
in providing enhanced capability against threats, simply 
measuring the amount of enforcement resources in a particular 
area does not by itself provide an accurate security 
assessment. Likewise, vulnerability does not simply exist in 
the absence of resources. Vulnerability exists when resources 
and corresponding capability are insufficient to meet defined 
and existing threats.
    So what do I propose? I would envision a process by which 
we would periodically brief this committee on current threats 
as assessed by the intelligence community. We would then show 
you how we are responding to those threats and brief the 
relevant metrics to assess our progress toward mitigating risk.
    In the end, we would be able to assess the state of the 
border from our perspective, work with other stakeholders who 
have equity and corresponding responsibility toward those 
objectives, and ultimately offer our professional judgment on 
the extent to which our border is secure.
    I want to applaud your efforts, Chairwoman Miller and the 
Members of the committee, for asking the critical question, 
``What does a secure border look like?'' Thank you, and I look 
forward to your questions.
    [The joint prepared statement of Mr. Fisher and Mr. 
McAleenan follows:]

   Joint Prepared Statement of Michael J. Fisher and Kevin McAleenan
                           February 26, 2013

    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, it is an honor to appear before you today 
to discuss the role of U.S. Customs and Border Protection (CBP) in 
securing America's borders, a role that we share with our Federal, 
State, local, Tribal, and international partners.
    We are here today to discuss what a secure border looks like. Some 
have suggested that it can be described in terms of linear miles of 
``operational control,'' a tactical term once used by the Border Patrol 
to allocate resources among sectors and stations along the border. We 
do not use this term as a measure of border security because the 
reality is that the condition of the border cannot be described by a 
single objective measure. It is not a measure of crime, because even 
the safest communities in America have some crime. It is not merely a 
measure of resources, because even the heaviest concentration of 
fencing, all weather roads, 24-hour lighting, surveillance systems, and 
Border Patrol Agents cannot seal the border completely.
    For border communities, a secure border means living free from fear 
in their towns and cities. It means an environment where businesses can 
conduct cross-border trade and flourish. For other American 
communities, it means enjoying the benefits of a well-managed border 
that facilitates the flow of legitimate trade and travel. Our efforts, 
combined with those of our international, Federal, State, local, and 
Tribal partners, have transformed the border and assist in continuing 
to keep our citizens safe, our country defendable from an attack, and 
promote economic prosperity.
    For CBP, securing our borders means first having the visibility to 
see what is happening on our borders, and second, having the capacity 
to respond to what we see. We get visibility through the use of border 
surveillance technology, personnel, and air and marine assets. Our 
ability to respond is also supported by a mix of resources including 
personnel, tactical infrastructure, and air and marine assets.

                 UNPRECEDENTED RESOURCES AT OUR BORDERS

    Thanks to your support, the border is more secure than ever before. 
Since its inception, DHS has dedicated historic levels of personnel, 
technology, and infrastructure in support of our border security 
efforts. Today CBP is the largest law enforcement agency in the United 
States.

Law Enforcement Personnel
    Currently, the Border Patrol is staffed at a higher level than at 
any time in its 88-year history. The number of Border Patrol agents has 
doubled, from approximately 10,000 in 2004 to over 21,000 agents today. 
Along the Southwest Border, DHS has increased the number of law 
enforcement on the ground from approximately 9,100 Border Patrol agents 
in 2001 to nearly 18,500 today. At our Northern Border, the force of 
500 agents that we sustained 10 years ago has grown to over 2,200. Law 
enforcement capabilities at the ports of entry have also been 
reinforced. To support our evolving, more complex mission since 
September 11, 2001, the number of CBP officers ensuring the secure flow 
of people and goods into the Nation has increased from 17,279 customs 
and immigration inspectors in 2003, to over 21,000 CBP officers and 
2,400 agriculture specialists today. These front-line employees 
facilitated $2.3 trillion in trade in fiscal year 2012, and welcomed a 
record 98 million travelers--a 12 percent increase over fiscal year 
2009, further illustrating the critical role we play not only with 
border security, but with economic security and continued growth.

Infrastructure and Technology
    In addition to increasing our workforce, DHS has also made 
unprecedented investments in border security infrastructure and 
technology. Technology is the primary driver of all land, maritime, and 
air domain awareness--and this will become only more apparent as CBP 
faces future threats. Technology assets such as integrated fixed 
towers, mobile surveillance units, and thermal imaging systems act as 
force multipliers increasing agent awareness, efficiency, and 
capability to respond to potential threats. As we continue to deploy 
border surveillance technology, particularly along the Southwest 
Border, these investments allow CBP the flexibility to shift more 
Border Patrol agents from detection duties to interdiction and 
resolution of illegal activities on our borders.
    At our ports of entry, CBP has aggressively deployed Non-Intrusive 
Inspection (NII) and Radiation Portal Monitor (RPM) technology to 
identify contraband and weapons of mass effect. Prior to September 11, 
2001, only 64 large-scale NII systems, and not a single RPM, were 
deployed to our country's borders. Today CBP has 310 NII systems and 
1,460 RPMs deployed. Upon arrival into the United States, CBP scans 99 
percent of all containerized cargo at seaports and 100 percent of 
passenger and cargo vehicles at land borders for radiological and 
nuclear materials.
    The implementation of the Western Hemisphere Travel Initiative 
(WHTI) involved a substantial technology investment in the land border 
environment; this investment continues to provide both facilitation and 
security benefits. For example, today, more than 19 million individuals 
have obtained Radio Frequency Identification (RFID) technology-enabled 
secure travel documents. These documents are more secure as they can be 
verified electronically in real-time back to the issuing authority, to 
establish identity and citizenship; they also reduce the average 
vehicle processing time by 20 percent.
    The implementation of WHTI in the land border environment, and the 
increased use of RFID-enabled secure travel documents, has allowed CBP 
to increase the National law enforcement query rate, including the 
terrorist watch list, to over 98 percent. By comparison, in 2005, CBP 
performed law enforcement queries in the land border environment for 
only 5 percent of travelers. In terms of facilitation, CBP has also 
capitalized upon these notable improvements to establish active lane 
management at land border ports; this process is analogous to the 
management of toll booths on a highway. Through active lane management, 
CBP can adjust lane designations as traffic conditions warrant to 
better accommodate trusted travelers and travelers with RFID-enabled 
documents.
    CBP continues to optimize the initial investment in the land border 
by leveraging new technologies and process improvements across all 
environments. Since 2009, a variety of mobile, fixed, and tactical 
hybrid license plate readers (LPR) solutions have been deployed to 40 
major Southern Border out-bound crossings and 19 Border Patrol 
checkpoints. These capabilities have greatly enhanced CBP's corporate 
ability to gather intelligence and target suspected violators by 
linking drivers, passengers, and vehicles across the core mission areas 
of in-bound, check-point, and out-bound. In the pedestrian environment, 
automated gates coupled with self-directed traveler kiosks now provide 
document information, query results, and biometric verification in 
advance of a pedestrian's arrival to CBP officers.
    CBP not only supports security efforts along the nearly 7,000 miles 
of land borders, but also supplements efforts to secure the Nation's 
95,000 miles of coastal shoreline. CBP has over 268 aircraft, including 
10 Unmanned Aircraft Systems (UAS), and 293 patrol and interdiction 
vessels that provide critical aerial and maritime surveillance and 
operational assistance to personnel on the ground. Our UAS capabilities 
now cover the Southwest Border all the way from California to Texas--
providing critical aerial surveillance assistance to personnel on the 
ground. Our UAS flew more than 5,700 hours in 2012, the most in the 
program's history. Over the last 8 years, CBP transformed a border air 
wing composed largely of light observational aircraft into a modern air 
and maritime fleet capable of a broad range of detection, surveillance, 
and interdiction capabilities. This fleet is extending CBP's detection 
and interdiction capabilities; broadening the ``border'' and offering 
greater opportunity to stop threats prior to reaching the Nation's 
shores. Further synthesizing the technology, CBP's Air and Marine 
Operations Center (AMOC) integrates the surveillance capabilities of 
its Federal and international partners to provide domain awareness for 
the approaches to the U.S. borders, at the borders, and within the 
interior of the United States.
    CBP is also looking to the future by working closely with the DHS 
Science & Technology Directorate to identify and develop technology to 
improve our surveillance and detection capabilities in our ports and 
along our maritime and land borders. This includes investments in 
tunnel detection and tunnel activity monitoring technology, low-flying 
aircraft detection and tracking systems, maritime data integration/data 
fusion capabilities at AMOC, cargo supply chain security, and border 
surveillance tools tailored to Southern and Northern Borders (e.g., 
unattended ground sensors/tripwires, upgrade for mobile Surveillance 
System, camera poles, and wide-area surveillance).

Indicators of Success
    This deployment of resources has, by every traditional measure, led 
to unprecedented success. In fiscal year 2012, Border Patrol 
apprehension activity remained at historic lows with apprehensions in 
California, Arizona, and New Mexico continuing a downward trend. In 
fiscal year 2012, the Border Patrol recorded 364,768 apprehensions 
Nation-wide. In fiscal year 2012 apprehensions were 78 percent below 
their peak in 2000, and down 50 percent from fiscal year 2008. An 
increase in apprehensions was noted in south Texas, specifically of 
individuals from Central American countries, including El Salvador, 
Guatemala, and Honduras. However, significant border-wide investments 
in additional enforcement resources and enhanced operational tactics 
and strategy have enabled CBP to address the increased activity. Today, 
there are more than 6,000 agents in south Texas, an increase of more 
than 80 percent since 2004.
    At ports of entry in fiscal year 2012, CBP officers arrested nearly 
7,900 people wanted for serious crimes, including murder, rape, 
assault, and robbery. Officers also stopped nearly 145,000 inadmissible 
aliens from entering the United States through ports of entry. As a 
result of the efforts of the CBP National Targeting Center and 
Immigration Advisory Program, 4,199 high-risk travelers, who would have 
been found inadmissible, were prevented from boarding flights destined 
for the United States, an increase of 32 percent compared to fiscal 
year 2011.
    We see increasing success in our seizures as well. From fiscal year 
2009 to 2012, CBP seized 71 percent more currency, 39 percent more 
drugs, and 189 percent more weapons along the Southwest Border as 
compared to fiscal year 2006 to 2008. Nation-wide, CBP officers and 
agents seized more than 4.2 million pounds of narcotics and more than 
$100 million in unreported currency through targeted enforcement 
operations. On the agricultural front, from fiscal year 2003 to fiscal 
year 2012, CBP interceptions of reportable actionable plant pests in 
the cargo environment increased over 48 percent to 48,559 in fiscal 
year 2012. In addition to protecting our Nation's ecosystems and 
associated native plants and animals, these efforts are important to 
protecting our Nation's economy as scientists estimate that the 
economic impacts from invasive species exceed $1 billion annually in 
the United States.
    Reduced crime rates along the Southwest Border also indicate 
success of our combined law enforcement efforts. According to 2010 FBI 
crime reports, violent crimes in Southwest Border States have dropped 
by an average of 40 percent in the last 2 decades. More specifically, 
all crime in the seven counties that comprise the South Texas area is 
down 10 percent from 2009 to 2011. Between 2000 and 2011, four cities 
along the Southwest Border--San Diego, McAllen, El Paso, and Tucson--
experienced population growth, while also seeing significant decreases 
in violent crime.
    These border communities have also seen a dramatic boost to their 
economies in recent years. In fiscal year 2012, over $176 billion in 
goods entered through the Laredo and El Paso, Texas ports of entry as 
compared to $160 billion in fiscal year 2011. Additionally, the import 
value of goods entering the United States through Texas land ports has 
increased by 55 percent between fiscal year 2009 and fiscal year 2012. 
In Laredo alone, imported goods increased in value by 68 percent. 
Arizona is also a significant source for the flow of trade. In both 
fiscal year 2011 and fiscal year 2012, $20 billion entered through 
Arizona ports of entry.
    Communities along the Southwest Border are among the most desirable 
places to live in the Nation. Forbes ranked Tucson the No. 1 city in 
its April 2012 ``Best Cities to Buy a Home Right Now'' and in February, 
2012, the Tucson Association of Realtors reported that the total number 
of home sales was up 16% from the same month the previous year. Tucson 
also joins Las Cruces, New Mexico on Forbes' list of ``25 Best Places 
to Retire.'' These Southwest Border communities are also safe. In fact, 
Business Insider published a list of the top 25 most dangerous cities 
in America, and again, none of them is located along the Southwest 
Border. In fact, El Paso was named the second safest city in America in 
2009 and the safest in 2010 and 2011. This is in dramatic contrast to 
Ciudad Juarez, just across the border, which is often considered one of 
the most dangerous cities in the Western Hemisphere.
    The successes of a secure border are also reflected in key National 
economic indicators. In 2011, secure international travel resulted in 
overseas travelers spending $153 billion in the United States--an 
average of $4,300 each--resulting in a $43 billion travel and tourism 
trade surplus. In addition, a more secure global supply chain resulted 
in import values growing by 5 percent and reaching $2.3 trillion in 
fiscal year 2012 and is expected to exceed previous records in the air, 
land, and sea environments this year. CBP collects tens of billions of 
dollars in duties, providing a significant source of revenue for our 
Nation's treasury. These efforts compliment the strategies implemented 
by the President's National Export Initiative (NEI) which resulted in 
the resurgence of American manufacturers, who have added nearly 500,000 
jobs since January 2010, the strongest period of job growth since 1989. 
Additionally, other efforts to boost trade and exports are producing 
results. In 2011, U.S. exports have reached record levels, totaling 
over $2.1 trillion, 33.5 percent above the level of exports in 2009. 
U.S. exports supported nearly 9.7 million U.S. jobs in 2011, a 1.2 
million increase in the jobs supported by exports since 2009. Further, 
over the first 2 years of the NEI, the Department of Commerce had 
recruited over 25,000 foreign buyers to U.S. trade shows, resulting in 
about 1.7 billion in export sales. The administration's National Travel 
and Tourism Strategy calls for 100 million international visitors a 
year by the end of 2021, bringing over $250 billion in estimated 
spending.

         PROTECTING AMERICA FROM AFAR: SECURE BORDERS EXPANDED

    While enforcement statistics and economic indicators point to 
increased security and an improved quality of life, CBP uses an 
intelligence-based framework to direct its considerable resources 
toward a dynamic and evolving threat. CBP gathers and analyzes this 
intelligence and data to inform operational planning and effective 
execution.
    CBP's programs and initiatives reflect DHS's ever-increasing effort 
to extend its security efforts outward. This ensures that our ports of 
entry are not the last line of defense, but one of many.

Securing Travel
    On a typical day, CBP welcomes nearly a million travelers at our 
air, land, and sea ports of entry. The volume of international air 
travelers increased by 12 percent from 2009 to 2012 and is projected to 
increase 4 to 5 percent each year for the next 5 years. CBP continues 
to address the security elements of its mission while meeting the 
challenge of increasing volumes of travel in air, land, and sea 
environments, by assessing the risk of passengers from the earliest, 
and furthest, possible point, and at each point in the travel 
continuum.
    As a result of advance travel information, CBP has the opportunity 
to assess passenger risk long before a traveler arrives at a port of 
entry. Before an individual travels to the United States, CBP has the 
opportunity to assess their risk via the Electronic System for Travel 
Authorization for those traveling under the Visa Waiver Program, or as 
part of the inter-agency collaborative effort to adjudicate and 
continuously vet visas, which are issued by the Department of State. 
CBP has additional opportunities to assess a traveler's risk when they 
purchase their ticket and/or make a reservation, and when they check-
in.
    Before an international flight departs for the United States from 
the foreign point of origin, commercial airlines transmit passenger and 
crew manifest information to CBP. CBP's National Targeting Center then 
reviews traveler information to identify travelers who would be 
determined inadmissible upon arrival. As part of its Pre-Departure and 
Immigration Advisory/Joint Security Programs, CBP coordinates with the 
carriers to prevent such travelers from boarding flights bound for the 
United States. From fiscal year 2010 through fiscal year 2012 CBP 
prevented 8,984 high-risk travelers from boarding as a result of these 
programs.
    CBP also continues to expand Trusted Traveler Programs such as 
Global Entry. More than 1.7 million people, including over 223,000 new 
members this fiscal year, have access to Trusted Traveler Programs, 
which allow expedited clearance for pre-approved, low-risk air 
travelers upon arrival in the United States. CBP processed 500,000 more 
Global Entry passengers, with over 689,000 more kiosk uses in 2012, 
compared to the same time in 2011.
    These efforts not only allow CBP to mitigate risk before a 
potential threat arrives at a port of entry, but they also make the 
travel process more efficient and economical by creating savings for 
the U.S. Government and the private sector by preventing inadmissible 
travelers from traveling to the United States.

Securing Trade and the Supply Chain
    In fiscal year 2012, CBP processed 25.3 million cargo containers 
through the Nation's ports of entry, an increase of 4 percent from 
2011, with a trade value of $2.3 trillion. The United States is the 
world's largest importer and exporter of goods and services. To address 
increasing travel volumes, CBP assesses the risk of cargo bound for the 
United States, whether by air, land, or sea, at the earliest point of 
transit.
    Receiving advanced shipment information allows CBP to assess the 
risk of cargo before it reaches a port of entry. Since 2009, the 
Importer Security Filing (ISF) and the Additional Carrier Requirements 
regulation have required importers to supply CBP with an 
electronically-filed ISF consisting of advance data elements 24 hours 
prior to lading for cargo shipments that will be arriving into the 
United States by vessel. These regulations increase CBP's ability to 
assess the scope and accuracy of information gathered on goods, 
conveyances, and entities involved in the shipment of cargo to the 
United States via vessel.
    Since 2010, CBP has implemented the Air Cargo Advance Screening 
(ACAS) pilot, which enables CBP and the Transportation Security 
Administration (TSA) to receive advance security filing cargo data and 
help identify cargo shipments in-bound to the United States via the air 
environment that may be high-risk and require additional physical 
screening. Identifying high-risk shipments as early as possible in the 
air cargo supply chain provides CBP and TSA an opportunity to conduct a 
comprehensive review of cargo data while facilitating the movement of 
legitimate trade into the United States. Benefits to ACAS pilot 
participants include: Efficiencies by automating the identification of 
high-risk cargo for enhanced screening before it is consolidated and 
loaded on aircraft and reduction in paper processes related to cargo 
screening requirements which may increase carrier efficiency.
    CBP also has a presence at foreign ports to add another layer of 
security to cargo bound for the United States. The Container Security 
Initiative (CSI) launched in 2002 by the former U.S. Customs, places 
CBP officers on the ground at foreign ports to perform pre-screening of 
containers before they placed on a U.S.-bound vessel. The CSI program 
has matured since its inception in 2002, through increased partnership 
with host country counterparts and advances in targeting and 
technology, allowing CBP to decrease the number of CBP officers on the 
ground at CSI ports, while still screening more than 80 percent of 
cargo destined for the United States prior to lading on a U.S.-bound 
vessel.

Securing the Source and Transit Zones
    The effort to push out America's borders is also reflected by CBP's 
efforts to interdict narcotics and other contraband long before it 
reaches the United States. Since 1988, CBP OAM and the former U.S. 
Customs Service, has provided Detection and Monitoring capabilities for 
the Source and Transit Zone mission. The CBP OAM 
P-3 Orion Long Range Tracker (LRT) and the Airborne Early Warning (AEW) 
aircraft have provided air and maritime surveillance, detecting suspect 
smugglers that use a variety of conveyances. Transnational Criminal 
Organizations (TCOs) smuggle various contraband towards the U.S. 
Borders and Arrival Zones. The CBP P-3 aircraft have been instrumental 
in reducing the flow of contraband from reaching the Arrival Zones, by 
detecting the suspect aircraft and vessels while still thousands of 
miles away from the U.S. border. In fiscal year 2012, P-3 crews were 
involved in the seizure of 117,103 pounds of cocaine and 12,824 pounds 
of marijuana. In the first quarter of 2013, P-3 crews have been 
involved in the seizure of 33,690 pounds of cocaine and 88 pounds of 
marijuana. Providing direction to interdiction assets and personnel to 
intercept suspects long before reaching the United States, the CBP 
P-3 aircraft and crew provide an added layer of security, by stopping 
criminal activity before reaching our shores.

                               CONCLUSION

    CBP has made significant progress in securing the border with the 
support of the U.S. Congress through a multi-layered approach using a 
variety of tools at our disposal. CBP will continue to work with DHS 
and our Federal, State, local, Tribal, and international partners, to 
strengthen border security and infrastructure. We must remain vigilant 
and focus on building our approach to position CBP's greatest 
capabilities in place to combat the greatest risks that exist today, to 
be prepared for emerging threats, and to continue to build a 
sophisticated approach tailored to meet the challenges of securing a 
21st Century border. At the same time, the Secretary has made it clear 
that Congress can help by passing a common-sense immigration reform 
bill that will allow CBP to focus its resources on the most serious 
criminal actors threatening our borders.
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for this opportunity to testify 
about the work of CBP and our efforts in securing our borders. We look 
forward to answering your questions.

    Mrs. Miller. Thanks very much, Chief.
    The Chairwoman now recognizes Mr. McAleenan for his 
testimony.

 STATEMENT OF KEVIN MC ALEENAN, ACTING ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, Ranking Member Thompson, and distinguished 
Members of the subcommittee. Thank you for the opportunity to 
appear before you today. I appreciate the committee's 
leadership and commitment to ensuring the security of the 
American people and to having a productive discussion this 
morning on this important topic.
    CBP's Office of Field Operations carries out its border 
security activities in all 50 States, at 330 ports of entry, 
and globally at 70 locations in over 40 countries. Our priority 
mission is preventing terrorists and terrorist weapons from 
entering the United States while also interdicting inadmissible 
persons, illicit drugs, agricultural pests and diseases, and 
unsafe imports or goods that violate trade laws.
    But at ports of entry we define a secure border not only by 
our ability to prevent dangerous people and goods from entering 
the country, but also in terms of our ability to support the 
expeditious movement of travelers and cargo. In other words, a 
secure border at our Nation's ports of entry is a well-managed 
border, where mission risks are effectively identified and 
addressed and legitimate trade and travel are expedited.
    With this committee's support, CBP and the Department of 
Homeland Security are more capable than ever before in our 
efforts to secure our borders, but we remain committed to 
continuous improvement in our efforts and we strive to develop 
programs, tools, and operations to make those efforts 
increasingly effective. The process of measuring our progress 
is a constant focus and can be almost as complex as the mission 
itself.
    The Office of Field Operations uses a number of different 
types of metrics--several hundred of them--to assess our 
performance in managing our security risks and facilitation 
responsibilities. These metrics are both qualitative and 
quantitative; they include both effectiveness and efficiency 
measures; and they are assessed at the National, programmatic, 
regional, and port levels. We use these key indicators to 
assess our performance and evaluate trends and developments 
over time.
    It is important to emphasize that there is no single number 
or target level that can capture the full scope of our security 
or facilitation efforts. Instead, there are a series of 
important indicators that we use to assess and refine our 
operations.
    We begin our assessment by prioritizing the risk we face 
across the volume of people and goods we process and analyzing 
our capacity to mitigate vulnerabilities. Qualitatively, we 
look at measures we have in place to address specific risks--
whether they are comprehensive and whether they can be 
improved. Quantitatively, we use random, baseline examinations 
of both people and goods to help us assess how effective our 
efforts to identify and interdict threats are and we use 
efficiency measures to determine whether our security 
operations are properly targeted.
    Last, we use facilitation measures, such as traveler and 
vehicle wait times, to assess whether we are pursuing our 
security requirements and deploying our resources in a manner 
that expeditiously moves legitimate cross-border traffic.
    While I won't be able to cover many of our results in the 
time allotted, please allow me to walk through some of the 
measures we are capturing in key mission areas. Our 
foundational measures are the volume of people and goods we 
process. Last year CBP welcomed more than 350 million travelers 
at our air, land, and sea ports of entry and processed 25.3 
million cargo containers and over 100 million air cargo 
shipments with a trade value of $2.3 trillion. Securing these 
growing traffic levels without impeding them is our core 
challenge and we are tackling it head-on.
    In our primary antiterrorism mission we measure our success 
by how effectively we identify potential risks and how early we 
can take action to address them. In the last fiscal year, 
through our National Targeting Center, our overseas programs, 
and our coordination with interagency, international, and 
private-sector partners, CBP prevented 4,200 inadmissible and 
high-risk travelers from boarding flights to the United States, 
almost a 10-fold increase in this pre-departure activity from 
2009, and identified and mitigated risks in over 100,000 ocean 
cargo containers and over 2,000 air cargo shipments before they 
could be ladened on a vessel or loaded in an aircraft destined 
for the United States.
    Our ability to identify and deny admission to inadmissible 
persons seeking entry to the United States is a core mission 
where we have seen marked improvement with the implementation 
of technology like US-VISIT and the Western Hemisphere Travel 
Initiatives. These technologies have served as a significant 
deterrent to attempted illegal entries and the use of 
fraudulent documents, and overall, our arrests at ports of 
entry have increased while attempts by inadmissibles to enter 
through our ports have diminished.
    We have enhanced our efforts in both agriculture and trade 
protection to focus on those threats that present the highest 
risk to the U.S. economy and public. We are using three key 
types of metrics in this area: Our total examinations, the 
interceptions and seizures they produce, and our effectiveness 
rate in undertaking those exams. All of these show positive 
trends.
    These are just a few examples, and I look forward to 
further discussing areas of interest to the subcommittee. As 
you are well aware, we live in a world of ever-changing threats 
and challenges and we must continue to adapt to effectively 
identify and address them, anticipate vulnerabilities, and 
increase our facilitation.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members 
of the subcommittee, thank you for this opportunity to testify. 
I look forward to taking your questions.
    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Admiral Lee for 5 minutes of 
testimony.

 STATEMENT OF WILLIAM D. LEE, DEPUTY FOR OPERATIONS POLICY AND 
CAPABILITIES, U.S. COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Lee. Good morning, Madam Chairwoman, Ranking Member 
Jackson Lee, Ranking Member Thompson, and other distinguished 
Members of the subcommittee. I am honored to be here today to 
discuss the Coast Guard's role as a lead agency in combating 
our border security threats within our country's maritime 
domain.
    The Coast Guard uses a layered strategy to counter the 
threats we face in the maritime approaches to our Nation's 
borders. This strategy starts overseas with our partner 
nations. Our international port security program assesses 
foreign ports on their security and antiterrorism measures and 
continues into our own ports where, along with our 
intergovernmental and industry partners, we escort vessels, 
monitor critical infrastructure, and inspect facilities.
    Offshore, our major cutter fleet, along with Coast Guard 
law enforcement detachments on-board United States Navy and 
allied warships, are always on patrol, ready to respond to 
threats on the high seas. Coast Guard aviation assets support 
the fleet, providing surveillance and response, which helps 
optimize our overall effectiveness. Last year we removed over 
163 metric tons of illegal drugs before they reached our 
streets.
    Last summer I testified before you on the role that the 
interagency and international partners play in protecting our 
maritime borders closer to home. These partnerships enhance our 
capability and effectiveness along our coast and our waterways. 
An outstanding example of these partnerships is the regional 
coordinating mechanism, or RECOM. In fiscal years 2012 and to 
date in 2013 the San Diego and Los Angeles-Long Beach RECOMs 
interdicted 803 illegal migrants and more than 164,000 pounds 
of illegal drugs along the south--Southern California 
coastline.
    We enjoy very strong partnerships with Canada and Mexico. 
Through integrated border enforcement team operations, Coast 
Guard and Royal Canadian Mounted Police officers jointly 
conduct interdiction operations along our Northern Border.
    This success spurred the formation of integrated cross-
border maritime law enforcement operations, commonly referred 
to as Shiprider, which allows the U.S. and Canadian officers to 
conduct integrated maritime law enforcement activities. We have 
trained and exercised together and we are ready to begin joint 
operations this spring.
    Through our North American Maritime Security Initiative 
partnerships, which coordinate training and operations with 
Canada and Mexico, we have conducted 27 joint cases and removed 
more than 85,000 pounds of illegal narcotics. For example, 
earlier this month a Coast Guard Airborne Use of Force 
helicopter disabled a fleeing panga 26 miles west of Mexico. A 
Coast Guard boarding team detained two suspected Mexican 
smugglers and seized 1,800 pounds of marijuana. Using standard 
operational procedures developed through the North American 
Maritime Security Initiative we were able to quickly coordinate 
jurisdiction with the Mexican Navy, allowing for prosecution in 
the United States.
    These operations are not without risk, however. Our 
operating environment is challenging and traffickers can and do 
pose a serious threat of violence. As you may know, we recently 
lost a fellow Coast Guardsman when a suspect panga rammed a 
Coast Guard small boat, fatally injuring Senior Chief Terrell 
Horne. We are making every effort to prevent another tragic 
event such as this from happening.
    To maximize our effort, we are a member of the National 
intelligence community. We screen ships, crews, and passengers 
bound for the United States by requiring vessels to submit an 
advance notice of arrival some 96 hours prior to entering any 
U.S. port.
    Using our two maritime intelligence fusion centers and our 
intelligence coordination center's CoastWatch program, we work 
with CBP's National Targeting Center to analyze arriving 
vessels and ascertain potential risk. Last year we collectively 
screened more than 118,000 vessels and 29 million people.
    Our goal is to detect, deter, and interdict threats well 
before they pose a threat to our Nation.
    Again, I thank you for the opportunity to appear before you 
today and I look forward to your questions.
    [The prepared statement of Admiral Lee follows:]

                  Prepared Statement of William D. Lee
                           February 26, 2013

                              INTRODUCTION

    Good morning Madam Chairwoman Miller, Ranking Member Jackson Lee, 
and distinguished Members of the subcommittee. I am honored to be here 
today to discuss the Coast Guard's role in maritime border security.
    Threats to security along our Nation's maritime border may arrive 
by sea, air, and land. The potential threats include terrorist activity 
against our ports, smuggling, and other forms of criminal activity, and 
disruption of maritime commerce. The Coast Guard is one of the Federal 
agencies at the forefront of combating these threats, and I would like 
to share with you some of the ways we are doing that.

              A LAYERED APPROACH TO COUNTER MARITIME RISK

    With more than 350 ports and 95,000 miles of coastline, the U.S. 
maritime domain is vast and challenging in its scope and diversity. 
Under Federal statute, the U.S. Coast Guard has the statutory authority 
and responsibility to enforce all applicable Federal laws on, under, 
and over the high seas and waters subject to the jurisdiction of the 
United States.
    The Coast Guard leverages its unique authorities, capabilities, 
capacities, and domestic and international partnerships to maintain 
maritime border security through a layered and integrated approach--one 
that actually begins in foreign ports. Through the International Port 
Security Program, we conduct foreign port assessments to determine the 
port security effectiveness and antiterrorism measures of foreign 
trading partners.
    Offshore, our major cutter and patrol boat fleet supported by 
maritime patrol aircraft guards against and responds to threats, while 
maintaining a vigilant presence over the seas. Closer to shore, Coast 
Guard helicopters, smaller cutters, and boats monitor, track, 
interdict, and deliver boarding teams to vessels of interest. In our 
ports, the Coast Guard, along with Federal, State, local, Tribal, and 
port partners, works to monitor critical infrastructure, conduct vessel 
escorts and patrols, and inspect vessels and facilities. The Coast 
Guard's mix of cutters, aircraft, boats, command and control, vessel 
monitoring, and intelligence-gathering programs and systems--all 
operated by highly proficient personnel--allows us to exercise layered 
and effective security through the entire maritime domain.
    When the Coast Guard is alerted to a threat to the United States 
that requires a coordinated U.S. Government response, the Maritime 
Operational Threat Response (MOTR) Plan is activated. The MOTR Plan 
uses established protocols and an integrated network of National-level 
maritime command and operations centers to facilitate real-time Federal 
interagency communication, coordination, and decision making to ensure 
timely and decisive responses to maritime threats.
    This layered approach, facilitated by our participation within the 
National intelligence community, allows the Coast Guard to position its 
limited resources more effectively against the Nation's most emergent 
threats.

                         INTERNATIONAL EFFORTS

    To combat threats as early as possible, the Coast Guard fosters 
strategic relationships with partner nations. The International Ship 
and Port Facility Security (ISPS) Code provides an international regime 
to ensure ship and port facilities take appropriate preventative 
measures in alignment with our domestic regime under the Maritime 
Transportation Security Act. Through the International Port Security 
Program, Coast Guard personnel visit more than 150 countries and 900 
ports on a biennial cycle to assess the effectiveness of foreign port 
antiterrorism measures and verify compliance with the ISPS Code and our 
maritime security regulations, as appropriate. Vessels arriving from 
non-ISPS compliant countries are required to take additional security 
precautions, may be boarded by the Coast Guard before being granted 
permission to enter our ports, and in specific cases, may be refused 
entry.
    Additionally, the Coast Guard maintains 45 maritime bilateral law 
enforcement agreements with partner nations, which facilitate 
coordination of operations, and the forward deployment of boats, 
cutters, aircraft, and personnel to deter and counter threats as close 
to their origin as possible. These agreements also enable us to assist 
partner nations in asserting control within their waters, and 
maintaining regional maritime domain awareness.
    To further address maritime threats and leverage opportunities to 
improve border security closer to the United States, the Coast Guard, 
U.S. Northern Command (NORTHCOM), the Mexican Navy (SEMAR), and the 
Mexican Secretariat for Communications and Transportation (SCT) have 
strengthened relations through the Security and Prosperity Partnership 
(SPP). Through the SPP, SEMAR and SCT are increasing their engagement 
with the Coast Guard through training, exercises, coordinated 
operations, and intelligence and information sharing.
    Furthermore, the North American Maritime Security Initiative 
(NAMSI) provides an operational relationship between SEMAR, NORTHCOM, 
Canadian Forces, and the Coast Guard built upon standard procedures for 
communications, training, and operations. Since the inception of NAMSI 
in December 2008, there have been 27 joint narcotics interdiction cases 
resulting in the seizure of 85,500 pounds of illegal narcotics.
    As outlined by President Obama and Canadian Prime Minister Harper 
in the Beyond the Border declaration, border security includes the 
safety, security, and resiliency of our Nation; the protection of our 
environmental resources; and the facilitation of the safe and secure 
movement of commerce in the global supply chain.
    Along our Northern Border with Canada, the Coast Guard is an 
integral part of the Integrated Border Enforcement Team (IBET) 
operations where U.S. and Canadian agencies share information and 
expertise to support interdiction operations along our common border. 
From this partnership, an operational relationship known as Integrated 
Cross-border Maritime Law Enforcement Operations, commonly referred to 
as Shiprider, has emerged. Operations coordinated under the Shiprider 
Framework Agreement, ratified by the Canadian Parliament during the 
summer of 2012 and formally authorized in the Coast Guard and Maritime 
Transportation Act of 2012, are expected to commence this spring. This 
agreement provides unprecedented law enforcement flexibility in the 
shared waters of the U.S. and Canadian maritime border.
    Under the Shiprider Framework Agreement, specially trained U.S and 
Canadian officers from Federal, State, local, and Tribal agencies are 
granted cross-designated law enforcement authorities. U.S. law 
enforcement officers are designated Peace Officers in Canada, and 
Canadian officers are designated Customs Officers in the United States 
for the purposes of executing law enforcement operations approved under 
the agreement. This arrangement facilitates improved integrated 
operations and provides U.S. and Canadian law enforcement officers the 
authority to carry weapons and conduct law enforcement operations on 
both sides of the border. The Coast Guard and the Royal Canadian 
Mounted Police (RCMP) are the lead agencies for Shiprider for the 
United States and Canada respectively. Together, the Coast Guard and 
RCMP have developed a curriculum taught at the Coast Guard's Maritime 
Law Enforcement Academy in Charleston, South Carolina. To date, law 
enforcement officers from the Coast Guard, RCMP, U.S. Customs and 
Border Protection (CBP), the Ontario Provincial Police, and the St. 
Regis Mohawk (United States) and Akwesasne (Canada) tribes have been 
trained and cross-designated as Shipriders.

                         DOMESTIC PARTNERSHIPS

    The Department of Homeland Security (DHS) continues to apply a 
broad-based approach to border security on the Southwest Border with a 
focus on keeping our communities safe from threats of border-related 
violence and crime, and to weaken the transnational criminal 
organizations that threaten the safety of communities in the United 
States and Mexico.
    The Coast Guard coordinates and conducts joint operations with 
other DHS components and interagency partners as part of a whole-of-
Government response to border threats. Our efforts are guided by the 
DHS Small Vessel Security Strategy and its Implementation Plan, and 
Maritime Operations Coordination Plan (MOCP). The MOCP is the 
Department's cross-component plan for maritime operational 
coordination, planning, information sharing, intelligence integration, 
and response activities.
    In our ports, Coast Guard Captains of the Port (COTP) are 
designated as Federal Maritime Security Coordinators (FMSC). In this 
role, they lead the Area Maritime Security Committees (AMSC) and 
oversee development and regular review of AMSC Plans. The purpose of 
the AMSC is to assist and advise the FMSC in the development, review, 
and update of a framework to communicate and identify risks, and 
coordinate resources to mitigate threats and vulnerabilities for the 
COTP zones. AMSC's have developed strong working relationships with 
other Federal, State, and local law enforcement agencies in an 
environment that fosters maritime stakeholder participation.
    On a National scale, the establishment of Interagency Operations 
Centers (IOCs) for port security is well underway. In ports such as 
Charleston, Puget Sound, San Diego, Boston, and Jacksonville, the Coast 
Guard, CBP, and other agencies are sharing workspace and coordinating 
operational efforts for improved efficiency and effectiveness of 
maritime security operations.
    The Regional Coordinating Mechanism (ReCoM) is another example of 
the evolution of joint operations among interagency partners. Located 
at San Diego, Los Angeles, and San Francisco the ReCoMs are manned with 
Coast Guard, CBP, and State and local law enforcement agencies. The San 
Diego and Los Angeles/Long Beach ReCoMs coordinated operations 
contributing directly to the interdiction of 803 illegal migrants and 
164,000 pounds of illegal drugs in fiscal year 2012 and fiscal year 
2013 (through February 7).
    In December, to counter the drug and migrant smuggling threat in 
waters off Southern California, the Coast Guard, in partnership with 
other Federal, State, and local agencies increased our levels of effort 
for the standing Coast Guard Operation Baja Tempestad, which is also 
supported by CBP's Operation Blue Tempest. This combined surge brings 
additional resources to the fight against transnational criminal 
organizations along our maritime border, including flight deck-equipped 
cutters with airborne and surface use-of-force capability; increased 
Coast Guard and Customs and Border Protection maritime patrol aircraft 
flights; additional non-compliant vessel use-of-force end-game 
capabilities from our shore-based boats; and enhanced intelligence 
collection, analysis, and dissemination. Thus far in fiscal year 2013, 
this interagency effort has led to the removal of more than 44,000 
pounds of marijuana and the apprehension of 164 illegal migrants.
    On the high seas and throughout the 6 million-square-mile drug 
transit zone, joint interdiction operations with Federal partners are 
coordinated through the Joint Interagency Task Force South (JIATF-S) 
and Joint Interagency Task Force West (JIATF-W). Additionally, Coast 
Guard Law Enforcement Detachments are deployed aboard U.S. Navy and 
Allied (British, Dutch, and Canadian) assets to support detection, 
monitoring, interdiction, and apprehension operations.
    In support of another DHS initiative, the Coast Guard and CBP are 
participating in the Aviation and Marine Commonalities Pilot Project 
(AMCPP) in Puerto Rico; a 6-month operational pilot intended to test, 
measure, and evaluate the operational efficiency and effectiveness of 
existing DHS aviation and marine assets under actual operating 
conditions. Analysis of this information can improve coordination, 
decision making, force utilization, and highlight other operational 
dividends. Project efforts will also provide insight on the value of a 
Unified Command organization, potential efficiencies of coordinating 
action plans among components, the significance of continuing 
quantitative measures of data, the need for a common operational 
lexicon, and the potential for application elsewhere.
    In Puerto Rico, the Coast Guard is part of a broad Federal effort 
to strengthen current joint operations. To this end, we are conducting 
targeted surge operations and collaborating with international 
stakeholders. As a result of these joint efforts, 7,165 kilograms of 
cocaine and 200 pounds of marijuana were removed in fiscal year 2012. 
So far in fiscal year 2013, approximately 7,194 kilograms of cocaine 
and 1,750 pounds of marijuana have been removed.
    To leverage existing programs, the Coast Guard established formal 
partnerships to collaborate with CBP on their maritime Predator 
Unmanned Aerial System (UAS) program (land-based), and with the Navy 
UAS programs. Incorporating the UAS capability with manned patrolling 
will improve detection and surveillance activities significantly at a 
reduced cost when compared to manned aviation.

                  MARITIME INTELLIGENCE AND TARGETING

    Coast Guard vessel screening is the process of applying criteria to 
transiting vessels to develop a manageable set of targets for potential 
Coast Guard boarding and/or inspection. The Coast Guard screens ships, 
crews, and passengers for all vessels required to submit a 96-hour 
Advance Notice of Arrival (ANOA) prior to entering a U.S. port. 
Complementary screening efforts occur at the National and tactical 
levels. At the National level, the Intelligence Coordination Center's 
Coastwatch Branch--which is co-located with CBP partners at the 
National Targeting Center--screens crew and passenger information. 
Through our partnership with CBP, we have expanded access to 
counterterrorism, law enforcement, and immigration databases and this 
integration has led to increased information sharing and more effective 
security operations. In 2012, Coastwatch screened approximately 118,000 
ANOAs and 29.5 million crew/passenger records.
    At the tactical level, each of the Coast Guard's Area Commanders 
receives support from a Maritime Intelligence Fusion Center (MIFC), 
which screens the commercial vessels operating within their areas of 
responsibility (over 350,000 in 2012) for unique indicators, as well as 
providing additional screening for vessels that submit an ANOA. The 
MIFCs focus on screening characteristics associated with the vessels 
itself, such as ownership, ownership associations, cargo, and previous 
activity. Coast Guard vessel screening results are disseminated to the 
appropriate DHS Maritime Interagency Operations Center, Sector Command 
Center, local intelligence staffs, and CBP and other interagency 
partners to evaluate and take action on any potential risks. If the 
Coast Guard determines a vessel poses a special security risk, the 
Maritime Operational Threat Response Plan is activated.
    The Coast Guard also supports the CBP Container Security 
Initiative, to ensure that all United States-bound maritime shipping 
containers posing a potential risk are identified and inspected prior 
to being placed on vessels. This initiative encourages interagency 
cooperation through collecting and sharing information and trade data 
gathered from ports, strengthening cooperation, and facilitating risk-
informed decision making.

                               CONCLUSION

    The Coast Guard has forged effective international and domestic 
partnerships to optimize maritime border security while minimizing 
delays to the flow of commerce. We foster training, share information, 
and coordinate operations to deter and interdict current and emerging 
threats to our border.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the U.S. Coast Guard. I would be pleased to 
answer your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Miller. Thank you, Admiral.
    The Chairwoman now recognizes Ms. Gambler for her 
testimony.

    STATEMENT OF REBECCA GAMBLER, ACTING DIRECTOR, HOMELAND 
     SECURITY AND JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, Ranking Member Thompson, and Members of the 
subcommittee. I appreciate the opportunity to testify at 
today's hearing to discuss GAO's work on border security 
efforts and performance measurement issues.
    In fiscal year 2011 Customs and Border Protection reported 
spending over $4 billion to secure the U.S. Southwest Border. 
In that year, Border Patrol within CBP reported apprehending 
over 327,000 illegal entrants and making over 17,000 seizures 
of drugs.
    In May 2012 the Border Patrol issued a new strategic plan 
focused on mitigating risk rather than increasing resources to 
secure the border, and the Border Patrol is in the process of 
implementing that strategic plan.
    Today I would like to focus my remarks on two key areas. 
First, I will highlight GAO's work reviewing what data show 
about Border Patrol efforts and deployments of resources along 
the Southwest Border. Second, I will highlight GAO's work 
reviewing performance measures and indicators for border 
security.
    With regard to my first point, Border Patrol data show that 
from fiscal year 2006 to 2011 apprehensions within each 
Southwest Border sector declined. Over that same time period, 
estimated known illegal entries also declined.
    To provide an example of this, our analysis of Border 
Patrol data for the Tucson sector in Arizona showed that from 
fiscal year 2006 to 2011 apprehensions declined by 68 percent 
and estimated known illegal entries declined by 69 percent. 
Border Patrol attributed these decreases to various factors, 
such as changes in the U.S. economy and increases in resources.
    Fiscal year 2012 data reported by the Border Patrol 
indicate that apprehensions across the Southwest Border have 
increased from 2011 but it is too early to assess whether this 
indicates a change in trend.
    In addition to data on apprehension, other data collected 
by the Border Patrol are used by sector management to inform 
assessments of border security efforts. These data include, 
among things, the percentage of estimated known illegal 
entrants who are apprehended more than once, which is referred 
to as the recidivism rate, and seizures of drugs and other 
contraband.
    With regard to the recidivism rate, our analysis of Border 
Patrol data showed that the rate decreased across Southwest 
Border sectors from fiscal year 2008 to 2011. With regard to 
drug and other contraband seizures, our analysis of Border 
Patrol data showed that they increased by 83 percent from 
fiscal year 2006 to 2011.
    In addition to these data, Border Patrol sectors and 
stations track changes in their overall effectiveness as a tool 
to determine if the appropriate mix and placement of personnel 
and assets are being deployed and used efficiently and 
effectively. Border Patrol data showed that the effectiveness 
rate for eight of the nine sectors on the Southwest Border 
increased from fiscal years 2006 to 2011.
    Now, turning to the issue of performance measurement: 
Although Border Patrol has issued a new strategic plan to guide 
its border security efforts, the agency has not yet developed 
performance goals and measures for assessing the progress of 
its efforts and for informing the identification and allocation 
of resources needed to secure the border.
    Since fiscal year 2011, DHS has used the number of 
apprehensions on the Southwest Border between ports of entry as 
an interim performance goal and measure for border security. 
This measure provides some useful information but does not 
position the Department to be able to report on how effective 
its efforts are at securing the border.
    The Border Patrol is in the process of developing goals and 
measures. However, it has not yet set target time frames and 
milestones for completing its efforts.
    We recommended that the Border Patrol establish such time 
frames and milestones to help ensure that the development of 
goals and measures are completed in a timely manner. The 
Department agreed with our recommendations and stated that it 
plans to develop such time frames and milestones by November of 
this year.
    In closing, DHS's data indicate progress made toward its 
fiscal year 2011 goal to secure the border between ports of 
entry with a decrease in apprehensions along the Southwest 
Border. However, as an interim goal and measure, the number of 
apprehensions does not inform program results and therefore 
limits DHS and Congressional oversight and accountability.
    Going forward, it will be important for the Border Patrol 
and the Department to continue development of goals and 
measures that are linked to missions and goals, include 
targets, and produce reliable results.
    This concludes my oral statement. I would be pleased to 
answer any questions Members may have.
    [The prepared statement of Ms. Gambler follows:]

                 Prepared Statement of Rebecca Gambler
                           February 26, 2013

 BORDER PATROL.--GOALS AND MEASURES NOT YET IN PLACE TO INFORM BORDER 
                   SECURITY STATUS AND RESOURCE NEEDS
                              GAO-13-330T

    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee: I am pleased to be here today to discuss our past work 
regarding the Department of Homeland Security's (DHS) efforts to deploy 
and manage resources along the Southwest Border and to assess the 
results of those efforts. In fiscal year 2011, DHS's U.S. Customs and 
Border Protection (CBP) reported spending over $4 billion to secure the 
U.S. border with Mexico.\1\ The Office of Field Operations, within CBP, 
is responsible for securing the National borders at designated U.S. 
land border ports of entry.\2\ Border Patrol, also within CBP, is the 
Federal agency with primary responsibility for securing the borders 
between the ports of entry. CBP has divided geographic responsibility 
for Southwest Border miles between ports of entry among nine Border 
Patrol sectors. In fiscal year 2011, Border Patrol reported 
apprehending over 327,000 illegal entrants and making over 17,150 
seizures of drugs along the Southwest Border. Across the Southwest 
Border, the Tucson sector reported making the most apprehensions--over 
38 percent--and the most drug seizures--more than 28 percent--in fiscal 
year 2011.
---------------------------------------------------------------------------
    \1\ This figure represents the estimated percentage of net costs 
applied to the Southwest Border for CBP's Border Security and Control 
Between the Ports of Entry and Border Security Fencing, Infrastructure, 
and Technology programs.
    \2\ Ports of entry are officially designated facilities that 
provide for the arrival at, or departure from, the United States.
---------------------------------------------------------------------------
    Border Patrol is moving to implement a new strategy for securing 
the border between ports of entry. Border Patrol's 2004 National Border 
Patrol Strategy (2004 Strategy), developed following the terrorist 
attacks of September 11, 2001, was designed to facilitate the build-up 
and deployment of border resources to ensure the agency had the right 
mix of personnel, technology, and infrastructure and to deploy those 
resources in a layered approach at the immediate border and in other 
areas distant from the border. For example, from fiscal years 2004 
through 2011, the number of Border Patrol agents on the Southwest 
Border nearly doubled, from about 9,500 to about 18,500; and DHS 
reported that since fiscal year 2006, about $4.4 billion has been 
invested in Southwest Border technology and infrastructure. Through 
fiscal year 2010, these resources were used to support DHS's goal to 
achieve ``operational control'' of the Nation's borders by reducing 
cross-border illegal activity. The extent of operational control--also 
referred to as effective control--was defined as the number of border 
miles where Border Patrol had the capability to detect, respond to, and 
interdict cross-border illegal activity. In May 2012, Border Patrol 
issued the 2012-2016 Border Patrol Strategic Plan (2012-2016 Strategic 
Plan), stating that the build-up of its resource base and the 
operations conducted over the past 2 decades would enable the Border 
Patrol to focus on mitigating risk rather than increasing resources to 
secure the border. This new strategic plan emphasizes using 
intelligence information to inform risk relative to threats of cross-
border terrorism, drug smuggling, and illegal migration across 
locations; integrating border security operations with those of other 
law enforcement partners; and developing rapid response capabilities to 
deploy the resources appropriate to changes in threat.
    My testimony today summarizes the findings of our December 2012 
report on CBP's management of resources at the Southwest Border, and 
our past work highlighting DHS's processes for measuring security at 
the Southwest Border.\3\ As requested, my statement discusses: (1) What 
apprehension and other data show about Border Patrol efforts and 
deployments across the Southwest Border and to what extent the data 
show these deployments to have been effective in securing the border, 
and (2) the extent to which Border Patrol has developed goals and 
measures to identify resource needs under its new strategic plan and 
assess results.
---------------------------------------------------------------------------
    \3\ See GAO, Border Patrol: Key Elements of New Strategic Plan Not 
Yet in Place to Inform Border Security Status and Resource Needs, GAO-
13-25 (Washington, DC: Dec. 10, 2012); Border Patrol Strategy: Progress 
and Challenges in Implementation and Assessment Efforts, GAO-12-688T 
(Washington, DC: May 8, 2012); and Border Security: Preliminary 
Observations on Border Control Measures for the Southwest Border, GAO-
11-374T (Washington, DC: Feb. 15, 2011).
---------------------------------------------------------------------------
    My statement is based on prior products that examined CBP's 
management of resources and DHS's processes for measuring security at 
the Southwest Border, with selected updates related to Border Patrol 
fiscal year 2012 operations data conducted in February 2013. For the 
past products, among other methodologies, we analyzed Border Patrol 
planning and operational assessment documents, interviewed relevant DHS 
officials, and analyzed data related to Border Patrol performance and 
cross-border threats for fiscal years 2006 through 2011; we determined 
that these data were sufficiently reliable for the purposes of our 
report.\4\ We also analyzed data supporting the border security 
measures reported by DHS in its annual performance reports for fiscal 
years 2005 through 2012.\5\ More detailed information on our scope and 
methodology can be found in our report and testimonies. For the 
selected updates, we interviewed Border Patrol officials and analyzed 
Border Patrol fiscal year 2012 apprehension and seizure data; we 
determined that these data were sufficiently reliable for the purposes 
of this testimony. We conducted this work in accordance with generally 
accepted Government auditing standards. These standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained provides a 
reasonable basis for our findings and conclusions, based on our audit 
objectives.
---------------------------------------------------------------------------
    \4\ GAO-13-25.
    \5\ GAO-12-688T and GAO-11-374T.
---------------------------------------------------------------------------
 APPREHENSIONS DECREASED ACROSS THE SOUTHWEST BORDER FROM FISCAL YEARS 
     2006 TO 2011, BUT DATA LIMITATIONS PRECLUDE COMPARING OVERALL 
  EFFECTIVENESS OF RESOURCES DEPLOYED ACROSS SOUTHWEST BORDER SECTORS

Apprehensions Decreased at About the Same Rate as Estimated Known 
        Illegal Entries Across the Southwest Border From Fiscal Years 
        2006 to 2011; Other Data Provide a Broader Perspective on 
        Changes in Border Security
    Since fiscal year 2011, DHS has used changes in the number of 
apprehensions on the Southwest Border between ports of entry as an 
interim measure for border security as reported in its annual 
performance reports. In fiscal year 2011, DHS reported data meeting its 
goal to secure the land border with a decrease in apprehensions. In 
addition to collecting data on apprehensions, Border Patrol collects 
and analyzes various data on the number and types of entrants who 
illegally cross the Southwest Border between the ports of entry, 
including collecting estimates on the total number of identified--or 
``known''--illegal entries. Border Patrol's estimate of known illegal 
entries includes illegal, deportable entrants who were apprehended, in 
addition to the number of entrants who illegally crossed the border but 
were not apprehended because they crossed back into Mexico (referred to 
as turn-backs) or continued traveling into the U.S. interior (referred 
to as got-aways).\6\ Border Patrol collects these data as an indicator 
of the potential border threat across locations. Border Patrol data 
show that apprehensions within each Southwest Border Patrol sector 
decreased from fiscal years 2006 to 2011, generally mirroring the 
decrease in estimated known illegal entries within each sector.\7\ In 
the Tucson sector, for example, our analysis of Border Patrol data 
showed that apprehensions decreased by 68 percent from fiscal years 
2006 to 2011, compared with a 69 percent decrease in estimated known 
illegal entries, as shown in figure 1.
---------------------------------------------------------------------------
    \6\ We defined these illegal entries as estimated ``known'' illegal 
entries to clarify that the estimates do not include illegal entrants 
for which Border Patrol does not have reasonable indications of cross-
border illegal activity. These data are collectively referred to as 
known illegal entries because Border Patrol officials have what they 
deem to be a reasonable indication that the cross-border activity 
occurred. Indications of illegal crossings are obtained through various 
sources such as direct agent observation, referrals from credible 
sources (such as residents), camera monitoring, and detection of 
physical evidence left on the environment from animal or human 
crossings.
    \7\ Border Patrol arrests both deportable aliens and nondeportable 
individuals, but for the purposes of this testimony we define 
``apprehensions'' to include only deportable aliens, in keeping with 
Border Patrol's definition. According to the Immigration and 
Nationality Act, deportable aliens include those who are inadmissible 
to the United States or present in violation of U.S. law, who have 
failed to maintain their status or violated the terms of their 
admission, or who have committed certain criminal offenses or engaged 
in terrorist activities, among others. (See 8 U.S.C.  1227 for a 
complete list of the classes of deportable aliens.) Aliens with lawful 
immigration status and U.S. citizens would be considered nondeportable. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Patrol officials attributed the decrease in apprehensions 
and estimated known illegal entries from fiscal years 2006 through 2011 
within Southwest Border sectors to multiple factors, including changes 
in the U.S. economy and successful achievement of its strategic 
objectives.\8\ Border Patrol's ability to address objectives laid out 
in the 2004 Strategy was strengthened by increases in personnel and 
technology, and infrastructure enhancements, according to Border Patrol 
officials. For example, Tucson sector Border Patrol officials said that 
the sector increased manpower over the past 5 years through an increase 
in Border Patrol agents that was augmented by National Guard personnel, 
and that CBP's Secure Border Initiative (SBI) provided border fencing 
and other infrastructure, as well as technology enhancements.\9\ Border 
Patrol officials also attributed decreases in estimated known illegal 
entries and apprehensions to the deterrence effect of CBP consequence 
programs--programs intended to deter repeated illegal border crossings 
by ensuring the most efficient consequence or penalty for individuals 
who illegally enter the United States. Data reported by Border Patrol 
following the issuance of our December 2012 report show that total 
apprehensions across the Southwest Border increased from over 327,000 
in fiscal year 2011 to about 357,000 in fiscal year 2012.\10\ It is too 
early to assess whether this increase indicates a change in the trend 
for Border Patrol apprehensions across the Southwest Border.
---------------------------------------------------------------------------
    \8\ Specifically, these objectives were to: (1) Deter illegal 
entries through improved enforcement--defined as increasing the 
certainty of apprehensions through the proper mix of assets and 
implementing prosecution strategies that establish a deterrent effect 
in targeted locations--and (2) leverage ``smart border'' technology to 
multiply the effect of enforcement personnel. Border Patrol defines 
``smart border'' technology to include camera systems for day/night/
infrared operations, sensors, aerial platforms, and other systems.
    \9\ The number of Border Patrol agents in the Tucson sector 
increased from nearly 2,600 in fiscal year 2006 to about 4,200 in 
fiscal year 2011, augmented by 9,000 National Guard personnel deployed 
periodically from June 2006 through July 2008 under Operation Jump 
Start. Under SBI, CBP expended approximately $850 million on technology 
in Arizona such as wide-area and mobile surveillance systems, to 
augment Tucson sector operations. Other infrastructure as of March 2012 
included installation of 352 miles of pedestrian fencing and 299 miles 
of vehicle fencing along the Southwest Border, for a combined total of 
651 miles of fencing.
    \10\ See GAO-13-25. Our analysis of Border Patrol data--queried as 
of March 2012--also shows over 327,000 apprehensions across the 
Southwest Border in fiscal year 2011. According to Border Patrol 
officials, any differences in our apprehension and seizure numbers and 
those of Border Patrol are due to variances in when the data were 
``queried,'' or reported--that is, Border Patrol reports apprehension 
and other data on an ``end-of-year'' basis, and therefore agency data 
do not reflect adjustments or corrections made after that reporting 
date.
---------------------------------------------------------------------------
    Border Patrol collects other types of data that are used by sector 
management to help inform assessment of its efforts to secure the 
border against the threats of illegal migration, smuggling of drugs and 
other contraband, and terrorism. These data show changes, for example, 
in the: (1) Percentage of estimated known illegal entrants who are 
apprehended, (2) percentage of estimated known illegal entrants who are 
apprehended more than once (repeat offenders), and (3) number of 
seizures of drugs and other contraband. Border Patrol officials at 
sectors we visited, and our review of fiscal years 2010 and 2012 sector 
operational assessments, indicated that sectors have historically used 
these types of data to inform tactical deployment of personnel and 
technology to address cross-border threats; however, the agency has not 
analyzed these data at the National level to inform strategic decision 
making, according to Border Patrol headquarters officials. These 
officials stated that greater use of these data in assessing border 
security at the National level may occur as the agency transitions to 
the new strategic plan.
    Apprehensions compared with estimated known illegal entries.--Our 
analysis of Border Patrol data showed that the percentage of estimated 
known illegal entrants who were apprehended by the Border Patrol over 
the past 5 fiscal years varied across Southwest Border sectors. The 
Tucson sector, for example, showed little change in the percentage of 
estimated known illegal entrants who were apprehended by Border Patrol 
over the past 5 fiscal years. Specifically, our analysis showed that of 
the total number of estimated known aliens who illegally crossed the 
Tucson sector border from Mexico each year, Border Patrol apprehended 
62 percent in fiscal year 2006 compared with 64 percent in fiscal year 
2011, an increase of about 2 percentage points. Border Patrol 
headquarters officials said that the percentage of estimated known 
illegal entrants who are apprehended is primarily used to determine the 
effectiveness of border security operations at the tactical--or zone--
level but can also affect strategic decision making. The data are also 
used to inform overall situational awareness at the border, which 
directly supports field planning and redeployment of resources.
    Repeat offenders.--Changes in the percentage of persons apprehended 
who have repeatedly crossed the border illegally (referred to as the 
recidivism rate) is a factor that Border Patrol considers in assessing 
its ability to deter individuals from attempting to illegally cross the 
border. Our analysis of Border Patrol apprehension data showed that the 
recidivism rate has declined across the Southwest Border by about 6 
percentage points from fiscal years 2008 to 2011 in regard to the 
number of apprehended aliens who had repeatedly crossed the border in 
the prior 3 years.\11\ Specifically, our analysis showed that the 
recidivism rate across the overall Southwest Border was about 42 
percent in fiscal year 2008 compared with about 36 percent in fiscal 
year 2011. The Tucson sector had the third-highest recidivism rate 
across the Southwest Border in fiscal year 2011, while the highest rate 
of recidivism occurred in El Centro sector, as shown in figure 2. 
According to Border Patrol headquarters officials, the agency has 
implemented various initiatives designed to address recidivism through 
increased prosecution of individuals apprehended for crossing the 
border illegally.\12\
---------------------------------------------------------------------------
    \11\ We used a rolling 3-fiscal-year time period to determine the 
percentage of apprehensions of deportable aliens in a given year who 
had previously been apprehended for illegally crossing the border in 
any of the previous 3 years, at any Southwest Border location. We used 
four rolling 3-fiscal-year time periods because our analysis covered a 
5-year period and required comparable time periods to assess recidivism 
in each fiscal year. Using a single time period would result in a bias, 
given that some apprehensions in earlier years would be incorrectly 
classified as nonrecidivist.
    \12\ Border Patrol's 2012-2016 Strategic Plan emphasizes the 
importance of the application of appropriate consequences to illegal 
entrants. Border Patrol has developed a new Consequence Delivery System 
that guides management and agents in evaluating each individual 
apprehended and identifying the ideal consequence to break the 
smuggling cycle. Consequences delivered under the system include 
administrative, criminal prosecution, and programmatic elements that 
are designed to stem the flow of illegal activity. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Seizures of drugs and other contraband.--Border Patrol headquarters 
officials said that data regarding seizures of drugs and other 
contraband are good indicators of the effectiveness of targeted 
enforcement operations, and are used to identify trends in the 
smuggling threat and as indicators of overall cross-border illegal 
activity, in addition to potential gaps in border coverage, risk, and 
enforcement operations. However, these officials stated that these data 
are not used as a performance measure for overall border security 
because while the agency has a mission to secure the border against the 
smuggling threat, most smuggling is related to illegal drugs, and that 
drug smuggling is the primary responsibility of other Federal agencies, 
such as the Drug Enforcement Administration and U.S. Immigration and 
Customs Enforcement, Homeland Security Investigations.
    Our analysis of Border Patrol data indicated that across Southwest 
Border sectors, seizures of drugs and other contraband increased 83 
percent from fiscal years 2006 to 2011, with drug seizures accounting 
for the vast majority of all contraband seizures. Specifically, the 
number of drug and contraband seizures increased from 10,321 in fiscal 
year 2006 to 18,898 in fiscal year 2011. Most seizures of drugs and 
other contraband occurred in the Tucson sector, with about 28 percent, 
or 5,299, of the 18,898 Southwest Border seizures occurring in the 
sector in fiscal year 2011 as shown in figure 3.\13\ Data reported by 
Border Patrol following the issuance of our December 2012 report show 
that seizures of drugs and other contraband across the Southwest Border 
decreased from 18,898 in fiscal year 2011 to 17,891 in fiscal year 
2012.\14\ It is too early to assess whether this decrease indicates a 
change in the trend for Border Patrol seizures across the Southwest 
Border.
---------------------------------------------------------------------------
    \13\ Drugs accounted for the vast majority of all contraband 
seizures; contraband seizures other than drugs include firearms, 
ammunition, and money. Although drug seizures increased 81 percent from 
fiscal years 2006 through 2011, the percentage of all contraband 
seizures that were drug seizures compared with the percentage of all 
contraband seizures remained nearly constant, averaging about 93 
percent over this time period.
    \14\ GAO-13-25. 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Sectors Schedule Agents to Patrol the Border More Than Other 
        Enforcement Activities; Data Limitations Preclude Comparison of 
        Overall Effectiveness across Sectors
    Southwest Border sectors scheduled most agent workdays for 
enforcement activities during fiscal years 2006 to 2011, and the 
activity related to patrolling the border accounted for a greater 
proportion of enforcement activity workdays than any of the other 
activities. Sectors schedule agent workdays across various activities 
categorized as enforcement or nonenforcement.\15\ Across enforcement 
activities, our analysis of Border Patrol data showed that all sectors 
scheduled more agent workdays for ``patrolling the border''--activities 
defined to occur within 25 miles of the border--than any other 
enforcement activity, as shown in figure 4. Border Patrol duties under 
this activity include patrolling by vehicle, horse, and bike; 
patrolling with canines; performing sign-cutting; and performing 
special activities such as mobile search and rescue.\16\ Other 
enforcement activities to which Border Patrol scheduled agent workdays 
included conducting checkpoint duties, developing intelligence, and 
performing aircraft operations.
---------------------------------------------------------------------------
    \15\ The percentage of total agent workdays scheduled for 
deployment across enforcement activities compared with nonenforcement 
activities in fiscal year 2011 ranged from a low of 66 percent in the 
Yuma sector to a high of 81 percent in the Big Bend sector. The Tucson 
sector scheduled 73 percent of agent workdays across enforcement 
activities in fiscal year 2011. Examples of nonenforcement activities 
include administrative duties, training, and intelligence support.
    \16\ ``Sign'' is the collective term for evidence that Border 
Patrol agents look for and find after they have dragged dirt roads 
using tires lying on their sides flat on the ground and pulled by 
chains behind a sport utility vehicle. ``Sign'' can be footprints, 
animal prints, and tire or bicycle tracks--any indication in the smooth 
surface created by the drag. The term ``cutting'' refers to the 
practice of concentrating on the marks within discrete, manageable 
slices or segments of terrain. Border Patrol agents track illegal 
cross-border activity by cutting for sign to find persons who may have 
crossed the border illegally. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Patrol sectors and stations track changes in their overall 
effectiveness as a tool to determine if the appropriate mix and 
placement of personnel and assets are being deployed and used 
effectively and efficiently, according to officials from Border Patrol 
headquarters. Border Patrol calculates an overall effectiveness rate 
using a formula in which it adds the number of apprehensions and turn-
backs in a specific sector and divides this total by the total 
estimated known illegal entries--determined by adding the number of 
apprehensions, turn-backs, and got-aways for the sector.\17\ Border 
Patrol sectors and stations report this overall effectiveness rate to 
headquarters. Border Patrol views its border security efforts as 
increasing in effectiveness if the number of turn-backs as a percentage 
of estimated known illegal entries has increased and the number of got-
aways as a percentage of estimated known illegal entries has decreased.
---------------------------------------------------------------------------
    \17\ Border Patrol officials stated that only entrants who can be 
traced back to a cross-border entry point in a border zone are to be 
reported as got-aways. These officials also noted that while the agency 
strives to minimize variance in the collection of these data by using 
standard terminology and consistent collection and reporting methods, 
in many cases the determination of a turn-back or got-away depends on 
agent judgment. Patrol agents-in-charge are responsible for ensuring 
that Border Patrol agents are aware of the integrity of data collection 
at their respective stations and field commanders must ensure the 
accurate counting of got-away data for reconciling possible 
inconsistencies in data between operational boundaries.
---------------------------------------------------------------------------
    Border Patrol data showed that the effectiveness rate for eight of 
the nine sectors on the Southwest Border increased from fiscal years 
2006 through 2011.\18\ For example, our analysis of Tucson sector 
apprehension, turn-back, and got-away data from fiscal years 2006 
through 2011 showed that while Tucson sector apprehensions remained 
fairly constant at about 60 percent of estimated known illegal entries, 
the percentage of reported turn-backs increased from about 5 percent to 
about 23 percent, while the percentage of reported got-aways decreased 
from about 33 percent to about 13 percent, as shown in figure 5. As a 
result of these changes in the mix of turn-backs and got-aways, Border 
Patrol data showed that enforcement effort, or the overall 
effectiveness rate for Tucson sector, improved 20 percentage points 
from fiscal year 2006 to fiscal year 2011, from 67 percent to 87 
percent.
---------------------------------------------------------------------------
    \18\ The exception was the Big Bend sector, which showed a decrease 
in the overall effectiveness rate from 86 percent in fiscal year 2006 
to 68 percent in fiscal year 2011. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Border Patrol headquarters officials said that differences in how 
sectors define, collect, and report turn-back and got-away data used to 
calculate the overall effectiveness rate preclude comparing performance 
results across sectors. Border Patrol headquarters officials stated 
that until recently, each Border Patrol sector decided how it would 
collect and report turn-back and got-away data, and as a result, 
practices for collecting and reporting the data varied across sectors 
and stations based on differences in agent experience and judgment, 
resources, and terrain. In terms of defining and reporting turn-back 
data, for example, Border Patrol headquarters officials said that a 
turn-back was to be recorded only if it is perceived to be an 
``intended entry''--that is, the reporting agent believed the entrant 
intended to stay in the United States, but Border Patrol activities 
caused the individual to return to Mexico.\19\ According to Border 
Patrol officials, it can be difficult to tell if an illegal crossing 
should be recorded as a turn-back, and sectors have different 
procedures for reporting and classifying incidents. In terms of 
collecting data, Border Patrol officials reported that sectors rely on 
a different mix of cameras, sign cutting, credible sources, and visual 
observation to identify and report the number of turn-backs and got-
aways.\20\
---------------------------------------------------------------------------
    \19\ Officials said that sometimes illegal entrants can be ``drop-
offs'' or ``decoys'' to lure agents away from a specific area so others 
can cross, such as smugglers returning to Mexico to pick up another 
load, or an individual crossing the border to steal an item and take it 
back to Mexico.
    \20\ ``Camera'' indicates that one of the remote cameras caught 
sight of an individual; ``sign cut'' indicates that an agent 
encountered footprints that led him/her to believe that an unauthorized 
crossing took place; ``credible source'' indicates a report by a non-
Border Patrol witness, who could be a local law enforcement agent, a 
citizen, or a ground sensor; ``visual'' indicates an agent actually 
witnessed an unauthorized crossing.
---------------------------------------------------------------------------
    According to Border Patrol officials, the ability to obtain 
accurate or consistent data using these identification sources depends 
on various factors, such as terrain and weather. For example, data on 
turn-backs and got-aways may be understated in areas with rugged 
mountains and steep canyons that can hinder detection of illegal 
entries. In other cases, data may be overstated--for example, in cases 
where the same turn-back identified by a camera is also identified by 
sign-cutting. Double-counting may also occur when agents in one zone 
record as a got away an individual who is apprehended and then reported 
as an apprehension in another zone. As a result of these data 
limitations, Border Patrol headquarters officials said that while they 
consider turn-back and got-away data sufficiently reliable to assess 
each sector's progress toward border security and to inform sector 
decisions regarding resource deployment, they do not consider the data 
sufficiently reliable to compare--or externally report--results across 
sectors.
    Border Patrol headquarters officials issued guidance in September 
2012 to provide a more consistent, standardized approach for the 
collection and reporting of turn-back and got-away data by Border 
Patrol sectors. Each sector is to be individually responsible for 
monitoring adherence to the guidance. According to Border Patrol 
officials, it is expected that once the guidance is implemented, data 
reliability will improve. This new guidance may allow for comparison of 
sector performance and inform decisions regarding resource deployment 
for securing the Southwest Border.

 BORDER PATROL HAS NOT YET DEVELOPED GOALS AND MEASURES FOR ASSESSING 
  EFFORTS AND IDENTIFYING RESOURCE NEEDS UNDER THE NEW STRATEGIC PLAN

    Border Patrol officials stated that the agency is in the process of 
developing performance goals and measures for assessing the progress of 
its efforts to secure the border between ports of entry and for 
informing the identification and allocation of resources needed to 
secure the border, but has not identified milestones and time frames 
for developing and implementing them. Since fiscal year 2011, DHS has 
used the number of apprehensions on the Southwest Border between ports 
of entry as an interim performance goal and measure for border security 
as reported in its annual performance report. Prior to this, DHS used 
operational control as its goal and outcome measure for border security 
and to assess resource needs to accomplish this goal.\21\ As we 
previously testified, at the end of fiscal year 2010, Border Patrol 
reported achieving varying levels of operational control of 873 (44 
percent) of the nearly 2,000 Southwest Border miles.\22\ For example, 
Yuma sector reported achieving operational control for all of its 
border miles. In contrast, the other Southwest Border sectors reported 
achieving operational control ranging from 11 to 86 percent of their 
border miles, as shown in figure 6. Border Patrol officials attributed 
the uneven progress across sectors to multiple factors, including 
terrain, transportation infrastructure on both sides of the border, and 
a need to prioritize resource deployment to sectors deemed to have 
greater risk of illegal activity.
---------------------------------------------------------------------------
    \21\ Border Patrol sector officials assessed the miles under 
operational control using factors such as operational statistics, 
third-party indicators, intelligence and operational reports, resource 
deployments, and discussions with senior Border Patrol agents.
    \22\ GAO-11-374T. 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    DHS transitioned from using operational control as its goal and 
outcome measure for border security in its Fiscal Year 2010-2012 Annual 
Performance Report. Citing a need to establish a new border security 
goal and measure that reflect a more quantitative methodology as well 
as the Department's evolving vision for border control, DHS established 
the interim performance goal and measure of the number of apprehensions 
between the land border ports of entry until a new border control goal 
and measure could be developed. We previously testified that the 
interim goal and measure of number of apprehensions on the Southwest 
Border between ports of entry provides information on activity levels, 
but it does not inform program results or resource identification and 
allocation decisions, and therefore until new goals and measures are 
developed, DHS and Congress could experience reduced oversight and DHS 
accountability.\23\ Further, studies commissioned by CBP have 
documented that the number of apprehensions bears little relationship 
to effectiveness because agency officials do not compare these numbers 
with the amount of cross-border illegal activity.\24\
---------------------------------------------------------------------------
    \23\ GAO-12-688T.
    \24\ For example, see Homeland Security Institute, Measuring the 
Effect of the Arizona Border Control Initiative (Arlington, Va.: Oct. 
18, 2005).
---------------------------------------------------------------------------
    Border Patrol officials stated that the agency is in the process of 
developing performance goals and measures for assessing the progress of 
its efforts to secure the border between ports of entry and for 
informing the identification and allocation of resources needed to 
secure the border, but has not identified milestones and time frames 
for developing and implementing them. According to Border Patrol 
officials, establishing milestones and time frames for the development 
of performance goals and measures is contingent on the development of 
key elements of the 2012-2016 Strategic Plan, such as a risk assessment 
tool, and the agency's time frames for implementing these key 
elements--targeted for fiscal years 2013 and 2014--are subject to 
change. Specifically, under the 2012-2016 Strategic Plan, the Border 
Patrol plans to continuously evaluate border security--and resource 
needs--by comparing changes in risk levels against available resources 
across border locations. Border Patrol officials stated the agency is 
in the process of identifying performance goals and measures that can 
be linked to these new risk assessment tools that will show progress 
and status in securing the border between ports of entry, and determine 
needed resources, but has not established milestones and time frames 
for developing and implementing goals and measures because the agency's 
time frames for implementing key elements of the plan are subject to 
change.\25\
---------------------------------------------------------------------------
    \25\ Border Patrol officials stated that DHS and Border Patrol have 
established a performance goal--linked to relevant measures--addressing 
border security that, as of October 2012, was being used as an internal 
management indicator. However, a DHS official said it has not been 
decided whether this goal and the associated measures will be publicly 
reported or used as an overall performance goal and as measures for 
border security.
---------------------------------------------------------------------------
    Standard practices in program management call for documenting the 
scope of a project as well as milestones and time frames for timely 
completion and implementation to ensure results are achieved.\26\ These 
standard practices also call for project planning--such as identifying 
time frames--to be performed in the early phases of a program and 
recognize that plans may need to be adjusted along the way in response 
to unexpected circumstances. Time frames for implementing key elements 
of the 2012-2016 Strategic Plan can change; however, milestones and 
time frames for the development of performance goals and measures could 
help ensure that goals and measures are completed in a timely manner.
---------------------------------------------------------------------------
    \26\ The Project Management Institute, The Standard for Program 
Management (Newtown Square, Penn., 2006).
---------------------------------------------------------------------------
    To support the implementation of Border Patrol's 2012-2016 
Strategic Plan and identify the resources needed to achieve the 
Nation's strategic goal for securing the border, we recommended in our 
December 2012 report that Border Patrol establish milestones and time 
frames for developing a: (1) Performance goal, or goals, for border 
security between the ports of entry that defines how border security is 
to be measured and (2) performance measure, or measures--linked to a 
performance goal or goals--for assessing progress made in securing the 
border between ports of entry and informing resource identification and 
allocation efforts.\27\ DHS agreed with these recommendations and 
stated that it plans to establish milestones and time frames for 
developing goals and measures by November 30, 2013. Milestones and time 
frames could better position CBP to monitor progress in developing and 
implementing goals and measures, which would provide DHS and Congress 
with information on the results of CBP efforts to secure the border 
between ports of entry and the extent to which existing resources and 
capabilities are appropriate and sufficient.
---------------------------------------------------------------------------
    \27\ GAO-13-25.
---------------------------------------------------------------------------
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
answer any questions you may have at this time.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. Rosenblum for his 
testimony.

     STATEMENT OF MARC R. ROSENBLUM, PH.D., SPECIALIST IN 
IMMIGRATION POLICY, CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF 
                            CONGRESS

    Mr. Rosenblum. Thank you.
    Chairwoman Miller, Ranking Member Jackson Lee, Ranking 
Member Thompson, thank you for the opportunity to testify today 
on behalf of the Congressional Research Service.
    Chairwoman Miller's opening statement and several of the 
witnesses have talked about the diversity of threats that we 
face at U.S. borders and how we assess those risks. My 
testimony really focuses exclusively on illegal migration but I 
want to mention that CRS released a new report last week that 
is all about understanding the diversity of threats and risk 
assessment, and I have a--I have that report here with me today 
as well.
    But focusing on illegal migration, there is broad consensus 
among all sides on the immigration debate that we should secure 
the Southwest Border but no consensus about exactly what that 
means or how to recognize a secure border when we see it. The 
challenge is that we know a lot about the resources we devote 
to border security, and CBP and the rest of DHS know a lot 
about the law enforcement outcomes that result from those 
efforts--things like apprehensions of unauthorized migrants--
but these data don't measure the questions that we are really 
interested in, which is, how many unauthorized migrants enter 
the United States, and of those attempting entry, how many does 
CBP apprehend?
    These questions sound simple, but they are difficult to 
answer for the obvious reason that unauthorized aliens seek to 
avoid detection. The illicit nature of unauthorized migration, 
along with the complexity of DHS's border security mission and 
the size and diversity of U.S. borders, means that no single 
quantitative indicator accurately and reliably provides a 
metric or score on border enforcement.
    Instead, we assess border security by estimating 
unauthorized flows and apprehension rates. There will likely 
always be some disagreement about these estimates.
    Many people expect DHS to come up with a number, but DHS is 
primarily interested in law enforcement. For that reason, most 
of the data that DHS collects and the databases it uses to 
manage that data are designed for law enforcement purposes and 
not for the kind of analysis that we need to assess illegal 
flows.
    My written testimony describes the different types of data 
that go into estimating illegal flows and the different 
analytic tools we can use to assess border security. The best 
methodologies rely on multiple data sources.
    My testimony also identifies steps DHS could take to 
develop better border metrics. First, DHS could include a 
statistical sampling framework, like the COMPEX system that OFO 
uses, within other enforcement programs. That would allow the 
agency to draw clearer and more statistically valid and 
accurate conclusions about underlying flows.
    Second, DHS could structure its databases to facilitate 
data analysis. CBP already appears to have taken some steps in 
this direction.
    Third, DHS could share certain administrative enforcement 
data with outside researchers, a move that would expand the 
pool of people working on and evaluating border security 
metrics.
    My written testimony also reviews recent investments in 
border security and immigration enforcement. I examined a range 
of indicators, including Congressional appropriations, DHS 
databases, CBP personnel, border infrastructure, surveillance 
technology, detention facilities, and enforcement programs at 
the border and within the United States. Across all of these 
areas a consistent story emerges that we have made substantial 
investments in immigration enforcement over the last couple of 
decades, and particularly in the last 5 to 10 years.
    Placed in historical perspective, CBP's shift from low- to 
high-consequence enforcement practices at the border and the 
development of the Secure Communities program to conduct 
immigration screening of persons arrested throughout the United 
States seem like particularly significant developments.
    I also identify areas where investments arguably have been 
less robust, including investments at ports of entry, the 
development of a complete biographic or biometric entry-exit 
system, increased worksite enforcement to deter employers from 
hiring unauthorized workers, and the development and wide-
spread use of a reliable system to verify workers' employment 
eligibility.
    To return to the big picture, how has the growing 
enforcement enterprise affected unauthorized migration? There 
is little doubt that inflows have fallen sharply in recent 
years and that the unauthorized population residing in the 
United States has diminished.
    But explaining what caused this drop-off is difficult 
because many new enforcement measures have coincided with the 
U.S. economic downturn and with especially--with relatively 
robust growth in favorable demographic conditions in Mexico and 
other countries of origin. The effects of Secure Communities 
and of new consequence delivery programs may not have even 
registered yet in some of our date. Nonetheless, research that 
disentangles these factors suggests that enforcement efforts 
have likely helped--likely help explain reduced inflows.
    More effective border security metrics could contribute to 
the immigration debate by offering clearer insight into the 
state of border security and the effectiveness of different 
enforcement strategies. These are critical issues, given the 
trade-offs Congress and DHS face between investing additional 
resources at the border versus within the interior of the 
United States, and investing at ports of entry versus between 
the ports, among other choices.
    Clear border metrics may also offer insight into returns on 
future enforcement investments, and importantly, about what 
level of border security realistically can be obtained in the 
absence of additional immigration reforms.
    Thank you again for the opportunity and I look forward to 
your questions.
    [The prepared statement of Mr. Rosenblum follows:]

                Prepared Statement of Marc R. Rosenblum
                           February 26, 2013

    This hearing raises an important question for Members of Congress 
concerned about border security: What would a secure border look like? 
The United States spends billions of dollars and expends extraordinary 
effort to secure the border; and the Department of Homeland Security 
collects tables full of enforcement data. Yet after years of grappling 
with this question, no consensus exists about how to measure border 
security or how to evaluate existing enforcement efforts. Thus, while 
the White House asserts that our borders today ``are more secure that 
at any time in the past several decades,''\1\ Chairwoman Miller and 
others have warned against ``accepting empty promises on border 
security,'' and asked ``how the American people can be assured that the 
border is truly secure?''\2\
---------------------------------------------------------------------------
    \1\ The White House, ``Fixing the Immigration System for America's 
21st Century Economy,'' accessed Feb. 24, 2013, http://
www.whitehouse.gov/issues/fixing-immigration-system-america-s-21st-
century-economy.
    \2\ Candice Miller, ``Real Immigration Reform Begins with Strong 
Border Security,'' Press Release, Feb. 12, 2013.
---------------------------------------------------------------------------
    My testimony begins by describing how to measure border security 
and identifies several concrete steps that could be taken to develop 
better border metrics. The second part of my testimony reviews recent 
border security and immigration enforcement efforts and identifies 
possible gaps in these efforts. I conclude by offering a tentative 
assessment of the current state of border security.

                        BORDER SECURITY METRICS

    The relationship between border security and unauthorized migration 
is a key issue for many people interested in immigration reform.\3\ Two 
questions loom large in this discussion: How many unauthorized migrants 
enter the United States?\4\ Of those attempting entry, how many does 
U.S. Customs and Border Protection (CBP) apprehend?
---------------------------------------------------------------------------
    \3\ Immigration control is just one aspect of DHS's border security 
mission, which also encompasses combatting crime and illegal drugs, 
detecting and interdicting terrorists, and facilitating legal travel 
and trade, among other goals. See CRS Report R42969, Border Security: 
Understanding Threats at U.S. Borders, by Marc R. Rosenblum, Jerome P. 
Bjelopera, and Kristin M. Finklea.
    \4\ An unknown proportion of unauthorized migrants enter 
surreptitiously through ports of entry, and an estimated one-third to 
one-half of unauthorized migrants enter legally and overstay a visa. 
See CRS Report RS22446, Nonimmigrant Overstays: Brief Syntheses of the 
Issue, by Ruth Ellen Wasem.
---------------------------------------------------------------------------
    These questions sound simple, but they are difficult to answer for 
the obvious reason that unauthorized aliens seek to avoid detection. 
This missing information means analysts do not know the precise scope 
of the illegal migration problem, nor can they calculate CBP's 
enforcement success rate.
    These challenges are well known. Several Members of this committee 
have called on the Department of Homeland Security (DHS) to develop 
clear, measurable, outcomes-based metrics to evaluate progress with 
respect to immigration control. Unfortunately, the illicit nature of 
unauthorized migration along with the complexity of DHS's border 
security mission and the size and diversity of U.S. borders mean that 
no single, quantitative, off-the-shelf indicator accurately and 
reliably provides a metric or ``score'' for border enforcement. 
Instead, we assess border security by estimating unauthorized flows and 
apprehension rates, and there likely will always be some disagreement 
about these estimates.\5\
---------------------------------------------------------------------------
    \5\ Moreover, while the number of illegal entries may be 
objectively (though not precisely) estimated, how people evaluate the 
diverse economic, social, cultural, and other effects of unauthorized 
migration is inherently subjective. See CRS Report R42969, Border 
Security: Understanding Threats at U.S. Borders, by Marc R. Rosenblum, 
Jerome P. Bjelopera, and Kristin M. Finklea.
---------------------------------------------------------------------------
    Nonetheless, researchers have done substantial work on how to make 
such estimates. Three different types of data may be involved: 
Administrative enforcement data, survey data, and proxy data (see Types 
of Data, below). By drawing on multiple data sources, analysts may 
develop models of border flows that are likely to provide more accurate 
assessments of border security than any single type of data in 
isolation (see Analysis of Raw Data, below). Model-based estimates can 
improve on single-measure estimates, and they could be further 
strengthened by modifying how DHS collects and manages data, and by 
making certain DHS data more widely available to analysts and 
researchers (see Developing Better Border Security Metrics, below).
Types of Data
            (1) Administrative Enforcement Data
    Administrative enforcement data are records of DHS's enforcement 
actions and other interactions with unauthorized migrants. The best 
example of this type of data is alien apprehensions. For almost 100 
years, the U.S. Border Patrol (USBP) has apprehended removable and 
deportable aliens and made a record of these enforcement actions. An 
advantage of using enforcement data to estimate border security is that 
these data usually can be measured with a good deal of certainty: 
Border Patrol knows how many people its agents apprehended last year 
and records such numbers at the sector and station level, along with 
information about where and how people were apprehended.\6\
---------------------------------------------------------------------------
    \6\ For a full list of administrative data collected by the Border 
Patrol, see Panel on Survey Options for Estimating the Flow of 
Unauthorized Crossings at the U.S.-Mexico Border, Options for 
Estimating Illegal Entries at the U.S.-Mexico Border, Washington, DC: 
National Research Council, 2012 (hereafter: NRC, Options for Estimating 
Illegal Entries).
---------------------------------------------------------------------------
    Yet apprehensions are not a perfect indicator of illegal flows 
because they exclude two of the groups of greatest interest: Aliens who 
successfully enter and remain in the United States (i.e., enforcement 
failures) and aliens who are deterred from entering the United States--
including perhaps because they never even initiate a trip (i.e., 
certain enforcement successes). A further limitation to apprehensions 
data is that they count events, not unique individuals, so the same 
person may appear multiple times in the dataset after multiple entry 
attempts.
    Fundamentally, apprehensions data do not measure illegal flows. 
They describe certain enforcement outcomes. Thus, we do not know if a 
decline in apprehensions is a good thing, because fewer people are 
attempting to enter, or a bad thing, because more of them are 
succeeding.\7\ To varying degrees, the same problem is true of other 
types of administrative enforcement data.
---------------------------------------------------------------------------
    \7\ See Edward Alden and Bryan Roberts, ``Are U.S. Borders Secure? 
Why We Don't Know and How to Find Out,'' Foreign Affairs 90, 4 (2011): 
pp. 19-26.
---------------------------------------------------------------------------
    In addition to apprehensions data, CBP (including USBP) and U.S. 
Immigration and Customs Enforcement (ICE) collect several additional 
types of enforcement data. Although they display some of the same 
limitations as apprehensions, each may contribute to an estimate of 
illegal border flows:
  <bullet> USBP estimates of ``got-aways'' and ``turn-backs''.--Border 
        Patrol stations and sectors estimate the number of illegal 
        entrants who successfully travel to the U.S. interior and who 
        USBP ceased pursuing. Stations and sectors also estimate the 
        number of people who illegally cross the border but then cross 
        back to Mexico. USBP uses these additional data, along with 
        apprehensions, to estimate the total number of known illegal 
        entries. Yet got-away and turn-back data, like apprehensions 
        data, are a function of enforcement resources, and (unlike 
        apprehensions) these data may be highly dependent on the 
        subjective judgments of agents doing the counting. CBP recently 
        made its estimates of got-aways and turn-backs for fiscal year 
        2006-fiscal year 2011 available to the public for the first 
        time.\8\
---------------------------------------------------------------------------
    \8\ For a fuller discussion, see U.S. Government Accountability 
Office (GAO), Border Patrol: Key Elements of Strategic Plan Not Yet in 
Place to Inform Border Security Status and Resource Needs, GAO-13-25, 
December 2012.
---------------------------------------------------------------------------
  <bullet> USBP estimates of unique apprehensions and recidivists.--
        Since late 1999, the Border Patrol has used biometric 
        technology to record the identity and track individual case 
        histories of most people apprehended by USBP.\9\ Border Patrol 
        uses these data to track the total number of unique individuals 
        apprehended per year and to estimate the number of recidivists, 
        defined by USBP as unique aliens who are apprehended more than 
        one time in a single fiscal year. Data on unique apprehensions 
        avoid the ``overcount'' problem in the counting of apprehension 
        events. The ratio of unique apprehensions to total 
        apprehensions and the number of recidivists apprehended both 
        may offer insight into whether aliens who have been previously 
        apprehended are deterred from making additional illegal 
        entries--a key question for border metrics. CBP released 
        recidivist and unique apprehensions data to CRS in 2011 (the 
        first time such data were made publicly available), but has not 
        released updated data for fiscal year 2012.
---------------------------------------------------------------------------
    \9\ These records are stored in the DHS Automated Biometric 
Identification System (IDENT) database, discussed in greater detail 
below (see Growth and Integration of DHS Databases). With over 150 
million unique records as of January 2013, IDENT is the largest 
biometric database in the world, according to US-VISIT Office of 
Congressional Affairs, January 24, 2013.
---------------------------------------------------------------------------
  <bullet> Total apprehensions.--Data on total apprehensions (i.e., 
        including apprehensions away from the border) offer additional 
        insight into the number of aliens arriving in the United 
        States, though they are subject to the same limitations as data 
        on border apprehensions. About 90% of alien apprehensions 
        between fiscal year 1990 and fiscal year 2006 occurred at the 
        Southwest Border; but with the recent expansion of ICE's 
        interior enforcement programs (see below, Interior Enforcement 
        Programs) and decline in inflows, interior apprehensions 
        accounted for over a third of all apprehensions in 2009 and 
        2010, and for half of all apprehensions in 2011.\10\
---------------------------------------------------------------------------
    \10\ CRS calculations based on data from Department of Homeland 
Security (DHS) Office of Immigration Statistics (OIS), Yearbook of 
Immigration Statistics fiscal year 2011, Washington, DC, 2011.
---------------------------------------------------------------------------
            (2) Survey data
    Several large-scale surveys offer insight into illegal migration 
flows and the effects of enforcement by interviewing migrants and 
potential migrants about their histories and intentions. An advantage 
to surveys is that they may collect much more information about their 
subjects than is found in administrative enforcement data. In addition, 
because surveys are conducted within the U.S. interior as well as in 
migrant countries of origin, surveys may be better able than CBP data 
to capture information about successful illegal inflows and about the 
deterrent effects of enforcement. Partly for these reasons, DHS 
recently commissioned a comprehensive study by the National Research 
Council (NRC) on the use of surveys and related methodologies to 
estimate the number of illegal U.S.-Mexico border crossings.\11\
---------------------------------------------------------------------------
    \11\ NRC, Options for Estimating Illegal Entries.
---------------------------------------------------------------------------
    As the NRC study describes, data collected within the United 
States, including the U.S. Census's American Community Survey (ACS) and 
its Current Population Survey (CPS) are used to estimate the size of 
the unauthorized population in the United States by comparing the 
number of foreign-born identified in these surveys to known legal 
migration flows.\12\ Three different Mexican national surveys also may 
be used to estimate the number of emigrants from that country, which 
may be compared to known legal outflows to generate an analogous 
estimate.\13\ And a pair of binational (U.S.-Mexican) and one Mexican 
survey focus specifically on migrants and potential migrants, drawing 
samples from the border region and from migrant-sending and -receiving 
communities.\14\ These targeted surveys ask a number of questions about 
U.S. immigration enforcement and how it affects respondents' migration 
histories and future plans.
---------------------------------------------------------------------------
    \12\ Ibid. Also see CRS Report RL33874, Unauthorized Aliens 
Residing in the United States: Estimates Since 1986, by Ruth Ellen 
Wasem.
    \13\ The NRC focused on Mexican surveys because Mexican nationals 
are estimated to account for about 90% of attempted unauthorized border 
crossings on the U.S.-Mexico border, though that proportion appears to 
have fallen in recent years. The Mexican surveys are the ``long 
questionnaire'' of the Mexican Census of Housing and Population, the 
National Survey of Occupation and Employment (ENOE), the National 
Survey of Population Dynamics of Population Dynamics (ENADID), and the 
longitudinal Mexican Family Life Survey (MxFLS). Also see Andrew R. 
Morral, Henry H. Willis, and Peter Brownell, Measuring Illegal Border 
Crossing Between Ports of Entry, RAND Homeland Security and Defense 
Center, Santa Monica, CA, 2011.
    \14\ The binational surveys are the Mexican Migration Field 
Research Program (MMFRP) based at the University of California--San 
Diego and the Mexican Migration Project (MMP) based at Princeton 
University; the Mexican survey is the Survey of Migration and the 
Northern Border (EMIF-N).
---------------------------------------------------------------------------
    While analysts must account for the likelihood that unauthorized 
migrants may be less than forthcoming with interviewers and also may be 
under-represented in certain survey samples, a large body of social 
science research has made use of these data and developed widely 
accepted methodologies to account for these and other challenges. One 
limitation of survey data is that typically it is not collected and 
analyzed quickly enough to generate timely estimates. And some surveys 
do not have large enough samples to generate reliable estimates of 
certain variables. Nonetheless, the NRC concluded that DHS should use 
survey data and modeling approaches in combination with enforcement 
data to develop better estimates of unauthorized border flows.\15\
---------------------------------------------------------------------------
    \15\ NRC, Options for Estimating Illegal Entries, p. S-5.
---------------------------------------------------------------------------
            (3) Proxy data
    The great majority of persons who illegally cross the border to 
enter the United States make use of human smugglers.\16\ The prices 
charged by smugglers therefore may be used as a proxy (i.e., indirect) 
indicator of the effectiveness of border enforcement efforts (along 
with the demand for illegal flows) because more effective enforcement 
should increase the costs and risks to smugglers, with smugglers 
passing such costs along to their clients in the form of higher 
fees.\17\ Border Patrol apprehension records and several surveys 
identified above contain information about smuggling fees.
---------------------------------------------------------------------------
    \16\ See Princeton University Mexican Migration Project, ``Access 
to Border-Crossing Guides and Family/Friends on First Undocumented 
Trip,'' http://mmp.opr.princeton.edu/results/002coyote-en.aspx.
    \17\ See Bryan Roberts, Gordon Hanson, and Derekh Cornwell, et al., 
An Analysis of Migrant Smuggling Costs Along the Southwest Border, DHS 
Office of Immigration Statistics, Washington, DC, November 2010, http:/
/www.dhs.gov/xlibrary/assets/statistics/publications/ois-smuggling-
wp.pdf. Also see Morral et al., Measuring Illegal Border Crossing.
---------------------------------------------------------------------------
Analysis of Raw Data to Estimate Illegal Flows
    None of the raw data sources described above, by themselves, 
reliably describe illegal border crossers or enforcement rates. But 
these data sources may be analyzed to produce such estimates. This 
section describes three methods for conducting this type of analysis.
            (1) Ratio of apprehensions and turn-backs to estimated 
                    known illegal flows
    The Border Patrol's estimates of turn-backs, got-aways, and 
apprehensions--while problematic for the reasons discussed above--offer 
a rough tool for estimating its enforcement success rate: i.e., 
apprehensions (or apprehensions plus turn-backs) divided by total 
estimated known illegal flows. Between 2005 and 2010, the Border Patrol 
used essentially this methodology to describe the portions of the 
border under ``operational control.'' In particular, the agency rated 
its ``ability to detect, respond, and interdict illegal activity at the 
border or after entry into the United States'' on a five-point 
scale.\18\ Portions of the border that were rated in one of the top two 
categories on this scale were described as being under ``effective'' or 
``operational'' control: About 1,107 miles (57% of the Southwest 
Border) in fiscal year 2010.\19\ Beginning in fiscal year 2011, the 
Border Patrol determined that this metric was ineffective, and the 
agency no longer reports on miles of the border under operational 
control.
---------------------------------------------------------------------------
    \18\ U.S. Government Accountability Office, Border Security: 
Preliminary Observations on Border Control Measures for the Southwest 
Border, GAO-11-374T, February 15, 2011, p. 7.
    \19\ U.S. Congress, House Committee on Homeland Security, Feb. 15, 
2010.
---------------------------------------------------------------------------
            (2) Capture-recapture models
    Capture-recapture models initially were developed by ecologists to 
estimate the size of wildlife populations. Social scientists working in 
the 1990s showed that a similar methodology can be used to estimate the 
total flow of unauthorized migrants based on the ratio of persons re-
apprehended after an initial enforcement action to the total number of 
persons apprehended.\20\
---------------------------------------------------------------------------
    \20\ Thomas J. Espenshade, ``Using INS Border Apprehension Data to 
Measure the Flow of Undocumented Migrants Crossing the U.S.-Mexico 
Frontier,'' International Migration Review, vol. 29, no. 2 (Summer 
1995), pp. 545-565.
---------------------------------------------------------------------------
    An advantage to the simple capture-recapture method is that it 
relies on observable administrative enforcement data--apprehensions and 
repeat apprehensions--to calculate border metrics of interest: Illegal 
flows and apprehension rates. Yet the models are highly sensitive to a 
pair of assumptions about migrant behavior: That virtually all 
intending unauthorized migrants eventually succeed, and that the odds 
of being apprehended are the same across multiple attempts to cross the 
border.\21\ Both of these assumptions, while supported by certain 
research, may not hold in some cases; and underestimating the number of 
migrants deterred causes the model to over-estimate illegal flows. 
Thus, in order to produce accurate estimates of illegal flows based on 
the capture-re-capture method, analysts must supplement administrative 
data on apprehensions and repeat apprehensions with solid data on the 
odds of being apprehended and the number of migrants deterred, 
adjusting the model accordingly.\22\
---------------------------------------------------------------------------
    \21\ Ibid.
    \22\ See NRC, Options for Estimating Illegal Entries. According to 
data provided by CBP Office of Legislative Affairs December 20, 2011, 
CBP reportedly plans to use a modified capture-recapture model along 
these lines as one element of the ``border conditions index'' (BCI), 
which is currently being developed. The BCI is designed to provide a 
more comprehensive picture of border security, encompassing a capture-
recapture estimate of illegal migration inflows between ports of entry, 
a measure of wait times and volatility at ports of entry as well as 
illegal flows through ports of entry, and a measure of quality of life 
in border communities, based in part on border area crime rates.
---------------------------------------------------------------------------
            (3) Regression models
    Social scientists also used survey data about aliens' migration 
histories and intentions to analyze factors that are associated with a 
person's propensity to migrate illegally. For example, how are 
demographic and economic characteristics such as gender, age, and 
employment opportunities correlated with an individual's reported 
illegal migration history or a person's intentions to migrate illegally 
in the future? How are migration plans associated with people's 
perceptions of border enforcement, or with the actual allocation of 
enforcement resources?\23\
---------------------------------------------------------------------------
    \23\ See for example, Wayne A. Cornelius and Idean Salehyan, ``Does 
border enforcement deter unauthorized immigration? The case of Mexican 
migration to the United States of America,'' Regulation & Governance 
1.2 (2007): pp. 139-153; Manuela Angelucci, ``U.S. Border Enforcement 
and the Net Flow of Mexican Illegal Migration,'' Economic Development 
and Cultural Change, 60, 2 (2012):311-357. Also see Morral, et al., 
Measuring Illegal Border Crossing Between Ports of Entry.
---------------------------------------------------------------------------
    An advantage to regression analysis is that well-designed studies 
may offer insight into questions with great policy relevance, as these 
examples illustrate. Yet many regression techniques require large 
samples to be effective, and they may be sensitive to specific time 
periods or migrant cohorts. And while research based on survey data 
offers important insight into migration dynamics, researchers generally 
have not had access to real-time and large-scale data sets--including 
administrative enforcement data in particular--that might provide 
additional information to policymakers seeking to evaluate border 
security.
Developing Better Border Security Metrics
    Each of these analytic approaches offers insight beyond basic 
enforcement, survey, or proxy data, but none appears to have met 
Congress's request for a clear and credible metric of border security. 
What can be done to develop such a measure? Capture-recapture models 
would be improved by better data on deterrence at the border, and our 
overall understanding of border security would benefit from better 
information about illegal flows through ports of entry. Three concrete 
steps that would improve border metrics would be for DHS to structure 
certain enforcement programs to support better data collection, for DHS 
to structure its enforcement databases to support better data analysis, 
and for DHS to make these and existing data available to the broader 
research community.
            (1) Structure Certain Enforcement Programs to Support Data 
                    Collection
    Without compromising its law enforcement and security practices, 
DHS could design certain enforcement actions to allow the agency (and 
others) to draw inferences about the underlying population of migrants. 
In other words, certain enforcement and surveillance actions could be 
allocated based on a statistical sampling framework. Just as pollsters 
draw inferences about public opinion based on a sample of interviews, 
DHS could draw inferences about the immigration status of a population 
or the security of the border based on a sample of enforcement and 
surveillance actions. CBP Office of Field Operation's (OFO's) 
Compliance Examination (COMPEX) program illustrates how enforcement may 
be designed with data collection in mind. At certain ports of entry, in 
addition to targeting high-risk vehicles and passengers, OFO selects a 
random sample that has been cleared for admission and subjects 
travelers to a post-entry inspection. Because the sample is selected at 
random, OFO can infer that the proportion of otherwise-cleared entrants 
found to be carrying illegal goods or hidden passengers is equivalent 
to the proportion in the overall population of cleared vehicles (though 
some independent analysts have argued that COMPEX's sample is too small 
to accurately measure such violations).\24\
---------------------------------------------------------------------------
    \24\ For a fuller discussion, see GAO, Border Security: Despite 
Progress, Weaknesses in Traveler Inspections Exist at Our Nation's 
Ports of Entry, GAO-08-219, November 2007. COMPEX reportedly samples 
about 250,000 travelers per year out of over 200 million travelers at 
land ports of entry, or less than 0.1%.
---------------------------------------------------------------------------
    Many other DHS programs include a combination of risk-based and 
random targeting because randomness makes enforcement unpredictable. 
For this reason, as a recent RAND study observed, other border 
enforcement programs could be designed to include statistical sampling 
frames without compromising security.\25\ For example, in addition to 
allocating agents based on a geographic needs assessment, Border Patrol 
could assign additional agents to certain segments at random. To the 
extent that the initial allocation was well-designed, increased 
apprehensions in the enhanced segments would be an indicator of illegal 
flows in the unenhanced segments. Similar resource surges could be 
tested in CBP's Outbound Inspections Program and its deployment of 
surveillance equipment and unmanned aerial vehicles (UAVs), among other 
programs.
---------------------------------------------------------------------------
    \25\ See Morral, et al., Measuring Illegal Border Crossing Between 
Ports of Entry.
---------------------------------------------------------------------------
    A second way enforcement data can be used to draw conclusions about 
the underlying population is through universal deployment. For example, 
Secure Communities and the Criminal Alien Program \26\ together are now 
deployed in virtually every law enforcement jurisdiction in the 
country, and screen persons arrested and booked into jails in the 
United States. For this reason, apart from ICE's use of these programs 
for enforcement purposes, they offer unique insight into the 
unauthorized population by providing a real-time census of the 
immigration status of almost everyone arrested in the United 
States.\27\ A third possible tool for collecting additional data about 
illegal border flows is to field ``red team'' penetration testers: 
Agents posing as unauthorized migrants who attempt to enter without the 
knowledge of CBP personnel in the region. Over repeated trials, the 
ability of such teams to enter successfully could be an indicator of 
aliens' success rate.\28\
---------------------------------------------------------------------------
    \26\ For a description of these programs, see in Interior 
Enforcement Programs (in this testimony, below) and CRS Report R42057, 
Interior Immigration Enforcement: Programs Targeting Criminal Aliens, 
by Marc R. Rosenblum and William Kandel.
    \27\ Note, however, that Secure Communities does not accurately 
identify the subset of unauthorized aliens who enter without inspection 
and have never had any contact with DHS. In addition, Secure 
Communities only provides an accurate estimate of the unauthorized 
population to the extent that unauthorized migrants are equally likely 
as lawful aliens and U.S. citizens to be arrested and to have their 
status checked.
    \28\ See Morral, et al., Measuring Illegal Border Crossing Between 
Ports of Entry.
---------------------------------------------------------------------------
            (2) Structure DHS Databases to Support Data Analysis
    In general, ICE and CBP databases are structured for law 
enforcement purposes, and not for analytic purposes. As a previous NRC 
analysis of how DHS enforcement actions affect Department of Justice 
budgeting explained, a core problem is that DHS databases are organized 
to track events (as in apprehensions), rather than case histories, and 
therefore cannot examine person-specific flows through the system.\29\ 
As a result, according to CRS conversations with ICE officials, the 
agency cannot readily answer critical analytic questions, such as how 
enforcement outcomes (time in detention, final case disposition, 
probability of re-apprehension) differ across jurisdictions and/or 
enforcement programs.\30\
---------------------------------------------------------------------------
    \29\ Committee on Estimating Costs of Immigration Enforcement in 
the Department of Justice 2011, Budgeting for Immigration Enforcement: 
A Path to Better Performance, Washington, DC: National Research 
Council, pp. 112-113.
    \30\ The House Appropriations Committee report on the Fiscal Year 
2013 DHS Appropriations Bill requested that DHS report on enforcement 
outcomes by program and in this manner. See U.S. Congress, House 
Committee on Appropriations, Department of Homeland Security 
Appropriations, 2013, report to accompany H.R. 5855, 112th Cong., 2nd 
sess., May 23, 2012, H. Rept. 112-492 (Washington: GPO, 2012), p. 56.
---------------------------------------------------------------------------
    CBP appears to have begun addressing this problem in its analysis 
of its ``consequence delivery system.''\31\ According to CBP officials, 
CBP tracks recidivism rates broken down by sector and by initial 
enforcement disposition. Thus, for example, CBP should be able to 
calculate whether an alien subject to voluntary departure was more 
likely to be re-apprehended than an alien subject to formal removal or 
an alien facing immigration-related criminal charges. This analysis may 
inform Congress's understanding of border security and of the cost 
effectiveness of different enforcement strategies, but CRS has not been 
able to review or analyze these data, so CRS cannot comment on their 
usefulness.
---------------------------------------------------------------------------
    \31\ For more information about the CBP's consequence delivery 
system see ``Enforcement with Consequences'' in this testimony, below; 
also see CRS Report R42138, Border Security: Immigration Enforcement 
Between Ports of Entry, by Marc R. Rosenblum.
---------------------------------------------------------------------------
    Following the creation of DHS, data management problems have been 
exacerbated by certain limits on integration.\32\ One noteworthy 
illustration of this problem is that DHS's Office of Immigration 
Statistics (OIS) and ICE report two different numbers each year for 
``total removals,'' with ICE defining this number to include ICE 
voluntary departures, but not CBP-expedited removals; and OIS reporting 
the sum of ICE and CBP removals, but not ICE voluntary departures. 
DHS's Office of Immigration Statistics may seem like a logical agency 
to manage such Department-wide data management and analysis; but 
different DHS agencies manage their own data, and OIS does not reliably 
play this role.
---------------------------------------------------------------------------
    \32\ For a fuller discussion see NRC, Options for Estimating 
Illegal Entries, pp. 5-12-5-14.
---------------------------------------------------------------------------
            (3) Make DHS Administrative Data Available to Outside 
                    Researchers
    Most DHS administrative data are not available to outside 
researchers at a level of aggregation that can be used for research and 
program evaluation purposes. In many cases, even data at the National 
or sector level are not released in a timely or predictable manner. 
This lack of data may impede researchers' and Congress's ability to 
evaluate border security and may contribute to doubts and confusion 
about the border. Increased public access to reliable information about 
immigration enforcement, as well as DHS' strategic planning, also would 
provide additional structure to the immigration policy debate.\33\
---------------------------------------------------------------------------
    \33\ See John Whitley, Bryan Roberts, and Robert Shea, 
``Immigration and Border Control: How Data-Driven Management Could 
Enhance Success,'' Accessed February 24, 2013, http://ssrn.com/
abstract=2018580.
---------------------------------------------------------------------------
    At least in part, data are not released because they are considered 
law enforcement sensitive and/or to protect the privacy of enforcement 
subjects. Yet as the NRC has recently observed, numerous mechanisms 
exist to release ``clean'' versions of these data, including by purging 
the small number of serious criminals from the dataset or masking 
certain fields, among other options.\34\ Congress could support data 
sharing by authorizing funds for this type of data cleaning. While DHS 
analysts reportedly are engaged in their own model-building exercises 
which may meet Congress's need for better metrics, releasing more 
administrative data to independent researchers would substantially 
expand the number of scholars able to work on this question, and would 
ensure that research and analysis on border metrics are subject to 
rigorous external peer review.
---------------------------------------------------------------------------
    \34\ NRC, Options for Estimating Illegal Entries.
---------------------------------------------------------------------------
 recent investments in border security and immigration enforcement \35\
---------------------------------------------------------------------------
    \35\ For a fuller discussion of recent investments in border 
security and immigration enforcement, see CRS Congressional 
Distribution Memorandum, ``Immigration Enforcement Since 2006,'' by 
Marc R. Rosenblum, available to Congressional staff from the author 
upon request.
---------------------------------------------------------------------------
    Congress and DHS have made substantial investments in border 
security and immigration enforcement over the last 25 years, and 
particularly since the last time Congress debated comprehensive 
immigration reform in 2005-2007.
Enforcement Appropriations
    Investments in Congressional appropriations to DHS immigration 
enforcement programs are one indicator of this trend, and are 
summarized in Appendix Table 1. As Table 1 indicates, DHS's four 
immigration enforcement accounts (i.e., CBP, ICE, the U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT) program, and the E-
Verify account within U.S. Citizenship and Immigration Services) were 
appropriated a total of about $114 billion for fiscal year 2006-fiscal 
year 2012. This total encompasses appropriations to CBP for fiscal year 
2006-fiscal year 2012 of $75 billion, including about $17 billion for 
enforcement at ports of entry (including travel and trade facilitation 
as well as customs and immigration enforcement); $21 billion for 
enforcement salaries and expenses between ports of entry (i.e., Border 
Patrol); $5 billion for border security fencing, infrastructure, and 
technology; and $5 billion for CBP air and marine acquisitions and 
operations. Appropriations to ICE totaled $37 billion for this period, 
including $16 billion for alien enforcement and removal operations 
(ERO).\36\
---------------------------------------------------------------------------
    \36\ Also see Doris Meissner, Donald M. Kerwin, Muzaffar Chisthi, 
and Clare Bergeron, Immigration Enforcement in the United States: The 
Rise of a Formidable Machinery, Washington, DC: Migration Policy 
Institute, 2013.
---------------------------------------------------------------------------
Growth and Integration of DHS Databases
    Among the many databases managed by DHS, two are noteworthy with 
respect to immigration enforcement because they are used extensively 
during the immigration process and are shared across several law 
enforcement agencies. The Automated Biometric Identification system 
(IDENT) is the central DHS-wide system for the storage and processing 
of biometric (i.e., fingerprints and digital photographs) and 
associated biographic (i.e., name, birthdate, nationality, and other 
descriptive information) data for National security, law enforcement, 
immigration enforcement, intelligence, and related uses. Whereas IDENT 
included only about 7 million records in 2004, increased deployment of 
biometric technology allowed the database to grow to 64 million entries 
at the end of 2006 and to over 150 million unique records as of January 
2013, including over 6.4 million people on the US-VISIT watch list.\37\
---------------------------------------------------------------------------
    \37\ US-VISIT Office of Congressional Affairs, January 24, 2013. 
Individuals on the US-VISIT watch list are the subjects of derogatory 
information in a DHS database. Such information includes arrest 
warrants, known or suspected terrorists, certain visa refusals, 
Department of Defense biometric watchlist records, smuggling 
information, overstay records, visa fraud, and other DHS enforcement 
data. CBP officers check certain travelers' biometric records against 
the US-VISIT watch list during primary processing at ports of entry.
---------------------------------------------------------------------------
    The Arrival and Departure Information System (ADIS) is the DHS-wide 
biographic database that includes records of encounters with DHS for 
aliens who have applied for entry, entered, or departed from the United 
States. Both databases are managed by the US-VISIT office, which also 
manages the US-VISIT entry-exit system. The ADIS database included 
about 169 million identities at the end of 2006, and included over 270 
million unique identities as of January 2013.\38\
---------------------------------------------------------------------------
    \38\ Ibid.
---------------------------------------------------------------------------
    DHS databases are increasingly integrated for enforcement purposes. 
All US-VISIT workstations are now fully interoperable with the Federal 
Bureau of Investigation's (FBI's) Integrated Automated Fingerprint 
Identification System (IAFIS) database, used for criminal background 
checks. (IDENT data previously could be compared against the IAFIS 
database via a manual search.) Since 2009, ICE routinely has used the 
IDENT database to initiate immigration status checks when persons are 
booked into Federal, State, and local jails through the Secure 
Communities program (see Interior Enforcement Programs, below). Since 
2011, US-VISIT also conducts automatic searches against biometric 
records in the Department of Defense Automated Biometric Identification 
System (ABIS), a biometric database with National security and 
intelligence records.
Border Security Personnel
    A total of fewer than 19,000 CBP personnel (Border Patrol agents 
and port of entry officers) were posted to U.S. borders in 2004, the 
first year for which complete CBP data are available (see Appendix 
Table 2). As of fiscal year 2013, CBP personnel had grown to about 
31,000 officers and agents, including a doubling to more than 21,000 
Border Patrol agents (18,000 at the Southwest Border). The personnel 
data in Table 2 do not represent an exhaustive account of DHS and other 
law enforcement personnel at the border. In addition to Border Patrol 
agents and CBP officers, about 5,000 ICE agents are deployed to U.S. 
borders, along with numerous other Federal law enforcement agents 
(including U.S. Marshals, Drug Enforcement Administration officials, 
among others) and various State and local law enforcement agents.
Fencing, Infrastructure, and Technology
    CBP deploys fencing and tactical infrastructure at the Southwest 
Border to impede illegal cross-border activity, disrupt smuggling 
operations, and establish a substantial probability of apprehending 
illegal entrants. The Border Patrol also utilizes surveillance 
technology to augment its ability to patrol the border. As noted in 
Table 1, Congress has expanded spending on border fencing, 
infrastructure, and technology programs from $115 million in fiscal 
year 2006, to a high point of $1.2 billion in fiscal year 2008, and 
$400 million in fiscal year 2012. Appropriations to CBP's Office of Air 
and Marine increased more slowly, from $653 million in fiscal year 2006 
to a high of $862 million in fiscal year 2010, to $792 million in 
fiscal year 2012.
    As Appendix Figure 1 illustrates, a portion of this spending has 
gone to fund construction of new fencing at the Southwest Border, with 
total miles of fencing increasing from 76 miles in fiscal year 2001 to 
139.4 in fiscal year 2006 to 652 miles in fiscal year 2012. As of 
December 2012, Border Patrol maintains 35 permanent interior 
checkpoints and 173 tactical checkpoints. The Border Patrol also 
maintains 12 forward operating bases in remote areas to house personnel 
in close proximity to illegal crossing routes.\39\ As of November 2012, 
Border Patrol reported 337 Remote Video Surveillance Systems (up from 
269 in 2006), 198 short- and medium-range Mobile Vehicle Surveillance 
Systems and 41 long-range mobile surveillance systems (up from zero in 
2005), 15 agent portable medium range surveillance systems (up from 
zero in 2005), 15 Integrated Fixed Towers that were developed as part 
of the SBInet system (up from zero in 2005), and 13,406 unattended 
ground sensors (up from about 11,200 in 2005).\40\ In addition, as of 
November 2012, CBP operated a total of 10 unmanned aerial vehicle 
systems (UAVs), up from zero in 2006.
---------------------------------------------------------------------------
    \39\ U.S. Border Patrol Office of Congressional Affairs, December 
20, 2012.
    \40\ 2012 data from U.S. Border Patrol Office of Legislative 
Affairs, November 8, 2012; fiscal year 2006 data from DHS Congressional 
Budget Justification 2006; 2005 data from GAO, ``Border Security: Key 
Unresolved Issues Justify Reevaluation of Border Surveillance 
Technology Program,'' GAO-06-295, February 2006.
---------------------------------------------------------------------------
Alien Detention \41\
---------------------------------------------------------------------------
    \41\ For a fuller discussion, see CRS Report RL32369, Immigration-
Related Detention: Current Legislative Issues, by Alison Siskin.
---------------------------------------------------------------------------
    DHS's detention system has been strengthened in two main ways since 
2006. First, funded detention bed space has grown by 63%, from 20,800 
beds in fiscal year 2006 to 34,000 beds in fiscal year 2012.\42\ The 
average daily detention population has also grown by a similar 
proportion during these years, from 19,409 to 32,953. Second, under a 
policy announced in 2005 and implemented in August 2006, DHS now 
detains 100% of removable non-Mexicans apprehended at the border until 
their final removal orders.\43\
---------------------------------------------------------------------------
    \42\ Ibid.
    \43\ CBP, ``DHS Secretary Announces End to `Catch and Release' on 
Southern Border,'' http://www.cbp.gov/xp/cgov/admin/c1_archive/
messages/end_catch_release.xml.
---------------------------------------------------------------------------
Enforcement with Consequences \44\
---------------------------------------------------------------------------
    \44\ For a fuller discussion, see CRS Report R42138, Border 
Security: Immigration Enforcement Between Ports of Entry, by Marc R. 
Rosenblum.
---------------------------------------------------------------------------
    Historically, most Mexican aliens apprehended at the Southwest 
Border were permitted to voluntarily return to Mexico. Since 2005, 
under a set of policies known as ``enforcement with consequences,'' CBP 
systematically has limited the number of aliens released on bond or 
allowed to voluntarily return to Mexico. Instead, to the extent that 
resources permit, the agency subjects an increasing proportion of 
aliens apprehended at the border to one or more of the following 
``high-consequence'' forms of enforcement: Formal removal (including 
but not limited to standard removal proceedings, expedited removal, and 
reinstatement of removal),\45\ criminal charges (including under 
expedited judicial processing through the Operation Streamline 
program),\46\ and remote and lateral repatriation through the Alien 
Transfer Exit Program (ATEP) and the Mexican Interior Repatriation 
Program (MIRP). As Appendix Figure 2 illustrates, the proportion of 
aliens apprehended on the Southwest Border granted voluntary return 
fell from 82% (956,470 out of 1,171,428) in 2005 to 41% (134,108 out of 
327,577) in fiscal year 2011.\47\ As the figure illustrates, one reason 
that the proportion of apprehensions subject to high-consequence 
enforcement has risen is that the total number of Southwest Border 
apprehensions has fallen sharply. Nonetheless, as the figure also 
illustrates, CBP's effort to expand high-consequence enforcement has 
resulted in an absolute rise in removals, prosecutions, and lateral/
interior repatriations since 2007, even during a period of falling 
border apprehensions.
---------------------------------------------------------------------------
    \45\ Aliens formally removed from the United States are ineligible 
for a visa for at least 5 years (or 20 years for a second or subsequent 
removal), and may be subject to criminal charges and expedited 
enforcement practices upon reentry.
    \46\ Unauthorized aliens apprehended at the border may face Federal 
immigration charges, but historically, most have not been charged with 
a crime. A total of 75,118 faced immigration-related charges in 
Southwest Border districts in fiscal year 2011 (out of 340,000 
apprehensions), up from 35,266 in fiscal year 2005 (out of 1.2 million 
apprehensions). See Administrative Office of the U.S. Courts, 
``Judicial Business of the U.S. Courts,'' http://www.uscourts.gov/
Statistics/JudicialBusiness.aspx; Southwest Border apprehensions from 
U.S. Border Patrol, ``Fiscal Year Apprehensions Statistics.'' For a 
fuller discussion of immigration-related criminal charges, see CRS 
Report RL32480, Immigration Consequences of Criminal Activity, by 
Michael John Garcia.
    \47\ These figures should be interpreted as ratios, not as strict 
percentages, because aliens may face removal and/or criminal charges in 
a year other than the year in which they are apprehended. In addition, 
some aliens may face both formal removal and criminal charges, and some 
aliens may appear in the data set more than once.
---------------------------------------------------------------------------
Interior Enforcement Programs \48\
---------------------------------------------------------------------------
    \48\ For a fuller discussion of interior immigration enforcement 
programs, see CRS Report R42057, Interior Immigration Enforcement: 
Programs Targeting Criminal Aliens, by Marc R. Rosenblum and William 
Kandel.
---------------------------------------------------------------------------
    ICE operates four main programs to identify and remove aliens from 
within the United States:
  <bullet> Criminal Alien Program (CAP).--CAP officers interview aliens 
        within prisons and screen them against DHS databases; initiate 
        removal proceedings against certain aliens prior to the 
        termination of their criminal sentences, and ensure that aliens 
        are transferred to ICE and removed from the United States upon 
        the completion of their sentence.
  <bullet> National Fugitive Operations Program (NFOP).--NFOP pursues 
        at-large criminal aliens and fugitive aliens,\49\ aliens who 
        pose a threat to National security and community safety, 
        members of transnational gangs, child sex offenders, and aliens 
        with prior convictions for violent crimes.
---------------------------------------------------------------------------
    \49\ Fugitive aliens are aliens who have failed to leave the United 
States following a final order or removal, or who have failed to report 
to ICE after receiving a notice to do so.
---------------------------------------------------------------------------
  <bullet> 287(g) Program.--Under this program, ICE delegates certain 
        immigration enforcement functions to State and local law 
        enforcement agencies pursuant to memorandums of agreement 
        between such agencies and ICE. ICE trains and supervises the 
        local officers, who may perform specific functions relating to 
        the investigation, apprehension, or detention of aliens, during 
        a pre-determined time frame.
  <bullet> Secure Communities.--Secure Communities is an information-
        sharing program between the Departments of Justice and Homeland 
        Security that uses biometric data to check people's immigration 
        records following an arrest. When initial checks indicate that 
        an arrestee may be a removable alien, the ICE field office in 
        the arresting jurisdiction is notified about the match and may 
        contact the jurisdiction to initiate removal proceedings.
    As Appendix Figure 3 illustrates, ICE's interior enforcement 
programs have expanded exponentially in recent years. Whereas CAP and 
NFOP identified and administratively arrested (i.e., for removal) a 
total of fewer than 11,000 aliens in fiscal year 2004 (with the 287(g) 
program making no arrests and Secure Communities not yet created), 
Secure Communities alone was responsible for identifying 436,377 aliens 
who were potentially subject to removal in fiscal year 2012; and the 
other three programs were responsible for 269,765 administrative 
arrests.\50\
---------------------------------------------------------------------------
    \50\ CRS Report R42057, Interior Immigration Enforcement: Programs 
Targeting Criminal Aliens, by Marc R. Rosenblum and William Kandel.
---------------------------------------------------------------------------
Worksite Enforcement \51\
---------------------------------------------------------------------------
    \51\ This section is based on CRS Report R40446, Electronic 
Employment Eligibility Verification, by Andorra Bruno, and CRS Report 
R40002, Immigration-Related Worksite Enforcement: Performance Measures, 
by Andorra Bruno.
---------------------------------------------------------------------------
    Section 274A of the Immigration and Nationality Act (INA) 
establishes civil penalties for failing to comply with the INA's 
document verification requirements and for knowingly employing an 
unauthorized alien; and it provides criminal penalties for employers 
engaging in a pattern or practice of knowingly employing unauthorized 
aliens. As Appendix Figure 4 illustrates, 385 employers were subject to 
civil penalties in 2011, mainly for verification violations, up from 
zero in 2006. A total of $10.5 million in administrative fines was 
imposed in fiscal year 2011--a figure which exceeds the level of fines 
imposed in fiscal year 2000-fiscal year 2009 combined.
    As Appendix Figure 5 illustrates, administrative and criminal 
arrests in worksite enforcement operations increased between 2006 and 
2008, but have declined since then. Worksite administrative arrests, 
which are mainly of unauthorized aliens for purposes of immigration 
enforcement, declined from 3,667 people arrested in fiscal year 2006 to 
1,471 people arrested in fiscal year 2011. Worksite criminal arrests, 
which may be of unauthorized aliens charged with criminal violations or 
of citizens or lawful aliens charged with a pattern or practice of 
illegal hiring or with related criminal activities, were essentially 
flat, falling from 716 people in fiscal year 2006 to 713 people in 
fiscal year 2011. Within these numbers, there is some evidence that ICE 
in recent years has placed greater emphasis on arresting owners, 
managers, and corporate officials, rather than non-managerial 
employees.\52\
---------------------------------------------------------------------------
    \52\ For a fuller discussion, see CRS Report R40002, Immigration-
Related Worksite Enforcement: Performance Measures, by Andorra Bruno.
---------------------------------------------------------------------------
    Other changes since 2006 related to worksite enforcement concern 
the E-Verify electronic verification system. Improvements to E-Verify, 
along with Federal and State-level requirements that certain employers 
use the program,\53\ have led to higher participation rates in the E-
Verify program (see Appendix Figure 6). As figure 6 illustrates, 
participation in E-Verify grew from 5,272 employers representing 22,710 
hiring sites on January 31, 2006 to 402,295 employers representing more 
than 1.2 million hiring sites on September 30, 2012. Between fiscal 
year 2007 and fiscal year 2012, the number of E-Verify queries 
increased more than six-fold, from 3.3 million to 21 million. For 
comparison purposes, there were about 50 million non-farm hires in the 
United States in 2011, according to the Bureau of Labor Statistics.\54\
---------------------------------------------------------------------------
    \53\ On State-level E-Verify requirements, see CRS Report R41991, 
State and Local Restrictions on Employing Unauthorized Aliens, by Kate 
M. Manuel.
    \54\ U.S. Department of Labor, Bureau of Labor Statistics, ``Job 
Openings and Labor Turnover--January 2012,'' news release, March 13, 
2012, http://www.bls.gov/news.release/archives/jolts_03132012.pdf.
---------------------------------------------------------------------------
          gaps in border security and immigration enforcement
    Based on this review, where are the remaining gaps in border 
security and immigration enforcement? While a comprehensive answer to 
this question is beyond the scope of this testimony, comparing across 
the different border zones and looking at resources deployed at borders 
vs. elsewhere throughout the enforcement system leads to the following 
observations:
  <bullet> Since 2002, far more resources have been devoted to 
        enforcement between ports of entry than to enforcement and 
        trade and travel facilitation at ports of entry or worksite 
        enforcement. This comparison appears to hold across several 
        different categories of comparison: Personnel, appropriations, 
        technology acquisitions, etc. Little is known about illegal 
        flows through ports of entry, or how such flows are affected by 
        tougher enforcement between the ports.
  <bullet> While significant progress has been made to implement parts 
        of the US-VISIT biometric entry-exit system by deploying 
        biometric technology to virtually all ports of entry, most 
        Canadian and Mexican nationals and most U.S. lawful permanent 
        residents are not required to participate in US-VISIT at land 
        ports of entry. In addition, CBP does not routinely collect 
        biometric exit data from any departing travelers, and does not 
        collect any data from travelers departing at land port of 
        entry. While biographic data arguably allows DHS to track visa 
        overstayers traveling by air and sea, no such system exists for 
        land travelers.
  <bullet> With an estimated 8 million unauthorized aliens in the 
        workforce in 2010 \55\ and just a few hundred employers 
        arrested or fined annually for immigration violations, the 
        threat of worksite enforcement so far has not appeared to be an 
        effective deterrent to illegal hiring.\56\
---------------------------------------------------------------------------
    \55\ See CRS Report R41207, Unauthorized Aliens in the United 
States, by Andorra Bruno.
    \56\ The legacy Immigration and Naturalization Service (INS) 
reported on the number of agent work-years devoted to worksite 
enforcement, but ICE does not report this information.
---------------------------------------------------------------------------
  <bullet> Although a growing proportion of newly-hired workers are 
        screened through the E-Verify system, the great majority of 
        employers still do not use the system. Moreover, according to 
        the most recent research on E-Verify accuracy rates, E-Verify 
        appears to erroneously confirm about half of the unauthorized 
        workers who are processed through the system, mainly because 
        the system is vulnerable to identity fraud.\57\
---------------------------------------------------------------------------
    \57\ For a fuller discussion, see CRS Report R40446, Electronic 
Employment Eligibility Verification, by Andorra Bruno.
---------------------------------------------------------------------------
   ASSESSMENT OF THE STATE OF BORDER SECURITY AND CONCLUDING COMMENTS

    How have these investments at the border and elsewhere affected 
illegal immigration inflows? Placed in a historical perspective, CBP's 
shift from low- to high-consequence enforcement mechanisms represents a 
dramatic departure from previous border practices. Arguably, the most 
significant change in the U.S. immigration enforcement system in recent 
years is the implementation of Secure Communities, which has 
exponentially increased DHS' ability to identify removable aliens 
within the United States.
    DHS enforcement data indicate that total apprehensions of 
unauthorized aliens in fiscal year 2011 (641,633) was about one-third 
the level of apprehensions in 2000 (1,814,729) and about half the level 
it was in 2006 (1,206,457). Apprehensions at the Southwest Border 
(364,768 in fiscal year 2012) were up slightly from 2011, but also 
remained at historically low levels. DHS estimates that the 
unauthorized population residing in the United States has fallen from 
about 12.4 million in 2007 to about 11.5 million in 2011.\58\ And the 
Pew Hispanic Center estimates that net unauthorized migration from 
Mexico has fallen to about zero, or that outflows may now exceed 
inflows.\59\
---------------------------------------------------------------------------
    \58\ CRS Report RL33874, Unauthorized Aliens Residing in the United 
States: Estimates Since 1986, by Ruth Ellen Wasem.
    \59\ Jeffrey Passel, D'Vera Cohn and Ana Gonzalez-Barrera, ``Net 
Migration from Mexico Falls to Zero--and Perhaps Less,'' Washington, 
DC: Pew Hispanic Center, May 3, 2012.
---------------------------------------------------------------------------
    To what extent is the apparent drop in illegal inflows a function 
of the enhanced enforcement efforts and spending described above? 
Answering this question is difficult because many new enforcement 
measures have coincided with the U.S. economic downturn and with 
relatively robust growth and favorable demographic conditions in Mexico 
and other countries of origin. And the effects of Secure Communities 
and certain consequence delivery programs may be too recent to have 
been registered in some enforcement data. Nonetheless, some recent 
research suggests that enforcement efforts likely help explain this 
downturn, particularly in recent years.\60\
---------------------------------------------------------------------------
    \60\ Ibid. For a fuller discussion, see U.S. Congress, House 
Committee on Homeland Security, Subcommittee on Border and Maritime 
Security, Measuring Border Security: U.S. Border Patrol's New Strategic 
Plan and the Path Forward, testimony of Marc R. Rosenblum, 112th 
Congress, 2nd session, May 8, 2012. Also see Manuela Angelucci, ``U.S. 
Border Enforcement and the Net Flow of Mexican Illegal Migration,'' 
Economic Development and Cultural Change, 60, 2 (2012):311-357.
---------------------------------------------------------------------------
    One recent study sought to disentangle these factors by combining 
administrative enforcement data with community-level economic 
indicators in migrant-sending and -receiving communities. The authors 
of the study reported preliminary findings that 40% of the reduction in 
illegal inflows between fiscal year 2004 and fiscal year 2010 was due 
to a stronger Mexican economy, 30% was due to the weaker U.S. economy, 
and 30% was due to increased U.S. border enforcement.\61\ Detailed 
results are not available, however, because DHS has not cleared for 
publication the administrative data used in the paper.
---------------------------------------------------------------------------
    \61\ See Scott Borger, Gordon Hanson, and Bryan Roberts ``The 
Decision to Emigrate From Mexico,'' presentation at the Society of 
Government Economists annual conference, November 6, 2012.
---------------------------------------------------------------------------
    Better border metrics may contribute in important ways to the 
immigration debate by providing additional information about the state 
of border security and about the effectiveness of different enforcement 
strategies. These are critical questions given the trade-offs Congress 
and DHS face between investing additional resources at the border 
versus within the interior of the United States, and at ports of entry 
versus between the ports, among other choices. Clear border metrics may 
also offer insight into returns on future enforcement investments, and 
what level of security realistically can be obtained at the border in 
the absence of broader immigration reforms.

                  APPENDIX: TABLES AND FIGURES  TABLE 1.--DHS IMMIGRATION ENFORCEMENT APPROPRIATIONS, FISCAL YEAR 2006-FISCAL YEAR 2012
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                CBP                                    ICE
                                                      -----------------------------------------------------------------------------             E-Verify
                     Fiscal Year                         Gross                Between               Air and     Gross                US-VISIT   (USCIS)
                                                         Total      At POE      POE       BSFIT      Marine     Total       ERO
--------------------------------------------------------------------------------------------------------------------------------------------------------
2006.................................................     $7,891     $1,605     $1,778       $115       $653     $4,224     $1,358       $337        N/A
2007.................................................      9,302      1,860      2,278      1,188        778      3,483      1,984        362       $114
2008.................................................     10,808      2,279      3,075      1,225        797      5,581      2,381        475         60
2009.................................................     11,948      2,561      3,501        875        800      5,948      2,481        300        100
2010.................................................     11,765      2,750      3,587        714        862      5,822      2,546        374        137
2011.................................................     11,174      2,913      3,583        574        801      5,835      2,618        335        103
2012.................................................     11,651      2,904      3,620        400        792      5,862      2,751        307        102
                                                      --------------------------------------------------------------------------------------------------
      Total..........................................     74,539     16,872     21,422      5,091      5,483     36,755     16,119      2,490       616
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sources.--CRS Reports R42644, R41982, R41189, R40642, RL34482, RL34004, and RL33428.
Notes.--Fiscal year 2006-fiscal year 2012 data include supplemental appropriations and rescissions. Gross totals for CBP and ICE include fees, trust
  funds, and mandatory appropriations. POE means ports of entry. BSFIT refers to the Border Security Fencing, Infrastructure, and Technology account.
  The BSFIT account was established in fiscal year 2007; fiscal year 2006 data are for appropriations to the SBInet program for tactical infrastructure
  and border technology. ERO refers to ICE's Enforcement and Removal Operations Program, which was known as the Detention and Removal Program prior to
  2011. US-VISIT refers to the U.S. Visitor and Immigrant Status Indicator Technology program. E-Verify (formerly known as Basic Pilot and as the
  Employment Eligibility Verification program) was funded for the first time in fiscal year 2007. Data for enforcement at POEs, enforcement between
  POEs, and ERO are for relevant salaries and expenses (S&E) accounts within CBP and ICE. Data for BSFIT, US-VISIT, and E-Verify are for total
  appropriations to those programs within CBP, the National Protection Programs Directorate , and USCIS, respectively. Data for Air and Marine include
  the Air and Marine acquisitions account as well as Air and Marine S&E appropriations.


                                       TABLE 2.--CBP PERSONNEL BY LOCATION
----------------------------------------------------------------------------------------------------------------
                                           Border Patrol Agents                 CBP Officers
                                    ------------------------------------------------------------------ Total CBP
            Fiscal Year                          Northern                         Northern               Border
                                       Total      Border   SW Border    Total      Border   SW Border  Personnel
----------------------------------------------------------------------------------------------------------------
2004...............................     10,819        979      9,506     18,110      3,423      4,771     18,679
2005...............................     11,264        988      9,891     18,134      3,351      4,733     19,003
2006...............................     12,349        919     11,032     18,031      3,293      4,760     20,004
2007...............................     14,925      1,098     13,297     18,452      3,258      4,979     22,632
2008...............................     17,499      1,363     15,442     19,776      3,619      5,144     22,568
2009...............................     20,119      1,887     17,408     21,339      4,028      5,660     28,983
2010...............................     20,558      2,263     17,535     20,687      3,796      5,477     29,071
2011...............................     21,444      2,237     18,506     20,582      3,710      5,551     30,004
2012...............................     21,394      2,206     18,516     21,790      3,668      6,453     30,843
2013 (request).....................     21,370      2,212     18,462     21,775      3,662      6,444    30,780
----------------------------------------------------------------------------------------------------------------
Source.--CBP Office of Congressional Affairs, January 9, 2013.
Notes.--Border Patrol agent and DBP officer total personnel numbers are based on all employees, including those
  posted at locations other than the Northern and Southwest Borders. Total CBP border personnel is defined as
  the sum of Border Patrol agents and CBP officers posted to Southwest and Northern Borders. Fiscal year 2013
  data are based on statutory floors and end-of-year requirements, and reflect minimum expected staffing levels
  for fiscal year 2013.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  

    Mrs. Miller. Thank you very much.
    And I thank all of you--all the witnesses for their 
testimony. I was sort of struck as I was listening to you all 
that on this side of the table we have the front-liners that 
are out there each and every day doing everything that you 
possibly can with the resources that we give you to accomplish 
your mission and the task that you have been given, and how 
professionally and extraordinarily well you all do that.
    Then sort of here on this side, including all of us, I 
guess, is sort of the--I don't want to say we are all 
bureaucrats, but we are all looking for measurement systems, 
and matrices, and statistics, and various kinds of things, and 
we are not on the front line every day and we don't see 
everything that you see. Sometimes we forget about--the admiral 
was just mentioning about the loss of life with the panga boat 
situation, et cetera. I shouldn't say we forget; we don't think 
about it all the time as we are trying to measure border 
security or various other kinds of things.
    But suffice it to say that we are all on the same team, of 
course, and I look at a hearing like this and as a--personally, 
as a Member of Congress, just trying to understand how we can 
do what the American people want us to do, what our 
Constitutional obligations are to secure a border, and part of 
that, as a Member of Congress, is making sure we resource you 
to the capabilities that we have, understanding that the 
constraints--terrible fiscal constraints that we currently 
have. But what we can do better.
    So with that, I guess I would start with a question to Ms. 
Gambler. I was listening to your testimony about the 
apprehension rate as a component of measurement and statistics, 
et cetera, and you mentioned that the--you were talking about 
all of the various numbers which indicated that the flow has 
significantly declined. Yet, your other report I was trying to 
look at last night there said that the apprehension rate was 
basically static, that it had gone from just 62 to 64 percent.
    Keeping in mind the incredible amounts of resources that we 
have put down there--and again, I understand that the 
apprehension rate, as the chief said, is just--it is just one 
part of it--just one part of how you measure what a secure 
border is, what it looks like, et cetera. I think we had 
367,000 apprehensions last year. We thought about 100,000 got 
through, if those were the correct numbers--something like 
that.
    So I would just say, how do you explain that even though we 
have put all of these resources, if you try to look at it from 
a percentage of how we are doing, only having a 2 percent 
differential? But, could you help me with that?
    Ms. Gambler. Sure. The data that you are mentioning 
Chairwoman Miller, are for the Tucson sector in particular. So 
in looking at fiscal year 2006 to 2011, the apprehension rate 
for that sector remained relatively the same, 62 percent to 64 
percent. The apprehension rate in the other Southwest Border 
sectors varied over time. We provided the Tucson sector rate as 
an example in the report because it is a high-traffic sector.
    In terms of what that means, the apprehension rate is 
really looking at the percentage of known illegal entries--
entrants who are apprehended, who are arrested by the Border 
Patrol. Their ability to make those arrests can be impacted by 
various factors, including where the agents are deployed, what 
the terrain is like in the varying sectors. So some of those 
factors sort of explain what the rates are and explain 
differences in the rates across the sectors.
    Mrs. Miller. Okay. I appreciate that.
    Chief, talking about the apprehension rate, I guess I would 
pick up on that, and you mentioned maybe it is not the best way 
but it is certainly one way that we measure border security. 
Perhaps we should use something other than apprehensions as a 
better way of measuring border security.
    I would also like you, if you could, to expand on your 
goal--I was making some notes here--you talked about 90 
percent. What does a secure border look like?--and you 
mentioned about a 90 percent effectiveness rate would be 
optimal for us, which I think is a very admirable goal. I mean, 
hardly anyone ever gets to 100 percent of anything. If we could 
get to 90 percent we would feel pretty darn good, I think, 
here.
    But, you know, you mentioned, for instance, some of the 
various significant areas of illegal activity try to get to 90 
percent. Would you look at a 90 percent goal across all of our 
borders or are you thinking about particular sectors?--Tucson, 
or the Rio Grande, or--maybe you could flesh that out a bit for 
me as well, if you could, Chief.
    Mr. Fisher. Yes, ma'am. I would be happy to.
    First of all, 90 percent really wouldn't make sense 
everywhere. Let me give you a particular area of the border and 
you can pick a particular spot where--let's say, for instance, 
we know--because we have technology that is out there; we can 
see it--that on average, on every day, for instance, there 
would only be four people coming across. If over a period of 
time we were catching three out of four, if we just said, well 
90 percent is the standard, it wouldn't really necessarily make 
sense to start putting more and more resources over there just 
to arbitrarily get to a 90 percent.
    The reason why I qualified it into areas of significant 
illegal activity as a goal is because when we start 
differentiating sections of the border and start 
differentiating areas where we have less activity versus more 
activity, we want to make sure that we are applying those 
resources into those areas of high activity, which, in part of 
the calculation, gives us a higher-risk area.
    So theoretically, what we want to be able to do is move 
those resources over there, optimize the capability in terms of 
people--the Border Patrol agents that are out there to close 
the last 50 feet--make sure the detection capability is out 
there in the right locations, and be able, as a goal, to 
achieve 90 percent.
    You are absolutely right, Madam Chairwoman. When you look 
at the smuggling organizations as a business, when--they are in 
the smuggling business to make money. When we start applying 
our resources and we are starting to impact their ability to do 
that, their profit margin--so we may start off by perhaps 
apprehending 40 percent of their commodity, whether it is 
people or whether that is narcotics, and as we start applying 
resources over time we start incrementally increasing the 
effectiveness.
    In other words, we are apprehending a higher proportion of 
those things that they are smuggling. As we move to 50 and 60 
and 70 percent there is a business decision that generally is 
made at that point. The smuggling organization is no longer 
able to make money and they will then displace to other areas 
along the border or change some of their tactics, techniques, 
and procedures.
    We put 90 percent as a goal because there are sections 
along the border where we have not only achieved, we have been 
able to sustain 90 percent effectiveness. So it is a realistic 
goal but I wouldn't necessarily and just arbitrarily say 90 
percent is across-the-board because there are other locations 
where there is a lot less activity and there won't be a lot of 
activity simply because of terrain features, for instance.
    So where it makes sense we want to go ahead and start 
parsing that out within those corridors and within those 
specific sectors.
    Mrs. Miller. Thanks very much, Chief.
    I am going to recognize my Ranking Member, since we want to 
try to all keep to our 5 minutes here, because we have a pretty 
hard stop time at noon this afternoon. So with that, I would 
recognize our Ranking Member.
    Ms. Jackson Lee. I thank the Chairwoman. I also, Madam 
Chairwoman, would like to ask unanimous consent that my entire 
opening statement be put in the record.
    Mrs. Miller. Without objection.
    [The statement of Ranking Member Jackson Lee follows:]

             Statement of Ranking Member Sheila Jackson Lee
                           February 26, 2013

    Today, I am pleased the subcommittee is meeting to examine the way 
forward on border security.
    While I welcome the discussion, I want to caution against the 
notion that our Nation's borders can ever be fully and finally secured.
    The border is always changing and evolving.
    New threats emerge and we, in turn, have to find new ways to 
respond.
    In other words, our efforts to secure our borders will always be a 
work in progress.
    For that reason, we must not tie comprehensive immigration reform 
to achieving some arbitrary standard of border security.
    Instead, we must move forward on parallel tracks, reforming our 
broken immigration system while continuing to work together to achieve 
more secure borders.
    Over the last several years, Congress has made unprecedented 
investments in border security personnel, technology, and resources, to 
help DHS do just that.
    These investments include:
    A roughly 50% increase in total appropriations for DHS's 
immigration enforcement and border security-related activities, from 
$7.89 billion in fiscal year 2006 to $11.65 billion in fiscal year 
2012.
    Nearly doubling the total number of U.S. Border Patrol agents--from 
10,819 agents in fiscal year 2004 to 21,394 in fiscal year 2012.
    A 20% increase in the total number of CBP officers--from 18,110 in 
fiscal year 2004 to 21,790 in fiscal year 2012.
    More than quadrupling the number of miles of fencing on the 
Southern Border, from 139 miles in fiscal year 2006 to 651 miles as of 
this year.
    Deploying hundreds of new fixed and mobile video surveillance 
systems at our Nation's borders.
    An increase in the number of ground sensors to detect cross-border 
movements to 13,406 in 2012, up from about 11,200 in 2005.
    The establishment of an unmanned aerial system (UAS) border 
surveillance program. Today, there are 10 UASs patrolling our land and 
maritime borders. In 2006, there were none.
    Unfortunately, I have serious concerns that, unless Congress acts, 
cuts mandated by the sequester would undermine the progress we have 
made with these investments.
    Under sequestration, Customs and Border Protection (CBP) would have 
to absorb more than half a billion dollars in cuts, rendering the 
agency unable to maintain current staffing levels of Border Patrol 
agents and CBP Officers as mandated by Congress.
    Specifically, CBP would have to reduce its work hours by the 
equivalent of over 5,000 Border Patrol agents and over 2,750 CBP 
Officers.
    Staffing reductions would affect the Border Patrol's ability to 
secure our borders between the land ports of entry and increase wait 
times for passengers and cargo at land, air, and sea ports across the 
country.
    Similarly, the U.S. Coast Guard would have to curtail air and 
surface operations by more than 25 percent, reducing essential missions 
including migrant and drug interdiction and port security operations.
    This is absolutely unacceptable.
    I hope to hear from our CBP and Coast Guard witnesses today about 
the effects of the sequester on their ability to carry out their 
missions their plans for dealing with these draconian cuts.
    Finally, as we discuss ``what a secure border looks like'' today, I 
urge my colleagues to be mindful that border security means more than 
just securing the Southern Border between the ports of entry.
    It also means knowing who or what may be attempting to come across 
the vast open places along our comparatively less-monitored Northern 
Border.
    It means stopping a terrorist intending to cross through a port of 
entry on our Northern Border to blow up LAX.
    It means interdicting Omar Farouk Abdulmutallab before he boards a 
plane headed to Detroit.
    It means preventing migrants or narcotics from turning up in 
vessels along the coast of California.
    And it means knowing who and what is entering our ports and 
waterways, whether the coast of South Florida, the Great Lakes, the Rio 
Grande, or the Port of Houston.
    But I am encouraged by the progress we have made and believe we can 
do still more.

    Ms. Jackson Lee. I would like to ask unanimous consent that 
the document that I have here--statement written by the ACLU 
on, ``What does border--secure border look like?'' be submitted 
into the record.
    Mrs. Miller. Without objection.
    [The information follows:]

            Statement of the American Civil Liberties Union
                           February 26, 2013

                            I. INTRODUCTION

    The American Civil Liberties Union (ACLU) is a Nation-wide, non-
partisan organization of more than a half-million members, countless 
additional activists and supporters, and 53 affiliates Nation-wide 
dedicated to preserving and defending the fundamental rights of 
individuals under the Constitution and laws of the United States. The 
ACLU's Washington Legislative Office (WLO) conducts legislative and 
administrative advocacy to advance the organization's goal to protect 
immigrants' rights, including supporting a roadmap to citizenship for 
aspiring Americans. The Immigrants' Rights Project (IRP) of the ACLU 
engages in a Nation-wide program of litigation, advocacy, and public 
education to enforce and protect the Constitutional and civil rights of 
immigrants. The ACLU of New Mexico's Regional Center for Border Rights 
(RCBR) addresses civil and human rights violations arising from border-
related immigration policies. RCBR works in conjunction with ACLU 
affiliates in California, Arizona, and Texas, as well as immigrants' 
rights advocates throughout the border region.
    The ACLU submits this statement to the Subcommittee on Border and 
Maritime Security of the U.S. House of Representatives' Committee on 
Homeland Security on the occasion of its hearing addressing ``What Does 
a Secure Border Look Like?'' Our statement aims to provide the 
subcommittee with an appraisal of the civil liberties implications of 
border security. The ACLU is particularly concerned with attempts to 
define border security that fail to take into account the fact that 
border security benchmarks in previous immigration reform proposals 
have been satisfactorily met. Any proposal for immigration reform 
should not be made contingent upon border security escalation, because:
  <bullet> Deployment of additional border security along the U.S.-
        Mexico border would be wasteful and unnecessary, with 
        apprehensions by Customs and Border Protection (CBP) personnel 
        at their lowest level in 40 years and net migration from Mexico 
        at zero; and
  <bullet> Spending on the Southwest Border has increased dramatically 
        over the last decade with virtually no accountability measures, 
        resulting in civilian deaths at the hands of CBP personnel and 
        many other civil liberties abuses, including rampant racial 
        profiling.
    At a time of sequestration, when the Federal Government is poised 
to cut spending by 8.2 percent, our country can no longer afford to 
throw money down the border drain. Congress must not adopt the 
conventional wisdom of inadequate border security, nor heed siren calls 
for more border enforcement resources. Instead, border security 
resources should be guided by principles of fiscal responsibility, 
accountability and oversight, and attention to the true needs of border 
communities suffering from a wasteful, militarized enforcement regime. 
Experts, including from the Department of Homeland Security, agree that 
the border is more secure than ever.\1\ Congress should proceed 
unimpeded by border security obstacles to the vital task of providing a 
roadmap to citizenship for aspiring Americans in a way that advances 
our Constitution's principles and American values of family unity and 
due process.
---------------------------------------------------------------------------
    \1\ Testimony of DHS Secretary Napolitano to the Senate Judiciary 
Committee (Feb. 13, 2013), available at http://
www.judiciary.senate.gov/pdf/2-13-13NapolitanoTestimony.pdf.
---------------------------------------------------------------------------
  II. THE PATHWAY TO CITIZENSHIP MUST NOT BE CONTINGENT ON THE FALSE 

 Metric of a ``completely secure border.'' instead, immigration reform 
      should end the abusive militarization of border communities.
a. The ``Mini-Industrial Complex'' of Border Spending
    Congress should not seek to define a ``secure border'' as an 
airtight 2,000-mile border, because this would ignore the fact that 
border security benchmarks of prior proposed or enacted legislation (in 
2006, 2007, and 2010) have already been met or exceeded.\2\ In the last 
decade, the United States has relied heavily on enforcement-only 
approaches to address migration, using deterrence-based border security 
strategies:
---------------------------------------------------------------------------
    \2\ Chen, Greg and Kim, Su. ``Border Security: Moving Beyond Past 
Benchmarks,'' American Immigration Lawyers Association, (Jan. 30, 
2013). Available at: http://www.aila.org/content/default.aspx?bc=25667/
43061.
---------------------------------------------------------------------------
  <bullet> The U.S. Government has expanded the powers of Federal 
        authorities by creating ``Constitution-Light'' or 
        ``Constitution-Free'' zones within 100 miles of land and sea 
        borders, areas in which CBP personnel claim they have authority 
        that would be unconstitutional in other parts of the country, 
        despite the fact that two-thirds of the American population 
        resides within 100 miles of these borders.
  <bullet> Because of ``zero-tolerance'' initiatives like Operation 
        Streamline,\3\ the Department of Homeland Security (DHS) now 
        refers more cases for Federal prosecution than the Department 
        of Justice's (DOJ) law enforcement agencies. Federal prisons 
        are already 39 percent over capacity, due in large part to 
        indiscriminate prosecution of individuals for crossing the 
        border without authorization, often to rejoin their families. 
        The majority of those sentenced to Federal prison last year 
        were Hispanics and Latinos, who constitute only 16 percent of 
        the population, but are now held in large numbers in private 
        prisons.\4\
---------------------------------------------------------------------------
    \3\ See generally ACLU, ``Operation Streamline Issue Brief.'' (Feb. 
25, 2013), available at http://www.aclu.org/immigrants-rights/
operation-streamline-issue-brief.
    \4\ U.S. Sentencing Commission, 2011 ANNUAL REPORT, Chapter 5, 
available at http://www.ussc.gov/Data_and_Statistics/
Annual_Reports_and_Sourcebooks/2011/2011_Annual_Report_Chap5.pdf.
---------------------------------------------------------------------------
  <bullet> Since 2003, the U.S. Border Patrol has doubled in size and 
        now employs more than 21,400 agents, with about 85 percent of 
        its force deployed at the U.S.-Mexico border.\5\ So many Border 
        Patrol agents now patrol the Southern Border that if they lined 
        up equally from Brownsville to San Diego, they would stand in 
        plain sight of one another (about 10 per mile). This number 
        does not include the thousands of other DHS officials, 
        including CBP Office of Field Operations officers and one-
        fourth of all Immigration and Customs Enforcement (ICE) 
        personnel deployed at the same border. It also does not include 
        651 miles of fencing, 333 video surveillance systems, and 9 
        drones for air surveillance.
---------------------------------------------------------------------------
    \5\ Meissner, Doris, Kerwin, Donald M., Chishti, Muzaffar, and 
Bergeron, Claire. Immigration Enforcement in the United States: The 
Rise of a Formidable Machinery, Migration Policy Institute, January 
2013. Available at: http://www.migrationpolicy.org/pubs/
enforcementpillars.pdf.
---------------------------------------------------------------------------
    From a fiscal perspective, from fiscal year 2004 to fiscal year 
2012, the budget for CBP increased by 94 percent to $11.65 billion, a 
leap of $5.65 billion; this following a 20 percent post-9/11 increase 
of $1 billion.\6\ By way of comparison, this jump in funding is more 
than quadruple the growth rate of NASA's budget and is almost ten times 
that of the National Institutes of Health. U.S. taxpayers now spend 
more on immigration enforcement agencies ($18 billion) than on the FBI, 
DEA, ATF, U.S. Marshals, and Secret Service--combined.\7\
---------------------------------------------------------------------------
    \6\ Michele Mittelstadt et al., ``Through the Prism of National 
Security: Major Immigration Policy and Program Changes in the Decade 
since 9/11.'' (Migration Policy Institute, Aug. 2011), 3, available at 
http://www.migrationpolicy.org/pubs/FS23_Post-9-11-policy.pdf.
    \7\ Migration Policy Institute, Immigration Enforcement, supra.
---------------------------------------------------------------------------
    CBP's spending runs directly counter to data on recent and current 
migration trends and severely detracts from the true needs of border 
security. Over the last decade, apprehensions by the Border Patrol have 
declined more than 72 percent (2000-10). At a time when migrant 
apprehensions are lower than at any time since the 1970s, wasteful 
spending by CBP must be reined in.\8\ In fiscal year 2012, Border 
Patrol apprehended on average 18 people per agent.\9\ A weakening U.S. 
economy, strengthened enforcement, and a growing Mexican economy have 
led to a dramatic decrease in unauthorized migration from Mexico. In 
fact, net migration from Mexico is now zero or slightly negative (i.e., 
more people leaving than coming).\10\
---------------------------------------------------------------------------
    \8\ Testimony of DHS Secretary Napolitano to the House Judiciary 
Committee (July 19, 2012); DHS Fact Sheet, ``Apprehensions by the U.S. 
Border Patrol: 2005--2010.'' (July 2011), available at http://
www.dhs.gov/xlibrary/assets/statistics/publications/ois-apprehensions-
fs-2005-2010.pdf; see also Jeffrey Passel and D'Vera Cohn, ``U.S. 
Unauthorized Immigration Flows Are Down Sharply Since Mid-Decade.'' 
(Pew Hispanic Center, Sept. 1, 2010), available at http://
pewhispanic.org/reports/report.php?ReportID=126.
    \9\ Chen and Kim, ``Border Security,'' supra.
    \10\ Philip E. Wolgin and Ann Garcia, ``What Changes in Mexico Mean 
for U.S. Immigration Policy.'' (Center for American Progress, Aug. 8, 
2011), available at http://www.americanprogress.org/issues/2011/08/
mexico_immigration.html.
---------------------------------------------------------------------------
    The costs per apprehension vary per sector, but are at an all-time 
high. The Yuma, Arizona sector, for example, has seen a 95 percent 
decline in apprehensions since 2005 while the number of agents has 
tripled.\11\ Each agent was responsible for interdicting just 8 
immigrants in 2010, contributing to ballooning per capita costs: Each 
migrant apprehension at the border now costs five times more, rising 
from $1,400 in 2005 to over $7,500 in 2011.\12\ Indeed, despite Border 
Patrol's doubling in size since 2004, overtime costs have amounted to 
$1.6 billion over the last 6 years.\13\ Congress should heed House 
Appropriations Committee Chairman Hal Rogers' warning about the 
irrationality of border spending: ``It is a sort of a mini industrial 
complex syndrome that has set in there. And we're going to have to 
guard against it every step of the way.''\14\
---------------------------------------------------------------------------
    \11\ Richard Marosi, ``Plunge in border crossings leaves agents 
fighting boredom.'' Los Angeles Times (Apr. 21, 2011).
    \12\ Immigration Policy Center, Second Annual DHS Progress Report. 
(Apr. 2011), 26, available at http://www.immigrationpolicy.org/sites/
default/files/docs/2011_DHS_Report_041211.pdf.
    \13\ ``Border Patrol overtime, staffing up; arrests down.'' 
Associated Press (Feb. 5, 2012).
    \14\ Ted Robbins, ``U.S. Grows an Industrial Complex Along the 
Border.'' NPR (Sept. 12, 2012), available at http://www.npr.org/2012/
09/12/160758471/u-s-grows-an-industrial-complex-along-the-border.
---------------------------------------------------------------------------
b. Lack of CBP Oversight: Racial Profiling and Excessive Use of Force
    Unprecedented investment in border enforcement without 
corresponding oversight mechanisms \15\ has led to an increase in human 
and civil rights violations, traumatic family separations in border 
communities, and racial profiling and harassment of Native Americans, 
Latinos, and other people of color--many of them U.S. citizens and some 
who have lived in the region for generations. The bipartisan framework 
that was proposed by the ``Gang of Eight'' Senators in late January 
rightly recognizes a need for strengthened prohibitions against racial 
profiling and inappropriate use of force. In addition, more must be 
done to transform border enforcement by prioritizing investment in 
robust and independent external oversight that includes input from 
border communities.
---------------------------------------------------------------------------
    \15\ Tim Steller, ``Border Patrol faces little accountability,'' 
Arizona Daily Star (Dec. 9, 2012), available at: http://azstarnet.com/
news/local/border/border-patrol-faces-little-accountability/
article_7899cf6d-3f17-53bd-80a8-ad214b384221.html.
---------------------------------------------------------------------------
    Stressed border communities are a vital component of the half-
trillion dollars in trade between the United States and Mexico, and the 
devastating effects of militarization on them must be addressed in 
immigration reform. The U.S.-Canada border has experienced an increase 
in border enforcement resources as well, with Northern Border residents 
often complaining about Border Patrol agents conducting roving patrols 
near schools and churches and asking passengers for their documents on 
trains and buses that are traveling far from border crossings. The ACLU 
of Washington State has brought a class action lawsuit to end the 
Border Patrol's practice of stopping vehicles and interrogating 
occupants without legal justification. One of the plaintiffs in the 
case is an African-American corrections officer and part-time police 
officer who was pulled over for no expressed reason and interrogated 
about his immigration status while wearing his corrections uniform.\16\ 
A local business owner said he's ``never seen anything like this. Why 
don't they do it to the white people, to see if they're from Canada or 
something?''\17\
---------------------------------------------------------------------------
    \16\ Complaint available at http://www.aclu-wa.org/sites/default/
files/attachments/2012-04-26--Complaint_0.pdf.
    \17\ William Yardley, ``In Far Northwest, a New Border Focus on 
Latinos.'' New York Times (May 29, 2012) (emphasis added), available at 
http://www.nytimes.com/2012/05/29/us/hard-by-canada-border-fears-of-
crackdown-on-latino-immigration.html?pagewanted=all.
---------------------------------------------------------------------------
    CBP also aids and abets State and local police racial profiling 
practices, ensnaring U.S. citizens. In February 2011, Tiburcio Briceno, 
a naturalized U.S. citizen, was stopped by a Michigan State Police 
officer for a traffic violation while driving in a registered company 
van. Rather than issue him a ticket, the officer interrogated Briceno 
about his immigration status, apparently based on Briceno's Mexican 
national origin and limited English. Dissatisfied with Briceno's valid 
Michigan chauffeur's license, the officer summoned CBP, impounded 
Briceno's car, and told him he would be deported. Briceno says he 
reiterated again and again that he was a U.S. citizen, and offered to 
show his social security card but the officer refused to look.
    Briceno was released after CBP officers arrived and confirmed that 
he was telling the truth. ``Becoming a U.S. citizen was a proud moment 
for me,'' Briceno has since reflected. ``When I took the oath to this 
country, I felt that I was part of something bigger than myself; I felt 
that I was a part of a community and that I was finally equal to every 
other American. Although I still believe in the promise of equality, I 
know that I have to speak out to make sure it's a reality for me, my 
family and my community. No American should be made to feel like a 
criminal simply because of the color of their skin or language 
abilities.''\18\
---------------------------------------------------------------------------
    \18\ ACLU of Michigan, ``ACLU Urges State Police to Investigate 
Racial Profiling Incident.'' (Mar. 21, 2012) (emphasis added), 
available at http://www.aclumich.org/issues/racial-justice/2012-03/
1685.
---------------------------------------------------------------------------
    In addition to racial profiling at and beyond the border, incidents 
of excessive use of force are on the rise, with at least 19 people 
killed by CBP officials since January 2010,\19\ including five U.S. 
citizens and six individuals who were standing in Mexico when fatally 
shot. On April 20, 2012, PBS's Need to Know \20\ program explored the 
trend of CBP's excessive use of force, with a focus on Anastasio 
Hernandez Rojas. New footage depicting a dozen CBP personnel 
surrounding and repeatedly applying a Taser and other force to Mr. 
Hernandez--who was shown to be handcuffed and prostrate on the ground 
contrary to the agency's incident reporting--shocked viewers. The San 
Diego coroner classified Mr. Hernandez's death as a homicide, noting in 
addition to a heart attack: ``several loose teeth; bruising to his 
chest, stomach, hips, knees, back, lips, head and eyelids; five broken 
ribs; and a damaged spine.'' CBP's version of events described a 
``combative'' person: Force was needed to ``subdue the individual and 
maintain officer safety.'' Spotlighting another CBP fatality, 3 weeks 
ago the Arizona Republic reported that ``An autopsy report raises new 
questions about the death of a Mexican youth shot by at least one U.S. 
Border Patrol officer four months ago in Nogales. The Border Patrol has 
maintained that Jose Antonio Elena Rodriguez, 16, was throwing rocks 
over the border fence at agents on the U.S. side when an agent fired 
across the international border the night of Oct. 10. But entry and 
exit wounds suggest that all but one of as many as 11 bullets that 
struck the boy entered from behind, according to the report by two 
medical examiners working for the Sonora Attorney General's 
Office.''\21\
---------------------------------------------------------------------------
    \19\ Jorge A. Solis, 28, shot and killed, Douglas, AZ (Jan. 4, 
2010); Victor Santillan de la Cruz, 36, shot and killed, Laredo, TX 
(March 31, 2010); Anastasio Hernandez Rojas, 32, tortured to death, San 
Diego, CA (May 28, 2010); Sergio Adrian H. Huereca, 15, shot and 
killed, El Paso, TX (June 7, 2010); Juan Mendez, 18, shot and killed, 
Eagle Pass, TX; Ramses Barron Torres, 17, shot and killed, Nogales, 
Mexico (Jan. 5, 2011); Roberto Perez Perez, beaten while in detention 
and died due to lack of proper medical care, San Diego, CA (Jan. 13, 
2011); Alex Martinez, 30, shot and killed, Whatcom County, WA (Feb. 27, 
2011); Carlos Lamadrid, 19, shot and killed, Douglas, AZ (March 21, 
2011); Jose Alfredo Yanez Reyes, 40, shot and killed, Tijuana, Mexico 
(June 21, 2011); Gerardo Rico Lozana, 20, shot and killed near Corpus 
Christi, TX (Nov. 3, 2011); Byron Sosa Orellana, 28, shot and killed 
near Sells, AZ (Dec. 6, 2011); Alexander Martin, 24, died in car 
explosion that may have been caused by Border Patrol tasers (March 15, 
2012); Charles Robinson, 75, shot and killed, Jackman, ME (June 23, 
2012); Juan Pablo Perez Santillan, 30, shot and killed on the banks of 
the Rio Grande, near Matamoros, Mexico (July 7, 2012); Guillermo 
Arevalo Pedroza, 36, shot and killed, Nuevo Laredo, Mexico (Sept. 3, 
2012); Valerie Tachiquin-Alvarado, 32, shot and killed, Chula Vista, CA 
(Sept. 28, 2012); Jose Antonio Elena Rodriguez, 16, shot and killed, 
Nogales, Sonora (Oct. 11, 2012); and Margarito Lopez Morelos, 19, shot 
and killed, Baboquivari Mountains, AZ (Dec. 2, 2012). This count does 
not include Border Patrol agent Nicholas J. Ivie, 30, who was fatally 
shot by friendly fire near Bisbee, AZ (Oct. 2, 2012).
    \20\ PBS Need to Know special, aired April 20, 2012 and entitled 
``Crossing the line at the border,'' available at http://www.pbs.org/
wnet/need-to-know/security/video-first-look-crossing-the-line/13597/.
    \21\ Bob Ortega, ``New theory on Border Patrol killing of boy.'' 
Arizona Republic (Feb. 7, 2013), available at http://www.azcentral.com/
news/articles/20130206border-patrol-killing-boy-new-theory.html.
---------------------------------------------------------------------------
    After a Congressional letter signed by 16 Members was sent to DHS 
Secretary Janet Napolitano, DHS Acting Inspector General Charles 
Edwards, and Attorney General Eric Holder,\22\ on July 12, 2012, the 
Associated Press reported that a Federal grand jury was investigating 
the death of Anastasio Hernandez.\23\ Border Patrol's use-of-force 
incidents have attracted international scrutiny with the government of 
Mexico,\24\ the Inter-American Commission on Human Rights,\25\ and the 
Office of the United Nations High Commissioner for Human Rights \26\ 
weighing in.
---------------------------------------------------------------------------
    \22\ Congressional sign-on letter sent May 10, 2012 to Secretary 
Janet Napolitano available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DHSletter.pdf; letter sent to DHS Inspector 
General Charles Edwards available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DHSIGletter.pdf; letter sent to DOJ Attorney 
General Eric Holder available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DoJLetter.pdf.
    \23\ Grand Jury Probes Anastasio Hernandez Border Death, available 
http://www.kpbs.org/news/2012/jul/12/grand-jury-probes-border-death/.
    \24\ See, e.g., Bret Stephens, ``The Paradoxes of Felipe 
Calderon.'' Wall Street Journal (Sept. 28, 2012), available at http://
online.wsj.com/article/SB1000087239639044391610457802244- 
0624610104.html?mod=hp_opinion.
    \25\ See ``IACHR condemns the recent death of Mexican national by 
U.S. Border Patrol Agents.'' (July 24, 2012), available at http://
www.oas.org/en/iachr/media_center/PReleases/2012/093.asp.
    \26\ See U.N. Radio, ``United States urged to probe deaths of 
Mexican migrants at border.'' (May 29, 2012), available at http://
www.unmultimedia.org/radio/english/2012/05/united-states-urged-to-
probe-deaths-of-mexican-migrants-at-border/ .
---------------------------------------------------------------------------
    While the Federal Government has the authority to control our 
Nation's borders and to regulate immigration, CBP officials must do so 
in compliance with National and international legal norms and 
standards. As employees of the Nation's largest law enforcement agency, 
CBP personnel should be trained and held to the highest professional 
law enforcement standards. Systemic, robust, and permanent oversight 
and accountability mechanisms for CBP should be integral to border 
security measures. Congress must seize this moment for immigration 
reform to transform border enforcement in a manner that is fiscally 
responsible, enlists border communities in defining their true needs 
and upholds Constitutional rights and American values.

                            III. CONCLUSION

    The ACLU urges Congress to prioritize the reduction of abuses in 
the currently-oppressive immigration and border enforcement system 
which has cost $219 billion in today's dollars since 1986.\27\ By 
jettisoning proposals for escalated border security that clash with 
civil liberties and thereby creating space for genuine immigration 
reform, Congress can ensure that the roadmap to citizenship for 
aspiring Americans is a generous one, free of unjust obstacles. Members 
would thereby maximize the historic expansion of Constitutional 
freedoms for spouses, friends, parishioners, and neighbors in our 
communities, who contribute every day to their successes and deserve 
full and prompt citizenship.
---------------------------------------------------------------------------
    \27\ Robbins, ``U.S. Grows,'' supra.

    Ms. Jackson Lee. And a statement of the American 
Immigration Lawyers Association, ``Border Security: Moving 
Beyond Past Benchmarks,'' be put into the record?
    Mrs. Miller. Without objection.
    [The information follows:]

         Report by the American Immigration Lawyers Association
             Border Security: Moving Beyond Past Benchmarks

                                SUMMARY

    For years, but especially after 9/11, the calls for border security 
have been increasing with many lawmakers demanding that the border must 
be secured. The idea has gained traction, and recent comprehensive 
immigration bills have been loaded with border security measures that 
include more border agents, fencing, and high-tech surveillance, and 
the expanded use of detention. Proposals, such as the 2007 Senate 
reform bill (S. 1639), went further by requiring that specific 
benchmarks, ``triggers,'' be met before legalization could take 
place.\1\
---------------------------------------------------------------------------
    \1\ Text of S. 1639--Kennedy (D-MA) & Specter (R-PA) http:// 
www.aila.org/content/default.aspx?docid=22682;.
---------------------------------------------------------------------------
    Though none of these proposals became law, a resource-heavy 
approach has been implemented and has resulted in a dramatic build-up 
of border security and a massive expenditure of resources focused on 
the following: (1) Achieving ``operational control'' of the border; (2) 
Increasing border personnel; (3) Increasing border infrastructure and 
surveillance; and (4) Increasing penalties for border crossers, 
including prosecution and incarceration. In fiscal year 2012, Customs 
and Border Protection (CBP) alone was funded at $11.7 billion, an 
increase of 64% since fiscal year 2006.\2\ In 2010, Congress passed a 
special border security bill providing an additional $600 million on 
top of the amount already appropriated.\3\
---------------------------------------------------------------------------
    \2\ DHS, Budget-in-Brief, FY 2007 http://www.dhs.gov/xlibrary/
assets/Budget_BIB-FY2007.pdf; DHS, Budget-in-Brief, FY 2012.
    \3\ Text of Public Law 111-230. http://www.gpo.gov/fdsys/pkg/PLAW-
111publ230/pdf/PLAW-111publ230.pdf ($305.9 of the $600 million went to 
CBP to fund the hiring of new personnel, including 1,000 new Border 
Patrol agents and 250 CBP officers, greater use of UAVs, and new 
communications equipment. http://www.cbsnews.com/2100-250_162-
6768934.html).
---------------------------------------------------------------------------
    This report examines past immigration reform proposals, 
specifically the 2006, 2007, and 2010 Senate bills (S. 2611, S. 1639, 
and S. 3932), and evaluates the proposals in these four areas: 
Operational control, border personnel, border infrastructure and 
technology, and detention. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Missing from these proposals is a proven way to measure when the 
border is reasonably secure. For example, lawmakers call for dramatic 
increases in spending on border agents without stating how many more 
personnel are actually needed to ensure border security. The 2007 bill 
proposed raising the total number of border agents to 20,000, but never 
explained why that number of agents is necessary. In fact, the number 
of agents on the border has increased steadily for the past several 
years. In 2011, there were 21,444 border agents, nearly double the 
number in 2006. Despite these increases, which exceed the number 
proposed in the 2007 bill, calls for more border agents persist.
    Often-cited indicators of progress by CBP are the number of 
apprehensions of unauthorized entrants, the level of violence at border 
towns, and the seizures of contraband. In recent testimonies before 
Congress, CBP reported significant achievements in each of these areas. 
Apprehensions at the border are down more than 80 percent from peak 
numbers in 2000. FBI crime reports from 2010 show that violent crimes 
in Southwest Border States have dropped an average of 40 percent in the 
last 20 years.\4\
---------------------------------------------------------------------------
    \4\ Josiah McC. Heyman, ``Guns, Drugs, and Money,'' Immigration 
Policy Center. (September 2011) http://immigrationpolicy.org/
perspectives/guns-drugs-and-money-tackling-real-threats-border-
security.
---------------------------------------------------------------------------
    Yet, the calls for increased border security continue, even at a 
time when border apprehensions are at the lowest rate in more than 40 
years. Border agents are completing only a few apprehensions per agent 
per week. Also, some border agents have been aiding other law 
enforcement agencies with tasks unrelated to their mission.\5\ 
Immigration reform proposals need to identify clearer goals for border 
security and ways to measure success rather than simply increasing 
resources.
---------------------------------------------------------------------------
    \5\ Lisa Graybill, ``Border Patrol Agents as Interpreters Along the 
Northern Border: Unwise Policy, Illegal Practice,'' Immigration Policy 
Center. (September 2012) http://www.immigrationpolicy.org/sites/
default/files/docs/borderpatrolagentsasinterpreters.pdf; (The report 
documents CBP participation in providing translation and responding to 
911 emergency assistance calls); November 21, 2012--CBP released 
guidance on providing language-assistance, which directs CBP to 
redirect requests for assistance based solely on a need for language 
translation. http://foiarr.cbp.gov/streamingWord.asp?i=1233; Richard 
Marosi, ``Plunge in Border Crossings Leaves Agents Fighting Boredom,'' 
Los Angeles Times, Apr. 21, 2011;.
---------------------------------------------------------------------------
            operational control--an ``outdated measure'' \6\
---------------------------------------------------------------------------
    \6\ Testimony of Michael Fisher, House Homeland Security Committee, 
Subcommittee on Border and Maritime Security, ``Securing our Borders--
Operational Control and the Path Forward.'' (February 15, 2011) http://
www.cbp.gov/xp/cgov/newsroom/con_res/ref_rec/congressional_test/
fisher_testifies/chief_fisher.xml (``Since 2004, CBP has used 
`operational control' to describe the security of our borders. However, 
this measure did not accurately represent the Border Patrol's 
significant investments in personnel, technology, and resources or the 
efforts of other DHS Components who are engaged in border security such 
as ICE and the U.S. Coast Guard. Operational Control as applied by the 
U.S. Border Patrol is the ability to detect, identify, classify, and 
then respond to and resolve illegal entries along our U.S. Borders . . 
. The Border Patrol is currently taking steps to replace this outdated 
measure with performance metrics that more accurately depict the state 
of border security.'')
---------------------------------------------------------------------------
    The 2007 Senate bill (S. 1639) required DHS to demonstrate 
operational control of the border between the United States and Mexico. 
Recent bills and Congressional reports have continued to call for 
operational control.\7\
---------------------------------------------------------------------------
    \7\ Congress, in the fiscal year 2012 House Homeland Security 
Appropriations Conference Report: (``[committee] has consistently 
directed that CBP employ a comprehensive strategy for achieving 
operational control of the border, including identifying and utilizing 
the right mix of people, infrastructure and technology.''); H.R. 1091 
Unlawful Border Entry Prevention Act--Hunger (R-CA) (112th) http://
www.govtrack.us/congress/bills/112/hr1091/text--(calls for a plan to 
achieve operational control of border experiencing at least 40 percent 
increase in apprehensions and directs DOD to deploy additional National 
Guard until DHS certifies operational control of the border).
---------------------------------------------------------------------------
    ``Operational control,'' as defined by the Secure Fence Act of 
2006, sets an unrealistic expectation that the border can be 100 
percent sealed.\8\ The GAO, in its testimony before Congress, noted 
that ``[r]esources that would be needed to absolutely prevent every 
single incursion would be something probably out of reasonable 
consideration.'' As of February 2011, the GAO reported that the 
Southwest Border is at 44 percent operational control, with nearly two-
thirds of the remaining 56 percent at the ``monitored'' level, and the 
rest at ``low-level monitored.''\9\
---------------------------------------------------------------------------
    \8\ Secure Fence Act of 2006: (`` `operational control' means the 
prevention of all unlawful entries into the United States, including 
entries by terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.'') http://www.govtrack.us/congress/
bills/109/hr6061/text.
    \9\ GAO Report, ``Border Security: Preliminary Observations on 
Border Control Measures for the Southwest Border'' (February 2011) 
http://www.gao.gov/new.items/d11374t.pdf. See also Edward Alden, 
``Immigration and Border Control,'' Cato Journal Vol. 32, No. 1 (Winter 
2012) http://www.cato.org/pubs/journal/cj32n1/cj32n1-8.pdf (``Evading 
border enforcement has become more difficult, more expensive, and more 
uncertain than before. But border control will always remain imperfect; 
it is not possible for the United States to create a perfectly secure 
border, and that should not be the goal.'')
---------------------------------------------------------------------------
    Achieving absolute border control, whereby no single individual 
crosses into a State without that State's authorization, is impossible. 
Commentators have noted, ``the only nations that have come close to 
such control were totalitarian, with leaders who had no qualms about 
imposing border control with shoot-to-kill orders.''\10\
---------------------------------------------------------------------------
    \10\ Rey Koslowski, ``The Evolution of Border Controls as a 
mechanism to Prevent Illegal Immigration'' Migration Policy Institute. 
(February 2011) http://www.migrationpolicy.org/pubs/bordercontrols-
koslowski.pdf.
---------------------------------------------------------------------------
    DHS itself has moved away from using ``operational control'' as an 
outcome measure for border security, and cites the need to establish a 
border security measure that reflects ``a more quantitative methodology 
as well as the department's evolving vision for border control.''\11\ 
In 2011, Border Patrol Chief Michael Fisher, in his testimony before 
Congress, called operational control an ``outdated measure.'' The 2012-
16 Border Patrol Strategic Plan does not mention ``operational 
control,'' and instead, focuses on goals that would ``[mitigate] risk 
rather than [increase] resources to secure the border.''\12\
---------------------------------------------------------------------------
    \11\ GAO Testimony, ``Border Patrol Strategy: Progress and 
Challenges in Implementation and Assessment Efforts,'' House Homeland 
Security Committee, Subcommittee on Border and Maritime Security (May 
8, 2012) http://www.gao.gov/assets/600/590686.pdf.
    \12\ 2012-2016 Border Patrol Strategic Plan http://www.aila.org/
content/default.aspx?docid=41854; GAO, ``Border Patrol: Key Elements of 
New Strategic Plan Not Yet in Place to Inform Border Security Status 
and Resource Needs,'' (December 2012), http://www.gao.gov/products/GAO-
13-25; Congressional Research Service, ``Border Security: Immigration 
Enforcement Between Ports of Entry,'' (January 2012) http://
fpc.state.gov/documents/organization/180681.pdf (``[A]ccording to CBP 
officials, effective control will be replaced by a `border condition 
index,' '' which will combine multiple dimensions of border security, 
public safety, and quality of life into a holistic `score' that can be 
calculated for different regions of the border.'')
---------------------------------------------------------------------------
                            BORDER PERSONNEL

    The 2006 (S. 2611), 2007 (S. 1639), and 2010 (S. 3932) bills 
prescribe large increases in Border Patrol agents, through incremental 
annual increases or set numbers.\13\ Comparatively small increases for 
CBP officers at ports of entry (POE) are also included. For example, 
the 2006 bill proposed an annual increase of 2,400 Border Patrol agents 
for the next 5 years, compared to an annual increase of 500 for POE 
inspectors. As cited previously, since 2006, Congress has funded a 
near-doubling of Border Patrol agents, from 12,185 to 21,444, and 
current numbers exceed the numbers set forth in the 2006, 2007, and 
2010 bills.
---------------------------------------------------------------------------
    \13\ Text of S. 2611 Specter (R-PA) http://www.aila.org/content/
default.aspx?docid=19568; Text of S. 3932--Leahy (D-VT) & Menendez (D-
NJ) http://www.govtrack.us/congress/bills/111/s3932/text. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The fallacy that more agents equals greater overall security has 
resulted in continued proposals for more personnel without a clear 
evaluation of security goals. Despite historical increases, recent 
immigration proposals continue to call for more personnel.\14\ These 
calls for more border personnel are unjustifiable when apprehensions by 
Border Patrol Nation-wide are at the lowest level since 1972.\15\
---------------------------------------------------------------------------
    \14\ Key Provisions of McCain-Kyl Border Security Enforcement Act 
of 2011 (proposing an increase of 6,000 National Guard troops to be 
deployed to the border and additional 5,000 Border Patrol agents, 
because ``the border is still not secure.''; Other bills introduced in 
the 112th Congress calling for more personnel: H.R. 152 (Poe)--
directing deployment of at least 10,000 National Guard troops, H.R. 
1196 (Miller)--proposing increase of 8,000 Border Patrol agents by 
2015.
    \15\ USBP Apprehensions FY 1925-2011 http://www.cbp.gov/
linkhandler/cgov/border_security/border_patrol/usbp_statistics/
25_10_app_stats.ctt/25_11_app_stats.- pdf; National Immigration Forum, 
``Immigration Enforcement Fiscal Overview: Where are We, and Where are 
We Going?'' Feb. 2011; Richard Marosi, ``Plunge in Border Crossings 
Leaves Agents Fighting Boredom,'' Los Angeles Times, Apr. 21, 2011.
---------------------------------------------------------------------------
    This focus on personnel between ports of entry has coincided with 
an increase in traffic through ports of entry. At the same time that 
apprehensions between the ports of entry decreased Nation-wide, illegal 
entries through ports of entry have increased. Ports of entry have also 
seen an increase in seizures of drugs, weapons, and currency.\16\ 
Moving forward, there needs to be an evaluation and establishment of 
clear and reasoned goals and strategies for resource allocation at the 
border to address needs on the ground.
---------------------------------------------------------------------------
    \16\ Testimony of Michael Fisher, House Committee on Homeland 
Security, Subcommittee on Border and Maritime Security, ``Measuring 
Border Security: U.S. Border Patrol's New Strategic Plan and the Path 
Forward.'' (May 8, 2012) http://www.dhs.gov/news/2012/05/08/written-
testimony-us-customs-and-border-protection-house-homeland-security (CBP 
seized 159 percent more weapons along the Southwest Border in fiscal 
year 2009-2011 compared to the preceding 3 years. For those same 
periods, CBP also seized 74 percent more currency and 41 percent more 
drugs.); Susan Ginsburg, ``Countering Terrorist Mobility: Shaping an 
Operational Strategy'' Migration Policy Institute. (2006) http://
www.migrationpolicy.org/pubs/MPI_TaskForce_Ginsburg.pdf (There is a 
question of priority when current policies and rhetoric emphasize 
``non-port security along the U.S.-Mexico border, despite the terrorist 
threats being either via airport entry points or internal to the Unites 
States, and guns, drugs, and money mainly flowing through land 
ports.'')
---------------------------------------------------------------------------
                   BORDER INFRASTRUCTURE/SURVEILLANCE

    In conjunction with personnel, the border has seen increases in 
infrastructure and surveillance technologies. The 2007 and 2010 bills 
call for the construction of fencing and increase of Unmanned Aerial 
Vehicles (UAVs). Congress has answered by pouring billions into border 
infrastructure to build double-layer fencing and remote surveillance 
systems and deploying increasing numbers of UAVs. Current numbers 
exceed the markers set in the 2007 and 2010 bills. In particular, the 
2007 bill required the construction of 370 miles of fencing and 300 
miles of vehicle barriers, 105 ground surveillance towers, and four 
UAVs. As of 2012, CBP had 651 miles of fencing, 300 video surveillance 
systems installed, and nine UAVs in operation.\17\
---------------------------------------------------------------------------
    \17\ CBP factsheet http://www.cbp.gov/xp/cgov/border_security/ti/
ti_news/sbi_fence/; Testimony of Michael Fisher, House Homeland 
Security Committee, Subcommittee on Border and Maritime Security, 
``Securing our Borders--Operational Control and the Path Forward.'' 
(February 15, 2011) http://www.cbp.gov/xp/cgov/newsroom/con_res/
ref_rec/congressional_test/fisher_testifies/chief_fisher.xml (``Out of 
652 miles where Border Patrol field commanders determined was 
operationally required''); CBP, ``Environmental Assessment for Remote 
Video Surveillance Systems,'' (September 2012) http://www.cbp.gov/
linkhandler/cgov/border_security/otia/sbi_news/sbi_enviro_docs/nepa/
otia_arizona/rvss_sept2012.ctt/rvss_sept2012.pdf; CBP Factsheet, 
``Unmanned Aircraft System MQ-9 Predator B,'' 08/12 http://www.cbp.gov/
linkhandler/cgov/border_security/am/operations/oam_vessels/aircraft/
uas/predator_b.xml/predator_b.pdf. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 2006, DHS has poured approximately $4.4 billion into border 
technology and infrastructure. In 2010, DHS terminated SBInet, the 
``virtual fence,'' after incurring costs of nearly a billion dollars 
and only 2.5 percent of the project completed. In 2011, the GAO 
reported concern for CBP's implementation of a new technology plan when 
``cost and operational effectiveness and suitability are not yet 
clear.''\18\
---------------------------------------------------------------------------
    \18\ GAO, ``Border Security: DHS Progress and Challenges in 
Securing the Southwest and Northern Borders'' (March 30, 2011), http://
www.gao.gov/new.items/d11508t.pdf; DHS, ``Report on the Assessment of 
the Secure Border Initiative Network (SBInet) Program,'' (2010) http://
www.globalexchange.org/sites/default/files/DHS_Report.pdf.
---------------------------------------------------------------------------
                               DETENTION

    Border security has also resulted in dramatic increases in 
resources for detention and prosecution of immigration-related 
offenses. The 2006 and 2007 bills called for an increase in the number 
of detention beds, 20,000 and 31,500 respectively, benchmarks that have 
been met and exceeded. The current Congressional appropriation for 
detention beds sets a level of 34,000 beds.
    Legislatively mandating the number of detention beds raises similar 
issues as with ``operational control,'' by setting inflexible goals and 
taking away the ability of agencies to adapt to shifting risks and 
enforcement needs. In 2012, DHS Secretary Janet Napolitano testified 
before the House Homeland Security Appropriations Subcommittee and 
requested fewer funds for detention beds for fiscal year 2013 compared 
to the previous fiscal year. She stated that ``[DHS had] enough beds to 
handle the detained population.''\19\ Nonetheless, Congress raised the 
appropriation for fiscal year 2013.
---------------------------------------------------------------------------
    \19\ Secretary Janet Napolitano. Hearing before House 
Appropriations Subcommittee on Homeland Security on Fiscal Year 2013 
DHS Appropriations. (February 15, 2012) http://www.micevhill.com/
attachments/immigration_documents/hosted_documents/112th_con- gress/
TranscriptOfHouseAppropriationsSubcommitteeOnHomelandSecurityHearingOnFY
-13- BudgetForDHSNapolitano.pdf.
---------------------------------------------------------------------------
                           RELATED RESOURCES

Center for American Progress, ``The `Border Security First' Argument: A 
Red Herring Undermining Real Security'' (March 29, 2011).

National Immigration Forum, ``Immigration Enforcement Today Measured 
Against Benchmarks Set in 2007,'' (December 2011).
                Appendix.--Current Status of Benchmarks

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Jackson Lee. Thank you.
    Ms. Gambler, the GAO was given a very important assignment 
by members of this panel, and if you had to grade the level of 
security that we have right now based upon the review that GAO 
made what grade would you give it?
    Ms. Gambler. Ranking Member Jackson Lee, I think it is very 
difficult to assign a grade because DHS and the Border Patrol 
in particular have not established goals and measures for 
defining border security between ports of entry and how they 
would assess progress made toward that goal.
    Ms. Jackson Lee. What grade would you give them?
    Ms. Gambler. Again, I think it is really important for the 
Department to set a goal for how secure the border is.
    Ms. Jackson Lee. I would rather you guess at what grade you 
would give them.
    Ms. Gambler. I think it--again, it is really contingent on 
the Department to sort of set their goal and measure for how 
secure the border is and how they would measure progress----
    Ms. Jackson Lee. In the review of GAO, what grade would you 
give them?
    Ms. Gambler. I think it is hard to sort of quantify a 
specific grade, but I think it is important to--for them to 
sort of look at what----
    Ms. Jackson Lee. Would you give them an A, a B, a C?
    Ms. Gambler. I think you would need to----
    Ms. Jackson Lee. I am going to keep asking the same 
question until you give a grade.
    Ms. Gambler. I think they are making progress toward 
securing the border----
    Ms. Jackson Lee. So is that a B?
    Ms. Gambler [continuing]. And their effectiveness rate has, 
as they look at it on a sector-by-sector basis, you know, 
improved----
    Ms. Jackson Lee. Is that a B?
    Ms. Gambler [continuing]. Over time for sectors. So they 
are making progress.
    Ms. Jackson Lee. So will that be a B, or B-plus?
    Ms. Gambler. Again, I think it is hard--I think it would 
be, you know, sort of how you would think about grading them. 
They certainly have made progress towards securing the border.
    Ms. Jackson Lee. I think GAO can do a better job with 
providing a more certain answer. I appreciate that you are not 
giving me an answer. I will come back to you, give you enough 
time to think and see what kind of grade you will give to them.
    Chief Fisher, you mentioned a, I think, very important 
point about intelligence gathering, because that helps with the 
threats and determining the threats. Can you expand on that a 
little bit in terms of the focus on intelligence gathering, and 
do you need more resources for that, more collaboration, or 
more tools?
    Mr. Fisher. Thank you. Absolutely, both in terms of 
intelligence and, just broadly, information, which is the 
reason why it is the first pillar in our strategy.
    Unlike the ports of entry, for instance, when Border Patrol 
agents are out working out in the canyons we don't have a lot 
of advanced information on how many people are coming and what 
type of individuals they are, if they are carrying narcotics or 
if they have weapons or not, so our ability to understand the 
environment in which we operate--intelligence provides us that. 
Information from the community provides us that, as well, and 
the more information that we know about the environment in 
which we operate, the more information we know about the intent 
and capability of those organizations--who are they, what do 
they intend to do--gives us a better tactical advantage to be 
able to ensure that we are protecting this country against a 
future attack, and certainly to provide the level of safety and 
security that the citizens within those communities deserve.
    Ms. Jackson Lee. I am going to ask both you and Admiral, we 
are looking down the road to a possible sequester on this 
coming Friday, and wondering what would be the impact if this 
occurred this coming Friday with respect to services by the 
Border Patrol in terms of numbers, and then services by the 
Customs and Border Protection, so that is Mr. McAleenan and 
then Admiral.
    Chief, would you care to note what might happen?
    Mr. Fisher. Certainly. Without question, if, in fact, on 
March 1 sequestration does happen the Border Patrol will have 
reduced capability. However, we will prioritize and accomplish 
the mission as we normally would do. There are prioritizations 
that we would take a look at in terms of deployments of 
resources to include Border Patrol agents, but it will have an 
impact in terms of reduced capability.
    Ms. Jackson Lee. Mr. McAleenan, if you--and Admiral?
    Mr. McAleenan.
    Mr. McAleenan. Yes. As the Secretary has testified, it 
would be about a 2,750-officer cut. That is about 12.5 percent 
of our staff. We would take mitigation actions, as Chief Fisher 
alluded to, as well, but at the ports of entry it would have 
significant impact on wait times and our ability to move people 
and things through the border.
    Ms. Jackson Lee. Admiral.
    Admiral Lee. Yes, ma'am. The Coast Guard also will have a 
reduction in operations but we are going to preserve our 
capability to respond to search and rescue and urgent ports and 
waterways security missions.
    Ms. Jackson Lee. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thanks.
    We will have the ability for a second round of questions, 
perhaps. We will see how we do with time.
    At this time I would recognize the Ranking Minority Member 
of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    A number of us for quite a while have been trying to get a 
comprehensive border strategy, and we have tried to encourage 
the Department to come up with it.
    Chief, can you tell us where we are along this development 
of a strategy for the border, to secure it?
    Mr. Fisher. Yes, sir. First and foremost when a couple of 
years ago we started looking at our strategy we started first 
and foremost with the Department's Quadrennial Homeland 
Security Review. That basically set the template.
    Then last year Homeland Security--Department of Homeland 
Security submitted their strategy for 2012 and 2016 and we did 
ours in conjunction with that, as well. So if you look at the 
chain, if you will, from the Department down through, at least 
from CBP's standpoint, a lot of our objectives, the things that 
we are attempting to do within our strategy is in line with the 
Secretary's priorities and mission sets, as identified in the 
QHSR.
    Mr. Thompson. So, very succinctly, have we put that 
strategy in writing so that Members of Congress and others 
might know what it is?
    Mr. Fisher. Yes, sir. Our strategy was published last 
spring and it is in writing and certainly available for your 
review, sir.
    Mr. Thompson. All right.
    Tied to the strategy is the border control index. Where are 
we with that?
    Mr. Fisher. It is my understanding, sir, that that is still 
under development. It has been getting some peer review and it 
is not ready for full deployment at this time.
    Mr. Thompson. Is it your opinion that that border control 
index would be something positive for the security of the 
border?
    Mr. Fisher. I think any additional layer, when we look at 
answering this question, you know, the extent to which this 
border is secure, additional layer--different analytics, the 
way that we pool information together--acts as a check-and-
balance system. So anything the Department would put forward 
would just be another layer to check some of the things that, 
at least from the Border Patrol's perspective, we think are 
important to evaluate.
    Mr. Thompson. Ms. Gambler, did you all look at any of this 
in your review?
    Ms. Gambler. During the course of our review we did not 
specifically look at the border condition index. We do 
understand that that is under development within the 
Department.
    We did look at some of the other metrics that Chief Fisher 
mentioned in his opening statement and has been discussing, in 
terms of the effectiveness rate and also the recidivism rate, 
as well, which he mentioned looking at the percentage of 
estimated known illegal entrants who are apprehended more than 
once. So we have looked at some of the data that has been 
mentioned but not specifically the border condition index.
    Mr. Thompson. Well, again, let me thank all of you who are 
on the law enforcement front lines side. You do a wonderful 
job.
    The statistics bear out the fact that if you have the 
resources you can do a better job. No question about that.
    One of the things I think you all are faced with now is 
with the expectation of a reduction, that puts each one of you 
in a position of having to prioritize where you are going to 
attack.
    Admiral, you talked a little bit about search and rescue as 
being a priority versus some of the other things.
    But if you are trying to define this secure border, if you 
are having to prioritize in the light of budget cuts, some 
things will not get the attention that it would get if you had 
resources. Am I correct?
    Admiral Lee. Yes, sir, if you are addressing that to the 
Coast Guard. Bottom line is, when we have to take our 
corresponding cut in operations we are taking people and assets 
off-line, and so it gives you gaps in that line in defense.
    Mr. Thompson. I would like to also get on the record to say 
that a lot of what we do focuses on the Southwest Border, but 
we do have maritime borders, we have a Northern Border, and so 
all of this is the framework of border security, and I would 
hope that as we continue to review this policy that we make 
sure it is inclusive of all the borders that we operate to try 
to secure and not just focus on the Southwest Border.
    I yield back, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman and I appreciate his 
comment about all of the borders. As a Member from a Northern 
Border State, and Admiral talked about Shiprider and some of 
the other things that have been a great success between us and 
the Canadians, and so we have all of these borders.
    At this time the Chairwoman recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Let me just start off by saying I think Americans are 
receiving mixed signals when it comes to border security and 
immigration, and I would just point to an A.P. story on 
February 4 that reports Secretary Napolitano saying, ``I 
believe the border is secure. I believe the border is a safe 
border. That is not to say everything is 100 percent.''
    Then I go back to the whole idea that in 2010 Secretary 
Napolitano stopped reporting the number of miles that the 
border was under operational control--in fact, not even using 
that term anymore, calling the term archaic and not 
representative of security progress along the border. DHS is 
developing a new measure, called border condition index, which 
I would like to hear a little bit more about, but this has not 
been released, and as a result, I think that Congress and the 
public are sort of in the dark when it comes to the true 
numbers and true effectiveness, and that necessitates the 
hearing that we have got today, so I appreciate that.
    I went down to the border back in the fall and I had a 
conversation with Congressman Barber from Arizona earlier this 
month, and we were talking about border security and he said 
that, you know, until ranchers in Arizona who live along the 
border--their ranch is straddling the border there--until they 
feel safe enough--that the border is safe enough for them to 
leave their home and leave their children at whatever ages 
there at the ranch to go into town to buy a gallon of milk, or 
whatever they need, and come back, the border isn't secure. I 
thought that was an interesting analogy that he made that the 
ranchers don't feel safe enough to run to 7-Eleven and grab a 
gallon of milk for their kids without gathering everybody up 
and taking them with them because their home, and their farm, 
and their property is not secure from illegals coming across 
for whatever reason. So I think that is just an interesting 
thing to talk about.
    Chief Fisher, just real quickly, I was in Texas recently 
and the gentleman I was talking with was telling me that he 
helps CBP, and he was talking about other than Mexicans that 
they catch in groups that are coming across. Do we have any 
sort of percentages of what other groups, such as--he was 
saying Chinese and even South Americans--South Africans, 
rather, even Middle Eastern folks coming across in groups. Do 
you have any sort of percentage of other-than-Mexicans that 
come across?
    Mr. Fisher. I do. So in 2012, for instance, and we had 
mentioned a little over 350,000 apprehensions along the 
Southern Border--that represented individuals that were 
arrested from 142 different countries. What we do know in terms 
of the Southwest Border in terms of other-than-Mexico, the 
three sending countries in this order--Guatemala, Honduras, and 
El Salvador--are still the top three percentages.
    In terms of those that are from the country of Guatemala, 
about 3 years ago one out of every three individuals 
apprehended in South Texas came from Guatemala. Today it is 
almost 60 percent.
    So we are seeing the shift in terms of those individuals 
seeking entry into the United States between the ports of 
entries in places like South Texas, where the majority of those 
individuals now are not from Mexico, they are from countries 
other than Mexico.
    Mr. Duncan. Okay, so, Guatemala shares a border with Mexico 
so I can understand the ease of the Guatemalans coming.
    But I want to shift gears a little bit because there is a 
concern about drone use over the homeland, and I know that the 
Coast Guard and CBP are both using drones. So, Chief Fisher, 
and then I will come to the admiral, how effective has the 
drone use been surveying the border?
    Mr. Fisher. The unmanned aerial systems for the Border 
Patrol in particular has been invaluable in providing that 
level of information along the border on--to provide a longer 
and steady, persistent surveillance, if you will, from the sky 
to be able to cue Border Patrol agents on people that are 
seeking entry into the United States. So it has been very 
valuable as an enforcement tool.
    Mr. Duncan. Yes.
    Admiral, how do you see the drone use helping you and your 
job with the panga?
    Admiral Lee. Well, I echo Chief Fisher's comments. It is an 
invaluable and indispensible tool for maritime domain awareness 
so that we can know where to put our resources and target them 
for the end-game interdiction.
    Mr. Duncan. You have got a lot of square miles to cover, I 
would assume.
    Admiral Lee. Millions.
    Mr. Duncan. Yes.
    Chief Fisher, as far as the responsiveness, let's say you 
need to re-task that drone and focus on a certain sector where 
you see some increased activity during the night. How easy--
because I know those drones aren't necessarily flown locally--
how easy is it to coordinate that movement?
    Mr. Fisher. CBP is getting better with that coordination. 
That is a great question, sir. I can tell you that the 
certificates of authorization we have across the border, so we 
have the authorization now to be able to get that airspace to 
move those from one area to the other.
    CBP is getting better and better at the federated flights--
in other words, doing the launch and recovery from one location 
and then doing a hand-off for the flights during the sortie to 
another location. We are improving each and every week.
    Mr. Duncan. Thank you, gentleman, and everyone, for your 
service to our country.
    I will yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes Mr. O'Rourke, from Texas.
    Mr. O'Rourke. Thank you. Madam Chairwoman, I would ask 
that--I would ask for unanimous consent to submit the statement 
from the National Treasury Employees Union and a statement by 
the Border Trade Alliance into the record.
    Mrs. Miller. Without objection.
    [The information follows:]

 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                           February 26, 2013

    Chairwoman Miller, Ranking Member Jackson Lee, distinguished 
Members of the committee, thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) Officers and trade enforcement 
specialists who are stationed at 329 land, sea, and air ports of entry 
(POEs) across the United States. CBP employees' mission is to protect 
the Nation's borders at the ports of entry from all threats while 
facilitating legitimate travel and trade. CBP trade compliance 
personnel enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction, and laundered money.
    In fiscal year 2012, CBP seized more than 4.2 million pounds of 
narcotics across the country. In addition, the agency seized more than 
$100 million in unreported currency through targeted enforcement 
operations. At ports of entry in fiscal year 2012, CBP officers 
arrested nearly 7,700 people wanted for serious crimes, including 
murder, rape, assault, and robbery. Officers also stopped nearly 
145,000 inadmissible aliens from entering the United States through 
ports of entry. Inadmissibility grounds included immigration 
violations, health, criminal, and National security-related grounds. 
Additionally, CBP agriculture specialists conducted more than 1.6 
million interceptions of prohibited plant materials, meat, and animal 
byproducts at ports of entry while also stopping nearly 174,000 
potentially dangerous pests.
    CBP uniformed and non-uniformed personnel at the air, sea, and land 
ports of entry not only ensure a secure border, but also collect 
significant revenue through trade compliance and enforcement. CBP is a 
revenue collection agency, processing more than $2.3 trillion in trade 
annually. In fiscal year 2012, CBP processed nearly 25 million cargo 
containers through the Nation's ports of entry, up about 4 percent from 
the previous year. In addition, CBP conducted nearly 23,000 seizures of 
goods that violate intellectual property rights, with a total retail 
value of $1.2 billion, representing a 14 percent increase in value over 
fiscal year 2011.
    CBP personnel at the ports of entry are key to achieving and 
maintaining a ``secure border'' and the greatest current threat to a 
``secure border'' is sequestration under the Budget Control Act that is 
mandated to be ordered on March 1 unless Congress acts.
    If Congress allows sequestration to go into effect on March 1, 
CBP's discretionary budget will be reduced by 6.4%--a cut of $652.56 
million in appropriated funds out of a $9.5 billion budget--$558.26 of 
which must come from the CBP Salaries and Expenses (S&E) account.
    Also, under the sequester, CBP's mandatory spending, including user 
fee accounts, will be cut by $100 million. User fees will continue to 
be collected from industry to provide travel and trade security, 
immigration and agriculture inspection services, but CBP will be 
prohibited from using $100 million dollars of these user fees between 
March 1 and the end of the fiscal year. It is not clear whether these 
user fees collected will go to the general treasury, but user fees are 
not a tax, by law they pay for specific services provided by the 
Government. Sequestration nullifies the use of $100 million of these 
collected fees to pay for CBP inspectional services.
    The current CBP sequester plan, in order to cut the S&E account by 
$558.26 million and the mandatory spending account by $100 million, 
requires all CBP employees to be furloughed up to 14 days during the 
remainder of fiscal year 2013 or 1 day per pay period beginning early 
to mid-April through September 30, resulting in a 10% pay cut for all 
CBP employees. These furloughs will exacerbate an already unsustainable 
shortage of CBP inspection and enforcement personnel at international 
air, sea, and land ports of entry.
    As Department of Homeland Security (DHS) Secretary Janet Napolitano 
stated last week before the Senate Appropriations Committee, 
``sequestration would have significant impacts in our economy, 
including travel, tourism, and trade. Reductions mandated under 
sequestration would require furloughs and reduced staffing at our 
Nation's POEs and airport security checkpoints, increasing wait times 
for travelers and slowing commerce across the country. Reduced CBP 
staffing would make 4- to 5-hour wait times commonplace and cause the 
busiest ports to face gridlock situations at peak periods.''
    There is no greater roadblock to legitimate trade and travel 
efficiency than the lack of sufficient staff at the ports of entry. 
Understaffed ports lead to long delays in our commercial lanes as cargo 
waits to enter U.S. commerce.
    Those delays result in real losses to the U.S. economy. According 
to a draft report prepared by the Department of Commerce, border delays 
in 2008 cost the U.S. economy nearly 26,000 jobs and $6 billion in 
output, $1.4 billion in wages, and $600 million in tax revenues 
annually. According to the same report, by 2017, average wait times 
could increase to nearly 100 minutes, costing the United States more 
than 54,000 jobs and $12 billion in output, $3 billion in wages and 
$1.2 billion in tax revenues. The cumulative loss in output due to 
border delays over the next 10 years is estimated to be $86 billion.
    More than 50 million Americans work for companies that engage in 
international trade, according to the U.S. Department of the Treasury. 
If Congress is serious about job creation, then Congress should support 
enhancing U.S. trade and travel by mitigating wait times at the ports 
and enhancing trade enforcement by increasing CBP security and 
commercial operations staffing at the air, sea, and land ports of 
entry.
    In addition, under sequestration, CBP will reduce by $37.5 million 
inspectional overtime. Overtime is essential when staffing levels are 
insufficient to ensure that inspectional duties can be fulfilled, that 
CBP Officers have sufficient back-up and that wait times are mitigated. 
In CBP's own words, ``Overtime allows CBP Office of Field Operations to 
schedule its personnel to cover key shifts with a smaller total 
personnel number.'' The Congressionally-mandated sequester will 
significantly cut overtime hours and result in longer wait times at the 
ports of entry.

      SEQUESTER EFFECTS EXAMPLES IN FLORIDA, TEXAS, AND CALIFORNIA

    Just last Wednesday, February 20, DHS Secretary Napolitano, at the 
request of Florida's Governor Rick Scott, toured the Miami 
International Airport (MIA) with a delegation from Congress and airline 
and cruise representatives and other industry stakeholders. Governor 
Scott noted that insufficient staffing at the new state-of-the-art CBP 
facility at MIA caused a ``bottleneck'' for passengers trying to exit 
customs. ``As a result, customers--often numbering well over 1,000 a 
day--and their baggage are misconnected and must be rebooked on later 
flights, many leaving the next day.''
    In a letter to the Secretary, Governor Scott stated, ``If this 
staffing problem is not corrected immediately, it has the potential to 
damage Florida's international competiveness. More than 1 million jobs 
in Florida depend on international trade and investment. The 
engineering models and recommendations reflected that for optimal 
operations a minimum of 62 of the 72 lanes must be staffed at peak 
arrival periods.''
    Congressman Mario Diaz-Balart said after the tour, ``Tourism is the 
backbone of Florida's economy, and DHS must do more to adequately staff 
our ports. Our CBP agents are working diligently to protect us from any 
security threats, illegal substances, and invasive pests and diseases 
entering the United States, but the lack of staffing is creating long 
and disorganized lines for travelers, and discouraging travelers from 
visiting and using South Florida's ports.''
    Another State with on-going significant CBP personnel staffing 
shortages is Texas where more than 420,000 jobs depend on trade with 
Mexico. Texas leads the Nation with 29 international ports of entry. 
The Houston field office manages 19 of these, including the Port of 
Houston, George Bush Intercontinental Airport (IAH) and airports at 
Dallas-Fort Worth, Austin, San Antonio, Midland, Lubbock, Amarillo, and 
also Oklahoma City and Tulsa. Currently IAH wait times are considerably 
longer than Houston's airport competitors--Dallas and Atlanta. And the 
City of Houston is considering a proposal to allow international 
commercial flights at Hobby Airport.
    In El Paso, city officials have used the word ``crisis'' to 
describe the sometimes hours-long wait times at the local ports of 
entry and are considering legal action over the environmental effect of 
international bridge wait times and ``CBP's failure to keep those 
booths open.''
    Wait times of up to 3 hours at Los Angeles International Airport 
(LAX), the Nation's third-busiest airport moved 10 Members of Congress 
to demand that CBP transfer CBP Officers from other ports of entry to 
LAX. Despite continuing staffing shortages at LAX, the Bradley terminal 
is undergoing a $1.5 billion overhaul that calls for expanding the 
number of CBP inspection booths to 81.
    Also in California, Congress has funded the first phase of a $583 
million upgrade of the Port of San Ysidro. When the first phase is 
completed in September 2014, there will be 46 inspection booths--up 
from the current 33. An additional 17 booths would be built in the 
third phase bringing the total number of booths needing CBP Officer 
staffing from 33 to 63.
    As noted in these examples, Congress, local jurisdictions, and 
industry stakeholders continue to act as if CBP can staff whatever is 
built.
    CBP cannot adequately staff existing port facilities under current 
funding levels provided by Congress. Proposed port expansions, allowing 
international flights at airports that are currently not served by 
international flights, and other new construction to address the growth 
in international trade and travel, is not possible under the 
Congressionally-mandated sequester. And, if the sequester, which is 
intended to be permanent, continues into fiscal year 2014, the current 
levels of CBP staffing, as set by Congress in statute, will be 
unsustainable.

             CBP'S ON-GOING STAFFING SHORTAGES AT THE POES

    The Congressionally-mandated sequester only exacerbates CBP's on-
going staffing shortage problem. In 2008, the Government Accountability 
Office (GAO) reported, ``At seven of the eight major ports we visited, 
officers and managers told us that not having sufficient staff 
contributes to morale problems, fatigue, lack of backup support, and 
safety issues when officers inspect travelers--increasing the potential 
that terrorists, inadmissible travelers and illicit goods could enter 
the country.'' (See GAO-08-219, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue . . . officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    Without adequate personnel at secondary, wait times back up and 
searches are not done to specifications. This is a significant cargo 
security issue. A full search of one vehicle for counterfeit currency 
will take two officers on average a minimum of 45 minutes. Frequently, 
only one CBP Officer is available for this type of search and the 
search will then take well over an hour.
    Finally, NTEU has been told that when wait times in primary 
inspection become excessive in the opinion of the agency, CBP Officers 
are instructed to query only one occupant of a vehicle and to suspend 
COMPEX (Compliance Enforcement Exams) and other automated referral to 
secondary programs during these periods. This is a significant security 
issue. Also, when primary processing lanes become backed up, passenger 
vehicles are diverted to commercial lanes for processing, backing up 
truck lanes and increasing wait times for cargo inspection.
    In October 2009, the Southwest Border Task Force, created by DHS 
Secretary Janet Napolitano, presented the results of its staffing and 
resources review in a draft report. This draft report recommends the 
``Federal Government should hire more Customs [and Border Protection] 
officers.''
    The report echoes the finding of the Border-Facilitation Working 
Group. (The U.S.-Mexico Border Facilitation Working Group was created 
during the bilateral meeting between President George W. Bush and 
President Felipe Calderon held in Merida in March 2007.) ``In order to 
more optimally operate the various ports of entry, CBP needs to 
increase the number of CBP Officers.'' According to its own estimate, 
the lack of staffing for the San Ysdiro POE alone is in the 
``hundreds'' and the CBP Officer need at all ports of entry located 
along the border with Mexico is in the ``thousands.'' (``CBP: 
Challenges and Opportunities'' a memo prepared by Armand Peschard-
Sverdrup for Mexico's Ministry of the Economy: U.S.-Mexico Border 
Facilitation Working Group, January 2008, pages 1 and 2.
    Also, when CBP was created, it was given a dual mission of 
safeguarding our Nation's borders and ports as well as regulating and 
facilitating international trade. It also collects import duties and 
enforces U.S. trade laws. In 2005, CBP processed 29 million trade 
entries and collected $31.4 billion in revenue. In 2009, CBP collected 
$29 billion--a drop of over $2 billion in revenue collected. Since CBP 
was established in March 2003, there has been no increase in CBP trade 
enforcement and compliance personnel and again, the fiscal year 2013 
budget proposed no increase in FTEs for CBP trade operations personnel. 
In effect, there has been a CBP trade operations staffing freeze at 
March 2003 levels and, as a result, CBP's revenue function has suffered 
and duty and fee revenue collected has remained flat.

                               CONCLUSION

    As noted by Members of Congress, industry stakeholders, the 
traveling public, and DHS's own Advisory Council, for too long, CBP at 
the POEs has been underfunded and understaffed.
    By allowing the sequester to go into effect on March 1, Congress 
will continue and exacerbate staffing shortages at the U.S. ports of 
entry, the U.S. economy dependent on international trade and travel, 
will suffer and U.S. private sector jobs will be lost.
    The title of this hearing is ``What does a secure border look 
like?'' NTEU's answer is ``not one ravaged by the effects of a 
sequester.''
    The more than 24,000 CBP employees represented by the NTEU are 
capable and committed to the varied missions of DHS from border control 
to the facilitation of legitimate trade and travel. They are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade. 
These men and women are deserving of more resources and technology to 
perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.
                                 ______
                                 
    Statement of Jesse J. Hereford, Chairman, and Nelson H. Balido, 
                  President, the Border Trade Alliance
                           February 26, 2013

    The Border Trade Alliance appreciates this opportunity to submit 
for the record this testimony on sequestration's potential effects on 
cross-border trade and travel. Our organization believes that, with 
these dramatic Government-wide budget reductions just days away from 
implementation, exploring this topic is both timely and necessary.

                    ABOUT THE BORDER TRADE ALLIANCE

    Founded in 1986, the Border Trade Alliance is a non-profit 
organization that serves as a forum for participants to address key 
issues affecting trade and economic development in North America. 
Working with entities in Canada, Mexico, and the United States, the BTA 
advocates in favor of policies and initiatives designed to improve 
border affairs and trade relations among the three nations.
    BTA's membership consists of border municipalities, chambers of 
commerce and industry, academic institutions, economic development 
corporations, industrial parks, transport companies, custom brokers, 
defense companies, manufacturers and State and local government 
agencies.

                 SEQUESTRATION LOOMS: WHAT'S AT STAKE?

    The subcommittee should be commended for examining how 
sequestration will affect our cross-border trade relationship with our 
neighbors and NAFTA partners Canada and Mexico.
    Looking at recently released 2012 trade data\1\ by the Census 
Bureau, Canada is the United States' No. 1 trading partner in total 
trade, accounting for $616 billion or 16 percent of total U.S. trade. 
Canada is our No. 1 export market and our No. 2 import market.
---------------------------------------------------------------------------
    \1\ http://www.census.gov/foreign-trade/statistics/highlights/top/
top1212yr.html.
---------------------------------------------------------------------------
    Mexico is our No. 3 trading partner by total trade, accounting for 
$494 billion or 13 percent of total U.S. trade and is our No. 2 export 
market and our No. 3 import market.
    These aren't just economic data compiled by Government 
statisticians. These numbers mean jobs. One in four U.S. jobs depends 
on international trade. Consider the border States like California 
where 617,000 jobs depend on international trade, or Texas, where it's 
539,000 or Michigan where it's 210,000.

                      CBP: AT THE CENTER OF TRADE

    The agency with the most influence over the conduct of this cross-
border trade is Customs and Border Protection. To say that 
sequestration would be disruptive to CBP's dual mission of trade 
facilitation and border enforcement would be a vast understatement.
    As Homeland Security Secretary Janet Napolitano made plain in a 
recent Senate Appropriations Committee hearing, in fiscal year 2012 
alone, CBP processed more than 350 million travelers at our ports of 
entry, as well as $2.3 trillion worth of trade.\2\
---------------------------------------------------------------------------
    \2\ http://www.dhs.gov/news/2013/02/14/written-testimony-secretary-
napolitano-senate-committee-appropriations-hearing.
---------------------------------------------------------------------------
    In her testimony, Secretary Napolitano touched a nerve with our 
organization and the rest of the trade community when she said. 
``Sequestration would roll back border security [and] increase wait 
times at our Nation's land ports of entry and airports.''
    Perhaps no other issue occupies our work more than the issue of 
border delays, which increase the cost of doing business and create a 
drag on the American economy.
    For the past several months, the BTA has been working with the 
Government Accountability Office as it carries out a request by former 
Texas Sen. Kay Bailey Hutchison to assess how CBP measures wait times 
at ports along the U.S.-Mexico border and determine what the agency is 
doing to mitigate those delays.
    In roundtable discussions with GAO analysts and members of the 
trade community in the border communities of Laredo, Texas; El Paso, 
Texas; Nogales, Arizona; and San Diego, California, one theme has 
emerged again and again: CBP does not have the human resources in place 
to keep up with today's trade demands.
    Sequestration only exacerbates these staffing challenges, forcing 
CBP to immediately begin furloughs of its employees, reduce overtime 
for front-line operations, and decrease its hiring to backfill 
positions. Specifically, beginning April 1, CBP would have to reduce 
its work hours by the equivalent of between 2,750 and 3,400 CBP 
Officers.
    Quite simply, we cannot reconcile CBP's tremendously important dual 
mission with deep cuts in its operating budget.
    As concerned as we are over these nearing reductions, we are 
heartened that CBP is putting in place procedures to mitigate as best 
as possible sequestration's effects. Specifically, CBP has informed the 
trade community that directors of field operations (DFOs) will be 
tasked with providing 30-day notices of pending operational changes at 
ports of entry to employees and trade stakeholders so that industry can 
plan changes to manufacturing and shipping schedules.

                                 TRAVEL

    The BTA also has deep concerns over sequestration's effect on 
cross-border travel, which is so important to border community 
businesses that depend on the ability of customers located on the other 
side of the international border to reach stores, restaurants, and 
other attractions in the United States.
    Using only Texas as an example, Mexican shoppers' impact on that 
State's border communities is profound, representing over 40 percent of 
retail sales in Laredo, 40 percent in McAllen, 30 percent in 
Brownsville and over 10 percent in El Paso according to research 
conducted in 2011.\3\
---------------------------------------------------------------------------
    \3\ ``Cross-border retail activity along the Texas-Mexico border,'' 
Coronado, Phillips and Saucedo; Nov. 2011.
---------------------------------------------------------------------------
    According to data compiled by the International Trade 
Administration's Office of Travel & Tourism Industries, U.S.-bound 
travel from Mexico spiked over 30 percent from March 2011 to April 
2011.\4\ The most likely reason was Semana Santa, or Holy Week, when 
ports of entry along the U.S.-Mexico border are clogged with travelers 
headed north and south for family visits culminating in Easter.
---------------------------------------------------------------------------
    \4\ http://tinet.ita.doc.gov/view/m-2011-I-001/table1.html.
---------------------------------------------------------------------------
    We cite this particular time on the calendar because it is fast 
approaching and our ports of entry must be ready. Sequestration leaves 
our organization very concerned over the negative effects that could be 
borne by our border communities and land border ports in just a few 
short weeks.

                  A WAY FORWARD IN A TIME OF AUSTERITY

    While the picture for our border agencies under sequestration 
initially seems bleak, there are policy options available to Congress 
and the administration.
    Sen. John Cornyn has introduced legislation, S. 178, the Cross-
Border Trade Enhancement Act of 2013, which would create a needed and 
innovative mechanism for private-sector or existing local public-sector 
funds to be leveraged for border port infrastructure projects and/or to 
supplement Congressionally-appropriated staffing dollars.
    A new way of bringing border infrastructure and increased staffing 
levels on-line is needed, and sequestration makes that all the more 
apparent. The Federal Government simply does not have the resources 
necessary to keep up with all of the growing demands placed on our 
borders resulting from rising trade flows and on-going security 
concerns. But local communities and the private sector are ready to act 
where the Federal Government is unable. We are hopeful that companion 
legislation to Sen. Cornyn's bill will soon be introduced in the House.

                               CONCLUSION

    Nothing in our testimony should be construed as somehow endorsing a 
Federal budget that needs serious reform. We know that cuts are needed 
in many areas. We simply urge Congress and the administration to make 
those reductions thoughtfully and in a manner that will inflict as 
little harm as possible on the overall economy.
    We thank the subcommittee for the opportunity to submit these 
comments. Please do not hesitate to contact us should our 
organization's nearly 30 years of cross-border experience prove 
valuable to your work going forward.

    Mr. O'Rourke. I would also like to thank you, Madam 
Chairwoman and Ranking Member Jackson Lee, for assembling this 
panel and holding this hearing on what a secure border looks 
like, and it is perhaps one of the most important questions for 
us in Congress and for our country to answer.
    The fate of 12 million people in the United States right 
now and the future of comprehensive immigration reform depend 
on the answer to this question. The fate of the community that 
I represent, El Paso, Texas, the safest city in the United 
States, but one which is heavily dependent on cross-border 
trade and the legitimate, secure flow of people and goods 
across our ports of entry, my city--the people who work in it, 
the people I represent--depends on our answer to this question.
    I would argue, the fate of our country. We have more than 6 
million people whose jobs are directly dependent on the secure 
flow of trade that crosses our ports of entry. We trade more 
than $450 billion a year with the country of Mexico, and if we 
want to see economic growth in this country, the fate of our 
country depends on how we answer this question. Not to mention 
the billions of dollars that we spend right now to secure the 
border, as our Chairwoman has pointed out, with not a lot of 
measurements attached to it to define whether or not we are 
doing a good job.
    So since we are unable to succinctly define what a secure 
border looks like today--although we are working on it and I 
hope we have additional hearings--I was hoping that Chief 
Fisher and Commissioner McAleenan could answer this question: 
Considering El Paso is the safest city in the United States, 
San Diego, also on the U.S.-Mexico border, is the second 
safest, if you look at the border on whole from Brownsville, 
including Laredo, all the way to San Diego and you compare it 
to the rest of the United States, we are safer than the country 
on whole, and I would argue that the rancher going to get his 
milk in Arizona is far safer than the single mom leaving her 
apartment in Washington, DC, or Detroit, or New Orleans, or 
many of the cities in the country's interior today.
    So with that, the record deportations, the record low 
apprehensions, the record money spent, the doubling of the 
Border Patrol force, are we as safe and secure as we have ever 
been?
    Mr. Fisher. Sir, I believe in many sections along the 
border I can compare to when I came in the Border Patrol in 
1987, certainly because of this committee's support and others 
we have received unprecedented resources, both in terms of 
Border Patrol agents and technology, and there are more 
sections along this border that are secure because of that.
    Mr. McAleenan. I would agree with--our technology 
deployments, our operational improvements, how we are using our 
targeting systems, the ability with the Western Hemisphere 
Travel Initiative to query almost every person crossing the 
land border, we are significantly more secure with 
inadmissibles, with our counternarcotics mission, agricultural 
pests and diseases, and of course, our efforts against 
terrorism.
    Mr. O'Rourke. Commissioner, could I ask you to reach the 
conclusion that I think you started, which is we are more 
secure in all those areas than we have ever been?
    Mr. McAleenan. That is correct.
    Mr. O'Rourke. Okay. I think that is important for us to 
know because I share this committee's frustration with the fact 
that we don't have a defined goal and measurements on which to 
chart our progress against that goal. We are no longer using 
operational control. We haven't released the new comprehensive 
index from DHS.
    So in the absence of that, with so much riding on our 
ability to speak intelligently about border security, I think 
it is really important for this panel and the country to know 
the border is as secure as it has ever been.
    Commissioner, an additional question for you: While El Paso 
is the safest city in the country--and I would argue, if you 
want to know what a secure border looks like look at El Paso, 
Texas, the world's largest bi-national community, safest city 
in the United States next to what until recently was the 
deadliest city in the world, Ciudad Juarez, with 10,000 murders 
over the last 6 years, one of the things that is a threat to El 
Paso and our economy and, by extension, the National economy is 
the slow pace of cross-border traffic.
    We hear of shippers--and I am sure Congressman Cuellar can 
attest to this--who wait up to 9 hours to cross north into the 
United States. We hear from constituents who wait 3, 4, and 
even 5 hours in pedestrian or auto lines to cross these 
bridges. There are just some basic issues of being humane to 
the people who are crossing, and then we also are dependent on 
them for our economy.
    When I crossed this week when I was back in El Paso, CBP 
agents knew I was coming back over, there was no wait time. 
When I talked to other members in my staff who regularly cross, 
they wait 3, 4, and 5 hours. If we can get me across in 10 
minutes why can't we get everyone across in 10 minutes?
    Mr. McAleenan. As I mentioned in my oral statement, our 
wait times and our service levels to the traveling public and 
commercial trade are a huge focus for us. We made significant 
efforts in El Paso over the last year, increasing our booth 
time by 14 percent with staffing remaining flat. That has 
resulted in reduced wait times, actually, in fiscal year 2012 
over 2011.
    The traffic is up in every category--pedestrian, personal 
vehicles, commercial vehicles--12 percent over the last 3 
years. We are using our new technology, our active lane 
management procedures to try to get people into the trusted 
lanes, try to get people into the RFID-enabled lanes to move 
them quicker.
    You have seen the technology in the pedestrian area at PDN. 
That has increased our capacity 25 percent. The wait times are 
down significantly. We are staffing the booths the peak times 
more efficiently, and that is making a difference but it is a 
continued focus for us. We are going to need to move that 
increasing trade and travel even more efficiently this year.
    Mrs. Miller. Chairwoman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you. I would like to thank the 
Chairwoman, also, for this very, very important hearing today.
    I come from a much different perspective, being a mayor--a 
former mayor--of a city that is 2,000 miles away from the 
nearest Southern Border. We had an illegal immigration 
problem--some of you may have known I was the first mayor in 
the country to pass a law dealing with illegal immigration.
    Over 10 percent, it was estimated at the time, in my city 
was in the country illegally, and they didn't cross--the 
majority did not cross a Southern Border. Our population grew 
by 50 percent but our tax revenues stayed the same so I see 
this from a different prism as many others because there is an 
economic side to this problem of illegal immigration as well as 
a National security side.
    I disagree--I am listening here today and I guess my first 
disagreement is how we even define our borders. I believe there 
is an important piece to this issue that is missing here.
    Any State that has an international airport is a border 
State. Any State with an international airport is a border 
State. Forty percent of the people that are in the country 
illegally didn't cross a border; they came here on a visa, the 
visa expired, and they disappeared into the system and we can't 
find them.
    We have our immigration laws for two reasons. No. 1 is to 
protect American jobs, and No. 2, to protect the American 
people.
    My question, Chief Fisher, is: Do you believe adding more 
people on the border would have stopped the attack on 9/11?
    Mr. Fisher. No, sir.
    Mr. Barletta. Mr. McAleenan, if I were a could-be terrorist 
and I flew into Harrisburg International Airport or Des Moines, 
Iowa Airport and didn't leave after my visa expired how would 
you find me?
    Mr. McAleenan. Sir, we are assuming this individual is not 
known to the intelligence community or law enforcement as a 
potential terrorist?
    Mr. Barletta. That is correct.
    Mr. McAleenan. Okay, that is a multi-agency effort. First 
of all, we would use the biographic information transmitted to 
CBP called the Advanced Passenger Information System, which 
would tell us who they are, when they have arrived, a record of 
their crossing date. We would work with US-VISIT and 
Immigration and Customs Enforcement to determine whether they 
left on time. That is the biographic exit effort----
    Mr. Barletta. If I could just interrupt you 1 second, 
please.
    Mr. McAleenan. Please.
    Mr. Barletta. Then how would we have 40 percent of the 
people in the country illegally who have--whose visas have 
expired, why haven't we been able to do that?
    Mr. McAleenan. I think this is an acknowledged area, 
Representative, where we need to improve and we have been 
improving over the last several years.
    Mr. Barletta. That is exactly my point, because you see, 
some of the--and you know this--some of the 9/11 terrorists 
overstayed their visas. In fact, one of the 1993 World Trade 
Center bombers was granted amnesty in 1986; he said he was an 
agricultural worker and was granted amnesty and later was one 
of the masterminds to that.
    Now there is a new proposal here to grant the pathway to 
citizenship to millions who have crossed the border illegally 
or who have overstayed a visa. I believe that this will only 
encourage millions more, now, to come here through our open 
borders. You know, basically what this proposal is telling 
anyone that is here on a visa right now is that you can throw 
your visa away because this proposal will now allow you to 
stay.
    We need to make sure that we are doing first things first--
that we are securing our borders. That is not only airports--
seaports, Northern Border, Southern Border, East Coast, West 
Coast. We can't exclude those that come here through a legal 
pathway and then stay here and become here illegally. That is 
what is missing here today, and we certainly shouldn't use our 
immigration laws to make new friends or to use it to battle for 
new voters.
    You know, today is an important day. Today is the 20th 
anniversary of the 1993 attack on the World Trade Center where 
six people died and over 1,000 people were injured. Our 
immigration laws are here to protect American jobs and protect 
the American people. We are a long way from secure borders and 
that should be a reminder to everyone here in Congress that we 
don't replace the carpet in our homes while we still have a 
hole in our roof.
    Thank you.
    Mrs. Miller. Chairwoman now recognizes the gentlelady from 
Hawaii, Ms. Gabbard. Am I pronouncing your name correctly?
    Ms. Gabbard. Gabbard.
    Mrs. Miller. Gabbard.
    Ms. Gabbard. Thank you very much.
    As the Ranking Member, Ms. Jackson Lee, mentioned, I am 
going to take the conversation a different direction because, 
as all of you know, we face very unique challenges in Hawaii 
that are very different than many of the issues that have been 
brought up here this morning, but they are not issues that only 
affect Hawaii. As you well know, with what is happening in Asia 
and across the Pacific, Hawaii's strategic location there 
really is a gateway to what is happening in our country.
    My first question is for Admiral Lee. You talk in your 
testimony about the domestic partnerships that the Coast Guard 
has formed and that you share in areas of the U.S. waters but 
don't really get into much of the details about what is 
happening in the Pacific and the kinds of partnerships that you 
have there, especially considering within the 14th District, 
folks who I visited with, Admiral Ray and his teams out on the 
ground really do cover not only the islands of Hawaii, but 
Guam, America Samoa, Saipan, even Singapore and Japan, and 
would like you to talk a little bit more about the partnerships 
you have there, especially as we are looking at the cuts that 
the Department has spoken about affecting nearly 25 percent of 
air and surface operations and how we can make sure we are 
maintaining coverage in that vast region.
    Admiral Lee. Well yes, ma'am. Thank you for the question.
    We have an outstanding working relationship with our 
partners at Pacific Command. We have cross talks at the Admiral 
Ray level routinely.
    We are watching, as is the Nation, with what is developing 
and unfolding in the Pacific arena. We are watching what is 
going on between the Japanese and the Chinese off the Senkakus. 
We are watching what is going on with fisheries.
    Frankly, our force is standing ready to respond as the 
Nation needs it to. That is a large body of water that, as you 
are well aware, requires resources to patrol and maintain. We 
have an aging and decrepit fleet that is being reduced in size, 
so therefore our capacity to patrol those areas and meet surge 
demands is being diminished.
    Ms. Gabbard. Can you talk a little bit more about what 
kinds of impacts you foresee should the sequester occur on 
March 1 within the Pacific region?
    Admiral Lee. We haven't singled out the Pacific for any 
more or any less cuts than anywhere else. The operational 
commanders have been given guidance whereby the guiding 
principle was, preserve our capability to respond to search and 
rescue and the preservation of life and property and to meet 
security demands, and it was--there was no more specificity 
than that.
    Secretary Napolitano stated the other day that she would 
anticipate that the operational lay-down could be curtailed as 
much as 25 percent. We are leaving it to the operational 
commanders to decide where that 25 percent cut will occur, 
again, preserving our ability to respond and to surge if the 
situation dictates.
    Ms. Gabbard. Thank you very much. It is obviously an issue 
of concern for us as we look forward to kind of keeping a close 
eye on this as it develops. I also just want to commend your 
folks on the ground who, as I have seen within the communities 
and at all different levels--county, State, as well as the 
Federal partners are creating these great partnerships that 
allow for sharing of resources in ways that may not normally 
occur. So great job with the folks on the ground.
    For Mr. McAleenan, again, as Hawaii is a through point for 
so much traffic, especially from Asia, and with your office 
being responsible for customs and agricultural inspections 
specifically, I have met with some of the folks on the ground 
there who, as all of us are concerned about continued shortages 
in manpower and labor and what that does to affect us as an 
island State and our economy in particular with the 
agricultural and other pests that we are often threatened by. 
Invasive species have and could continue to destroy not just 
our environment, but really from a basic economic level, we had 
the coffee berry borer completely destroyed crops, costing 
millions and millions of dollars to our local farmers and 
really caused issues for our economy.
    I am wondering how you foresee, as you are prioritizing 
your risks, big picture, affecting economies like Hawaii's that 
are these major through-points with the agricultural 
inspections.
    Mr. McAleenan. Thank you. Yes, being originally from 
Hawaii, I am keenly aware of the importance of tourism and the 
fragile agricultural ecosystem on the islands. With the 
sequestration cuts we are still going to be doing all mandatory 
agricultural exams. These are required under statute and 
regulation that are run by the U.S. Department of Agriculture, 
and it is the highest priority on the agricultural mission side 
to continue those during sequestration.
    On the tourism side, we are going to have fewer people to 
staff the primary booths, so we will see increased wait times 
at the airport. That could be up to 50 percent, with peak times 
increasing significantly. So that is a concern. Lot of people 
want to stay in Hawaii when they get there so it has some of 
the--fewer challenges with missed connections than other 
airports, but it is an issue that we are going to be facing if 
we do go into the sequester.
    Ms. Gabbard. Thank you. I didn't know you were a local boy.
    What kinds of technology are you or your team looking at 
really to----
    Mrs. Miller. This will be the last question for the lady.
    Your time is over.
    Ms. Gabbard. Oh, I am sorry. I will stop there then. I can 
follow up. Thank you.
    Mrs. Miller. At this time the Chairwoman would recognize 
Mr. Cuellar for 5 minutes. We welcome you back to the 
committee.
    Mr. Cuellar. Thank you so much. Thanks for allowing me to 
be here. To you, Madam Chairwoman, and the Ranking Member, and 
Mr. Thompson, also, thank you very much.
    We as a country, we still need--one of the most important 
things we need to do is secure the border. For us here in 
Texas, for the ones that don't just come visit and get an 
impression but for the ones that live in Texas, we understand 
that in areas like Texas securing the border has always been 
challenging. It has been a concern.
    In fact, I have a letter here from--somebody in charge of 
the border sent this letter to the highest-ranking official in 
Texas and he is talking about nine families--nine individuals 
that came in with their families. They came in, they 
disregarded the law, the stayed in Texas in disregard of what 
the law was.
    Most people would agree that that is an issue. The only 
thing is that this was written under God and liberty by Coronet 
Jose de las Piedrasto Stephen F. Austin on November 12, 1830. 
He was talking about Americans coming into Texas. That was part 
of Mexico at that time. Of course, you know, a little bit after 
that they declare independence, then the United States got into 
the real estate business and took over 55 percent of the 
Mexican territory at that time that included Texas, California, 
Utah--parts of Utah--and a whole bunch of other States.
    So the border has been a concern for us in Texas for many 
years. The issue is: How do we secure the border? Because I 
think the gentleman, Mr. Barletta, was right: For anybody that 
comes in with the simplistic view that if you put a fence that 
will secure the border, you know, we have got to look beyond 
that. By the way, we are just talking about his--the fence that 
we built that we spent billions of dollars on the fence. There 
were two young ladies that climbed the fence in 18 seconds, and 
this is the fence that we spend billions of dollars, so we have 
got to be smart on how we secure the border.
    One mile of fence will cost--at least the numbers we were 
given in this committee years ago--$7.5 billion per mile. One 
mile of technology will cost about $1 million per mile, so we 
have got to be smart on how we secure the border.
    The other thing is, you are absolutely right, 40 percent of 
those individuals didn't cross the river but came in through 
legal permits and visas, so you can put the biggest fence and 
still not secure the issue. So we have got to be smart on how 
we do it.
    When we spend billions of dollars we have got to understand 
we are getting the best bang for the dollars. You know, for 
years we have been struggling on how we measure the results for 
those billions of dollars, how do we measure what we are doing?
    A lot of times it has been, if I can say, us versus you--
and I appreciate all of the work that you all are doing, the 
men and women--but as Mr. Thompson said, is a lot of times we 
as the oversight individuals, we are not given the information 
until later. For example, the border condition index--I haven't 
seen it. I have no idea who is putting that together, and when 
David Aguilar was in Laredo this last weekend we talked about 
it and he gave me the same answer, that you all are working on 
it.
    We don't know what--who is putting the information to this 
border condition, and I think folks like Beto or myself that 
live on the border, folks that live there, we have got our 
families there, we had our businesses there, we had everything 
there, we want to know what performance measures are being used 
to measure the border. I will tell you, I had Michael McCaul at 
my house, stay with me, stay there with my wife, my two kids, 
and think he was secure as a happy lark, and you know, he was 
happy there, and you know, we didn't walk around with secure 
guards or anything like that.
    So, I mean, there is--everybody has a perception of what 
border security is, but what we need is we need your help so we 
can all agree finally what a secure border is. I am one of 
those, I also feel that the border is secured.
    Do we need to do more? Yes, I think we need to do more, and 
this is why we asked GAO to do this comprehensive because in 
the past, if you recall in this committee, we had two 
individuals that were paid a little bit of money to come up 
with this report that called the border a war zone. As Beto 
said, you know, Laredo is more secure than Washington, DC. The 
murder rate here is higher than other areas. But we have got to 
come to an agreement as to what measures, otherwise Democrats 
are going to say it is secure, Republicans say it is not going 
to be and we are never going to get--hopefully we can get your 
help in giving us that information so we can all come down to 
the same measurements.
    Before my time is over I have got to ask you: Who is 
involved with preparing this border condition index? What 
consultants are involved in this?
    Fisher. Mr. Fisher.
    Mr. Fisher. I am not aware of which consultants. I do know 
that within U.S. Customs and Border Protection Mr. Mark 
Morkowski, I think, had the lead for the office to help staff 
that, but I am not aware of any consultants.
    Mr. Cuellar. All right.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thanks.
    In the interest of time--again, we have a hard deadline of 
noon or before, but I know that it sounds like some of the 
Members may like to have a follow-up, so if there are Members--
excuse me--we will go to 2 minutes for questions.
    Start with the Ranking Member.
    Ms. Jackson Lee. Madam Chairwoman, thank you very much, and 
thank the Members very much.
    Let me just say that I will quickly make these points. I 
think the violence focuses more on drug cartels and gun 
trafficking and various guns than two or three people walking 
over the border, though it is of great concern.
    I am going to ask some rapid-fire questions.
    Chief Fisher, I would like to know your explanation as to 
why ``operational control'' may not be the best terminology.
    I would like to ask my good friend, Dr. Rosenblum, to try 
to match the value of comprehensive immigration reform with 
border security, how the two may be parallel.
    I would like my friend from the GAO to assess how she 
believes the CBP is responding to the recommendations that you 
have made.
    Finally, let me say that I empathize with my friend from 
Pennsylvania, having been here during 9/11. But I will say that 
overstays can be handled through a comprehensive immigration 
reform.
    Coming from Texas, I want to help ranchers and farmers, and 
I hope that the chief will listen, and that is why I asked the 
question about operational control. Move Border Patrol agents 
to these areas, and can you do so when there is a need to 
protect our ranchers and farmers?
    I thank the Chairwoman--in my raspy voice.
    Mr. Fisher. First question, in terms of operational 
control, I want to be clear, because I know 3 years ago I 
vehemently came out and said, ``No. No operational control.'' 
It is not because I am against that term, by the way; it is 
because of the way that it was being used synonymously with 
security at the time.
    As we look at its origination and being a tactical term for 
us to be able to deploy, redeploy resources and measure that in 
a linear fashion as we deployed it, I didn't think it was 
synonymous with security, given the context in which it was 
being used outside of the organization. So I just wanted to be 
clear on that and I think the direction that this committee is 
having, in particular with the leadership of the Chairwoman, I 
think it gets us back on track in terms of, regardless of what 
we call it, what is it that we are looking to measure--that 
being outcomes, not necessarily outputs.
    Unknown. [Off mike.]
    Mr. Fisher. Certainly. One of the challenges that we have 
in moving--and the third pillar of our strategy, obviously, is 
rapid response. How do we, when we have the intelligence, when 
in an integrated fashion have to move Border Patrol agents, 
some of the challenges include three things in particular: No. 
1, when it comes to the negotiated agreement with the union 
there are some things within the collective bargaining 
agreement that prevents us from doing some of the flexibility, 
the mobility that we need to. We would just normally work with 
the union to be able to minimize and negotiate any impact and 
implementations.
    No. 2, the Office of Personnel Management, with the rules 
and regulations, somehow--sometimes in the manner in which we 
want to move Border Patrol agents within those rules and 
regulations doesn't allow me the flexibility to do that at 
times. No. 3, as we had discussed, is the uncertainty in terms 
of budget.
    Mr. Rosenblum. Ms. Jackson Lee, thank you for the question. 
I think that one of the points that has come up today from 
several of the questioners and several of the comments on the 
panel is how important it is to think about border security in 
a systemic context, you know, that we are concerned about flows 
across the border, we are concerned about illegal flows through 
the ports, we are concerned about overstays, and the tools that 
we put in place right on the border are, you know, one of 
several tools that also occur in a context of what we are doing 
at worksites, what we are doing within the country, what our 
admissions policies look like. So to focus just on the border 
by itself and to aim for a number versus thinking about that 
whole systemic approach, I think that it has come up over and 
over again that that systemic approach has to be sort of how we 
come up with that assessment.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the gentleman from South 
Carolina.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Just in the times of budget constraints and whatnot, I 
would like Chief Fisher to talk with me a little bit about how 
you work with local law enforcement, local ranchers on ranch 
security as a force multiplier on securing the border.
    Mr. Fisher. Thank you, sir. That is a really important 
point, by the way. Matter of fact, in the strategy we call that 
community engagement.
    We recognize even with finite resources and Border Patrol 
agents on the border, the border is very broad. The space in 
which we operate is vast, as you well know.
    Our ability to work with not just the State, local, and 
Tribal law enforcement organizations that have the duty and 
responsibility to enforce those laws and to assist us in the 
same common goals in protecting this country, but it is the 
community, right? It is the business owners that operate in and 
around the border as well. They have a whole different 
perspective in terms of things that they are seeing. They know 
what is odd in a particular area and they know what belongs in 
a particular area.
    Our responsibility is to bring them in as communities of 
interest and explain to them not just what we are doing and 
hope they like us more, but understand specifically what the 
threats are as defined by the intelligence community, defined 
by our perspective and the area in which we operate, and make 
them aware of that, and so that over time they are--and this 
has worked over this past year in South Texas in particular, 
you know, with some of the increase in business in terms of the 
oil industry down there. We have had great cooperation with the 
industry because we are explaining that some of the tactics, 
techniques, and procedures that the criminal organizations are 
using in that area and they have oftentimes given us 
information that we wouldn't have otherwise gotten about 
illegal activity there because we have explained to them what 
our strategy is, the objectives in which we are trying to 
achieve, and they have a better sense on how they can cooperate 
in that regard.
    Mr. Duncan. Were you shifting resources when you received 
that information about where there might be a threat?
    Mr. Fisher. Yes, sir.
    Mr. Duncan. Okay. That is good.
    Just one real quick question for Ms. Gambler: TSA--and you 
have got a Global Entry program and you also have a TSA 
PreCheck program. Is there any talk about combining those for--
just for efficiency measures?
    Ms. Gambler. I am not aware of anything specifically like 
that, but let me say that we do have some on-going work that we 
are initiating to look at CBP's Trusted Traveler programs, 
including the Global Entry program, and so we will be looking 
at that going forward, in part for this subcommittee.
    Mr. Duncan. I guess TSA PreCheck is more internal U.S. 
domestic flights and so we need to make it easier for domestic 
frequent travelers to fly within the United States.
    Thank you.
    Mrs. Miller. Thank you.
    I certainly want to, again, thank all of the witnesses. I 
think your testimony has been very, very helpful to the 
subcommittee, and as we sort of take a step back here and ask 
that question again, what does a secure border actually look 
like and how do we get there, how do we measure it, et cetera? 
So I appreciate all of your testimony.
    I know the Ranking Member had two questions, and we would 
ask for GAO in particular to----
    Ms. Jackson Lee. And the chief, as well----
    Mrs. Miller [continuing]. And the chief to respond in 
writing to the Ranking Member's questions.
    I would also remind every Member of the committee, as well, 
that the hearing record will be open for 10 days, so if they 
have any further questions or comments we can pursue that 
avenue as well.
    Without objection, this committee stands adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions From Honorable Steven M. Palazzo for William D. Lee

    Question 1a. The maritime domain is a vast far-reaching area with 
over 12,300 miles of general U.S. coastline. It is unreasonable to 
expect the Coast Guard will prevent all conceivable smuggling 
activities. Our ability to maintain situational awareness is even more 
critical because the maritime domain is so large. How does the Coast 
Guard establish situational awareness in the maritime environment as to 
have a best understanding of the trafficking of contraband?
    In your view, what is the greatest threat to the homeland in the 
maritime domain?
    Answer. Response was not received at the time of publication.
    Question 1b. Are there any pressing gaps that the Coast Guard needs 
to address?
    Answer. Response was not received at the time of publication.
    Question 2a. Maritime smuggling is constantly evolving with recent 
trends including the use of panga boats and semisubmersible submarines. 
Drug cartels are bypassing land borders and Ports of Entry by employing 
panga boats on smuggling routes further west and north along the 
California coast. Is there any pattern emerging that these panga boats 
are using routes along the Gulf Coast?
    What level of risk would you give the Gulf Coast to panga boats and 
other similar smuggling methods?
    Answer. Response was not received at the time of publication.
    Question 2b. If so, has Border Patrol taken any steps to counteract 
this trend?
    Answer. Response was not received at the time of publication.
    Question 2c. Does Border Patrol/Coast Guard have the necessary 
resources to combat maritime smuggling both along the Gulf Coast and 
the West Coast effectively?
    Answer. Response was not received at the time of publication.
    Questions From Honorable Steven M. Palazzo for Michael J. Fisher
    Question 1a. Maritime smuggling is constantly evolving with recent 
trends including the use of panga boats and semisubmersible submarines. 
Drug cartels are bypassing land borders and Ports of Entry by employing 
panga boats on smuggling routes further west and north along the 
California coast.
    Is there any pattern emerging that these panga boats are using 
routes along the Gulf Coast?
    Answer. Response was not received at the time of publication.
    Question 1b. What level of risk would you give the Gulf Coast to 
panga boats and other similar smuggling methods?
    Answer. Response was not received at the time of publication.
    Question 1c. If so, has Border Patrol taken any steps to counteract 
this trend?
    Answer. Response was not received at the time of publication.
    Question 1d. Does Border Patrol/Coast Guard have the necessary 
resources to combat maritime smuggling both along the Gulf Coast and 
the West Coast effectively?
    Answer. Response was not received at the time of publication.
    Question 2a. In your testimony, you indicated that travelers should 
expect delays because of the effects of sequestration.
    What alternatives is CBP considering for avoiding delays for 
travelers at its land border crossings, while maintaining effective 
levels of security?
    Answer. Response was not received at the time of publication.
    Question 2b. How often does Border Patrol utilize the National 
Guard in securing the border?
    Answer. Response was not received at the time of publication.
    Question 2c. How effective have these missions been?
    Answer. Response was not received at the time of publication.
    Question 2d. Could Border Patrol benefit from an increase of the 
National Guard's presence along the border, particularly as we draw 
down from the war in Afghanistan?
    Answer. Response was not received at the time of publication.

       Questions From Honorable Beto O'Rourke for Kevin McAleenan

    Question 1a. In your testimony, you noted that wait times and 
service levels at our land ports of entry are a major focus for the 
U.S. Customs and Border Protection. Specifically, you highlighted 
efforts such as reduced vehicular wait times at our ports of entry in 
fiscal year 2012 despite a 12% increase in traffic volume over the past 
3 years and a 25% increased capacity to facilitate pedestrian traffic 
flows at certain locations, such as the Paso del Norte Port of Entry in 
my Congressional district.
    Please provide data to the committee on the average vehicular and 
pedestrian wait times at land ports of entry across the nine sectors of 
the Southwest Border over the past 5 years.
    Answer. Response was not received at the time of publication.
    Question 1b. Based on current data, has CBP been able to project 
future vehicular and pedestrian volume and wait times at the land ports 
of entry across the nine sectors of the Southwest Border? If so, please 
provide this data.
    Answer. Response was not received at the time of publication.
    Question 1c. Specifically as it relates to the each land port of 
entry in El Paso (i.e. Paso del Norte Bridge, Ysleta International 
Bridge, Stanton Street Bridge, and Bridge of Americas) please provide 
the following data for the past 5 years:
  <bullet> The average vehicular and pedestrian wait times broken down 
        by time of day;
  <bullet> The average number of vehicular lanes open and closed;
  <bullet> The average number of hours all lanes have been opened.
    Answer. Response was not received at the time of publication.
    Question 1d. What current technological capabilities has CBP 
implemented at its land ports of entry to provide real-time information 
to travelers wishing to enter the United States? How accurate does CBP 
believe this information to be? How does CBP plan to continue improving 
upon its current technology?
    Answer. Response was not received at the time of publication.
    Question 1e. How does CBP expect sequestration to impact wait times 
at our land ports of entry? Additionally, does CBP have specific 
projections as to how long vehicular and pedestrian wait times may 
increase?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
